<html>
<title> - THE CASE AND TREATMENT OF PROMINENT HUMAN RIGHTS LAWYER GAO ZHISHENG</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  THE CASE AND TREATMENT OF PROMINENT HUMAN RIGHTS LAWYER GAO ZHISHENG

=======================================================================



                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2012

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov






                  U.S. GOVERNMENT PRINTING OFFICE
74-543                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
FRANK WOLF, Virginia                 CARL LEVIN, Michigan
DONALD A. MANZULLO, Illinois         DIANNE FEINSTEIN, California
EDWARD R. ROYCE, California          JEFF MERKLEY, Oregon
TIM WALZ, Minnesota                  SUSAN COLLINS, Maine
MARCY KAPTUR, Ohio                   JAMES RISCH, Idaho
MICHAEL HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii) 

                             CO N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Hon. Chris Smith, a U.S. Representative from 
  New Jersey; Chairman, Congressional-Executive Commission on 
  China..........................................................     1
Brown, Hon. Sherrod, a U.S. Senator from Ohio; Cochairman, 
  Congressional-Executive Commission on China....................     4
Wolf, Hon. Frank, a U.S. Representative from Virginia; Member, 
  Congressional-Executive Commission on China....................     5
Geng He, wife of human rights lawyer Gao Zhisheng................     8
Li Jing, wife of democracy advocate Guo Quan.....................    10
Genser, Jared, Founder, Freedom Now and Managing Director, 
  Perseus Strategies, LLC........................................    11
Fu, Bob, Founder and President, ChinaAid Association.............    14

                                APPENDIX
                          Prepared Statements

Geng He..........................................................    28
Li Jing..........................................................    30
Genser, Jared....................................................    34
Fu, Bob..........................................................    39

Smith, Hon. Chris................................................    68
Brown, Hon. Sherrod..............................................    70

                       Submissions for the Record

Article from the Epoch Times titled, ``An Open Letter to China's 
  National Peoples' Congress--Gao's First Letter to CCP's 
  Leaders,'' dated December 31, 2004, published March 25, 2006, 
  submitted by Geng He...........................................    72
Article from the Epoch Times titled, ``Stop Persecuting Believers 
  of Freedom and Mend Your Ties With the Chinese People--Gao 
  Zhisheng's Second Open Letter About the Persecution of Falun 
  Gong,'' dated October 18, 2005, published October 24, 2005, 
  submitted by Geng He...........................................    76
Article from the Epoch Times titled, ``We Must Immediately Stop 
  the Brutality That Suffocates Our Nation's Conscience and 
  Morality--Gao Zhisheng's Third Open Letter to Chinese 
  Leaders,'' dated December 15, 2005, published December 16, 
  2005, submitted by Geng He.....................................    83
``Dark Night, Dark Hood and Kidnapping by Dark Mafia,'' by Gao 
  Zhisheng, submitted by Geng He.................................    98
``AP Exclusive: Missing Chinese Lawyer Told of Abuse,'' by 
  Charles Hutzler, Associated Press, dated January 10, 2011, 
  submitted by Geng He...........................................   103
Gao Zhisheng's Statement Withdrawing From the Chinese Communist 
  Party, dated December 13, 2005, submitted by Geng He...........   110
Freedom Now Media Release titled, ``Imprisoned Chinese Human 
  Rights Lawyer Gao Zhisheng's Legal Team File Petition With 
  United Nations Urging His Immediate Release,'' dated January 
  25, 2012, submitted by Jared Genser............................   111
Written Statement of Michael Horowitz, Senior Fellow, the Hudson 
  Institute, submitted by Bob Fu.................................   119
Gao Zhisheng's Open Letter to the U.S. Congress, dated September 
  27, 2007, submitted by Hon. Chris Smith........................   119


  THE CASE AND TREATMENT OF PROMINENT HUMAN RIGHTS LAWYER GAO ZHISHENG

                              ----------                              


                       TUESDAY, FEBRUARY 14, 2012

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 12:31 
p.m., in room 2118, Rayburn House Office Building, 
Representative Chris Smith, Chairman, presiding.
    Also present: Senator Sherrod Brown; Representative Tim 
Walz; Representative Frank Wolf.

 OPENING STATEMENT OF HON. CHRIS SMITH, A U.S. REPRESENTATIVE 
 FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION 
                            ON CHINA

    Chairman Smith. The Commission will come to order. I want 
to welcome all of our distinguished panelists and guests, and 
thank you for being here.
    Ladies and gentlemen, as President Obama welcomes Vice 
President Xi Jinping, Chinese Leader-in-Waiting, to the White 
House today, our Commission will hear testimony from two wives 
who are appealing for the immediate release of their jailed 
husbands, great human rights leaders back in China. We will 
also hear from two human rights experts as well who will give 
great insight and detail as to the issues before us.
    As Chairman, I hope that President Obama does not put human 
rights last on the agenda, or not at all, as he did when 
President Hu Jintao visited the White House on January 19, 
2011.
    One of the wives, Li Jing, says that ``only the United 
States can make this case to China,'' that is the case of her 
husband and the case of the disappeared and incarcerated human 
rights leaders. Please, President Obama, listen to these 
courageous women, Geng He and Li Jing, and act decisively.
    The China Commission hopes that the issue of human rights 
abuses in China will be raised in a serious and visible way 
during the Vice President's visit, and particularly that the 
detention of Gao Zhisheng, Liu Xiaobo, Chen Guangcheng, Guo 
Quan, Liu Xiabin, Pastor Yang Rongli, and Alimujiang Yimiti, 
and others is raised often and discussed in detail.
    This important and timely hearing recognizes one of China's 
most important human rights leaders and lawyers, Gao Zhisheng. 
In early 2000, Mr. Gao, a self-trained lawyer, emerged as a 
champion of human rights causes and a defender of marginalized 
groups in China. Today, we know little about Mr. Gao's current 
condition or his whereabouts.
    Then the issue of Guo Quan, who is an academic and 
professor who published an open letter to President Hu calling 
for multi-party elections, posted a charter for a new democracy 
party online and called for the end of China's notorious 
reeducation through labor system. For that, he was sentenced to 
10 years in prison.
    Gao Zhisheng's brilliant legal advocacy on behalf of 
marginalized groups in China, including religious 
practitioners, the Falun Gong, and others, Christians, rural 
workers, human rights activists, and more, resulted in him 
being sentenced on trumped up inciting subversion charges in 
2006.
    He was sentenced to three years imprisonment, but granted a 
five-year suspended sentence or period of parole. During this 
time, however, Mr. Gao was subjected to years of brutal torture 
and he repeatedly ``disappeared.'' An outspoken Christian, Mr. 
Gao has been disappeared into official custody since February 
2009, with only a brief reappearance under official supervision 
in March and April 2010.
    Information on Mr. Gao's enforced disappearance and current 
condition remain a closely guarded secret. For months and years 
we heard nothing of Mr. Gao's ongoing detention or torture. Two 
months ago, however, Chinese officials announced that Mr. Gao 
would be forced to serve out his original three-year criminal 
sentence a week before he should have finished his five-year 
parole period.
    The announcement claimed that Mr. Gao violated the 
conditions of his parole. Of course, no details were provided. 
One can only wonder what violations Mr. Gao committed since he 
has been held incommunicado during a majority of his parole 
period and has been, as I said, brutally tortured by the 
Chinese Government throughout.
    In the past month, his brother and other family members 
have been turned away in their attempts to visit Mr. Gao. We 
have received no word on his health or condition. An expert 
witness will demonstrate the official case against Gao Zhisheng 
is not only rife with villainy, but also bereft of any 
semblance of humanity.
    In an account of Mr. Gao's torture, made public by the 
Associated Press in January 2011, Mr. Gao disclosed to that 
reporter the excruciating details of his detention:

    The police stripped Gao Zhisheng bare and pummeled him with 
handguns in holsters. For two days and nights they took turns 
beating him and did things he refused to describe, it was that 
horrific. He recalled for 48 hours ``my life hung by a 
thread.'' Authorities reportedly threatened to kill Mr. Gao, to 
dump his body in a river. Authorities taunted him by saying, 
``You must forget you are human.''

    To the Vice President of China: We will not forget. We do 
not know if Mr. Gao is alive or dead. In solidarity with Mr. 
Gao and his family and his lovely wife, who is here today, we 
know that we will honor Mr. Gao's accomplishments, his rights 
advocacy, and his brave witness for the truth. We will not let 
those who hold Gao Zhisheng destroy his legacy. We will not 
allow these criminals to dispose of his significance. We will 
not forget him, not now and not ever, and we will continue to 
press for his release.
    We are also honored to hear from two specialists with 
unique insights, including Jared Genser, founder of Freedom Now 
and a member of Gao Zhisheng's international pro bono legal 
team. Mr. Genser will discuss the recently filed petition with 
the UN Working Group on Arbitrary Detention on behalf of Mr. 
Gao which seeks an opinion on whether his imprisonment violates 
international law.
    We will also hear from Pastor Bob Fu, founder and president 
of ChinaAid Foundation. Pastor Fu, who also spent time in the 
laogai when he was still in China, will discuss the ``Free 
Gao'' campaign and the need to hold China accountable for its 
ongoing harassment.
    The case of Guo Quan, a former criminal court officer and 
university associate professor, illustrates how Chinese 
officials target citizens who attempt to form independent 
political parties or use the Internet to organize or to pose 
online opinions deemed too politically sensitive.
    In 2007, Mr. Quan began posting a series of open letters to 
top government leaders, advocating on behalf of laid-off 
workers, demobilized military cadres, and displaced farmers. He 
also wrote letters calling for a multi-party rule and for 
democratic reforms. Because of his writings, because they were 
considered too critical of the government, he lost his 
university professorship, and then he was further demoted from 
a Communist democratically state-approved party, and then 
formed his own party. For that and these other things, he has 
gotten a 10-year prison sentence.
    The hearing today continues the Congressional-Executive 
Commission on China's work to monitor China human rights and 
the rule of law developments and to give voice to the 
persecuted. In the past year, the Commission has consistently 
raised China's ongoing violations of international law and 
human rights standards in its reports and events. Recent 
hearings have been able to boldly shine a light on some of 
China's gravest human rights abuses and injustices and on its 
darkest policies.
    In December 2011, just a few months ago, our Commission 
held a hearing on Liu Xiaobo, a year after he was awarded the 
Nobel Peace Prize in absentia. No one, not even his wife, was 
allowed to travel to Oslo to receive that coveted award and he 
remains incarcerated unjustly by the Chinese Government.
    In November 2011, last year, just a couple of months ago, 
we held a hearing on the illegal detention and abuse of Chen 
Guangcheng and his family. A self-trained legal advocate, Mr. 
Chen was wrongfully imprisoned for exposing China's brutal 
forced abortion policy and his heroic activism on behalf of the 
women victims in Linyi which caused the ire of the dictatorship 
to come down with full force.
    As I think we all know, China's one-child-per-couple policy 
is state-sponsored cruelty and constitutes a massive crime 
against humanity. The Nuremburg War Crimes Tribunals properly 
construed forced abortion as a crime against humanity. Nothing 
in human history compares to the magnitude of China's 33-year 
assault on women and children. Chen spoke out. Chen and his 
wife continue to pay a price.
    That policy, as we all know, has made brothers and sisters 
illegal. It has led to the absence of upward of 100 million 
girls who have been killed by way of sex selection abortion as 
part of this one-child-per-couple push, and that has led to a 
massive increase in human trafficking because the women simply 
are not there.
    We held a hearing at which we heard that between now and 
2020, something on the order of 40 to 50 million men will not 
be able to find wives because they have been systematically 
killed as part of the one-child-per-couple policy. So, it is a 
very serious policy. Chen spoke out and paid the price.
    I would also note that I and members of our staff have 
tried to visit Chen Guangcheng. We have appealed repeatedly and 
applied repeatedly to the Chinese Embassy here for a visa to go 
and visit him. Turned down. It is an ongoing request. My hope 
is that they will grant it, and grant it soon.
    Again, I want to thank our distinguished witnesses. I would 
like to turn to my good friend and colleague, Cochairman Brown, 
for any opening comments you might have.

  STATEMENT OF HON. SHERROD BROWN, A U.S. SENATOR FROM OHIO; 
    COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Senator Brown. Thank you, Mr. Chairman. I will be brief. 
Thank you all for attending today's important hearing on the 
treatment of Chinese human rights lawyer Gao Zhisheng.
    We are here to show support for a man who has devoted his 
life to defending the rights of his fellow citizens. A special 
thank you to his courageous wife, Ms. Geng He. Thank you very 
much for being here today. We look forward to hearing from you 
about your husband's life and career defending marginalized 
groups in the People's Republic of China and know that his and 
your life's devotion to human rights is a source of inspiration 
for so many people in the United States and China and across 
the world. Thank you.
    Thank you also to Li Jing, the wife of imprisoned Chinese 
dissident Guo Quan. She, too, will share her husband's story of 
standing up for basic human rights in the face of intimidation 
and imprisonment. Today's hearing comes at an important time in 
the relationship between the United States of America and the 
People's Republic of China.
    As the Chinese Vice President attends meetings just minutes 
away from here with our top officials, we are reminded that the 
real China is represented by the brave individual imprisoned in 
China under a cloud of secrecy who is the focus of today's 
hearing.
    In understanding Gao's story we understand not only what 
Gao stands for, but the challenges that we face in China today. 
Mr. Gao has devoted his life to trying to make the law work for 
those he represented--the underprivileged and the underserved. 
He stood up for those kicked off their land by greedy and 
corrupt officials and developers. He stood by factory workers 
protesting low wages and long hours. He spoke out for 
persecuted practitioners of Falun Gong.
    In stark contrast, Chinese authorities showed no concern 
for Mr. Gao's rights or the law. They disbarred him, they 
jailed him. They have tortured him and somehow made him 
disappear. Chinese authorities have used Mr. Gao to send a 
chilling message to other would-be human rights defenders: Stay 
quiet, don't challenge us, don't hold us accountable, or else.
    Mr. Gao himself would say that his case is about more than 
just his own experience. As he wrote in his book, ``A China 
More Just,'' behind each case in China are systemic problems. 
From the problems that Mr. Gao has faced, the utter disregard 
for the rule of law by his government and the Communist Party, 
we see why our Nation faces so many systemic problems with 
China today.
    Mr. Gao's case and the cases he worked on show us how easy 
it is for Chinese officials to cheat, to bend the rules, to 
game the system. They show us how easy it is for China to 
ignore labor laws and environmental standards, hoard raw 
materials, manipulate its currency. They brazenly tell us and 
then sell us--with the help of some of our own companies, I 
might add, in this country--toxic toys, tainted pet food, 
consumer products made by overworked and underpaid workers.
    While I and others in our government are doing what we can 
to ensure the safety and health of our citizens in a fair 
trading relationship with China, we know that we cannot do it 
alone. We need brave citizens like the men each of you are 
married to to defend their rights to make sure they have a fair 
and living wage, their food is safe, that their environment is 
clean.
    That is why Mr. Gao's case is so important, because if 
Chinese citizens can defend their rights we all benefit. We all 
benefit in my State, in my country, and around the world when 
we know the products we buy from China are made by workers who 
are treated well in good, cleaner conditions.
    We all benefit from a rule of law that ensures the citizens 
of China the possibility to hold their government accountable 
and to petition grievances to effect change. But until Mr. Gao 
and countless other political prisoners in China are released 
from their shackles, that day will remain in the distant 
future. That is why we on this commission and our government 
must continue to do all we can to spotlight these cases and 
secure Mr. Gao's release. We want to help in any way we can. 
Treatment of basic human rights deserves nothing less.
    Thank you, all of you, for joining this hearing.
    Chairman Smith. Thank you, Senator Brown.
    I yield to Ranking Member Tim Walz.
    Representative Walz. I yield to the chairman of the Lantos 
Human Rights Commission and an outspoken advocate on behalf of 
human rights in China; Frank Wolf.

   STATEMENT OF HON. FRANK WOLF, A U.S. REPRESENTATIVE FROM 
 VIRGINIA; MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Representative Wolf. I want to thank you, Mr. Smith, and 
also Senator Brown, for your work on these issues. I do have a 
statement I want to read, and say I woke this morning to read a 
powerful but thoroughly unsettling piece by China dissident Yu 
Jie that was in the Washington Post. He opens with the 
following. He said, ``Chinese dissident writers exiled to the 
West today get a very different response than Soviet writers 
received not long ago.''
    I would even go further than Mr. Yu. Chinese defectors get 
a very different response, as evidenced by a story that broke 
days ago about a senior Communist Party official in China that 
reportedly attempted to defect to the United States and was 
turned away after his request for asylum was rejected.
    Returning to Yu Jie, this soft-spoken man who I recently 
met endured beatings and torture from Chinese secret police. He 
asserts that ``China is a greater threat than the Soviet Union 
ever was, but now the West,'' he said, ``lacks visionary 
politicians such as Ronald Reagan to stand up to that threat.'' 
I could not agree more.
    In fact, just last week, along with a number of other 
Members, we urged President Obama in a letter signed by a 
number of Members to do what Reagan has done. We urged him to 
meet with the families of these dissidents. We urged the 
President to publicly and privately raise the cases of six 
prominent Chinese citizens who have suffered greatly at the 
hands of their own government, among them, Gao.
    We will have the honor of hearing his wife momentarily. We 
also urged the President and the Vice President to meet with 
Mr. Gao's wife prior to the meeting with China's Vice President 
to hear first-hand about the plight of these dissidents.
    While the Vice President's trip to the United States is 
already under way, the administration could still get Gao's 
wife the courtesy of a meeting--the courtesy of a meeting--
after the fact, given that they rolled out the diplomatic red 
carpet for the very government who has imprisoned and tortured 
her husband. So can't they now meet with her, even if it's 
afterward, if they ignored it before?
    It's clear that the current approach to China is not 
working. We are losing jobs. Quiet diplomacy whereby grave 
human rights and religious freedom abuses are reportedly 
discussed in private meetings, but rarely if ever raised 
publicly, has not yielded any results and in fact has 
emboldened--it has emboldened--the Chinese Government.
    We should not forget the persecuted church. The Cardinal 
Kung Foundation says that 25 Catholic bishops in the 
underground church are under house arrest. Protestant pastors 
are in jail. A Tibetan nun just set herself aflame on Sunday 
because of the activity, and the list goes on.
    But when you look at this in context with this next thing, 
these issues would have featured, I am sure prominently, in a 
trip that Suzan Johnson Cook, the State Department's 
Ambassador-at-Large for International Religious Freedom, was 
ready to take to China last week. It is my understanding that 
her trip has been canceled.
    Her request to meet with Chinese Government officials was 
denied and a visa was denied. So the special ambassador for 
this administration cannot get to China, cannot even get a 
visa. And yet when you have people who are putting people in 
jail and torturing people, it begs the question, has the 
department protested this action? Has the Secretary or the 
White House protested that their own ambassador cannot even get 
a visa to go to China?
    I have more, Mr. Smith, but I will end on this last 
comment. Dr. Martin Luther King, Jr. famously said, ``In the 
end, we will remember not the words of our enemies but the 
silence of our friends.'' America is a friend to the imprisoned 
human rights lawyer. America is a friend to the young Tibetan 
nun who just set herself aflame. America is a friend to the 
tortured human rights advocates, the Catholic bishops, the 
Protestant pastors, and we should not be silent, as this 
administration has been.
    I yield back.
    Chairman Smith. Thank you, Chairman Wolf.
    I would like to now introduce our distinguished panelists.
    Just very briefly, Geng He, who is the wife of human rights 
lawyer Gao Zhisheng. Geng completed her university studies in 
accounting in China. She and Gao Zhisheng married in August 
1990. Between 2000 and 2006, she worked as a paralegal and 
accountant at a Beijing law firm, a law firm founded and 
directed by her husband.
    In March 2009, a month after Chinese officials reportedly 
detained her husband, Geng left China with her two children. 
Since arriving in the United States, she has advocated 
tenaciously on behalf of her husband through interviews and by, 
today, of course, testifying. But she has been just everywhere, 
speaking out for her persecuted husband.
    We will then hear from Li Jing, wife of human rights and 
democracy advocate Guo Quan. She has a B.A. from Nanjing Normal 
University in Nanjing City. She and democracy advocate Guo Quan 
married in November 1999. She worked for Modern Express 
newspaper for five years. Li also worked in import and export 
businesses. She arrived in the United States in January of this 
year, 2012, and has publicly advocated on her husband's behalf.
    Guo is currently serving a 10-year sentence for subversion 
of state powers, as I said before, after a court found that he 
used the Internet to organize an illegal political party and to 
publish, allegedly, reactionary statements online.
    We will then hear from Jared Genser, who is the founder of 
Freedom Now, an independent nonprofit organization that works 
to free prisoners of conscience worldwide. He is also managing 
director of Perseus Strategies, a law and consulting firm 
focusing on human rights and humanitarian projects.
    He was a partner in the Government Affairs practice of DLA 
Piper and a management consultant with McKinsey & Company. He 
has worked with this Commission, as well as with my committee. 
I chair the Subcommitte on Africa, Global Health and Human 
Rights of the Foreign Affairs Committee of the House of 
Representatives. He has been a great source of actionable 
information concerning human rights in general, but political 
prisoners in particular.
    Then we will hear from Pastor Bob Fu, who was one of the 
leaders of the 1989 Student Democracy Movement in Tiananmen 
Square, and later became a house church pastor and founder, 
along with his wife. In 1996, authorities arrested and 
imprisoned them for their work.
    After their release, they escaped to the United States and 
founded ChinaAid Foundation. He has been, again, like Mr. 
Genser, a great source of information that is accurate as well 
as actionable. So, I thank him for his leadership on behalf of 
people of all faiths, including and especially Christians who 
are suffering so much in the People's Republic of China.
    I would like to now ask Geng He if she would present her 
testimony.

 STATEMENT OF GENG HE, WIFE OF HUMAN RIGHTS LAWYER GAO ZHISHENG

    Ms. Geng. Good afternoon, everyone, and happy Valentine's 
Day. Greetings, Mr. Chairman and Mr. Cochairman. Thank you for 
inviting me to speak about my husband, imprisoned Chinese human 
rights lawyer Gao Zhisheng. I would like to thank the 
Congressional-Executive Commission on China for holding this 
hearing today and everyone in attendance for your interest in 
Zhisheng's case.
    My husband, Gao Zhisheng, is a lawyer in China. He 
represented some of the country's most vulnerable citizens. He 
represented plaintiffs who lost their land to development 
projects like the 2008 Summer Olympics. He defended factory 
workers that were arrested after they demonstrated against low 
wages and long hours.
    He also represented members of Christian house churches and 
practitioners of the banned Falun Gong spiritual movement. His 
righteous actions have brought him persecution by the Chinese 
authorities. As lawyer Gao Zhisheng once said, ``You cannot be 
a rights lawyer in China without becoming a rights case 
yourself.''
    In November 2005, the government suspended Zhisheng's 
lawyer license and closed his law firm after he refused to drop 
his most sensitive cases. He was convicted of inciting 
subversion in 2006, after confessing in the face of threats 
against our children.
    Since then, our lives have been turned upside down. The 
government placed our family under constant surveillance and 
police moved into our apartment building and followed us 
everywhere. The government has repeatedly abducted and tortured 
Gao Zhisheng--more than six times in the past few years.
    In September 2007, authorities disappeared Zhisheng and 
held him for over 50 days after he wrote an open letter to the 
U.S. Congress exposing human rights abuses in China. Policemen 
covered his head with a black hood and took him into a room, 
where they stripped him naked and beat him.
    They used electric batons to shock him all over his body, 
especially his private parts, which turned his skin totally 
black. It was so painful that Zhisheng was rolling around on 
the ground. After losing consciousness from the torture, he 
woke up covered in urine.
    Later, his captors used cigarette smoke to burn his eyes so 
severely that he could not open them. They even stabbed his 
genitals with toothpicks. Zhisheng asked them to lock him up in 
prison, but they refused. They said ``You are simply dreaming 
if you want to go to prison. We can make you disappear whenever 
we want to.'' That is what they have done. This torture lasted 
more than three days.
    In order to protect our children, I escaped with them to 
the United States in January 2009. The next month, authorities 
abducted Zhisheng again. This time the government held him for 
over a year before he briefly reappeared the following spring.
    In an interview with the Associated Press, Zhisheng 
described even more torture during the disappearance. Police 
beat him with handguns for two days and nights. He said this 
was the worst beating he had ever endured, that his life hung 
by a thread. Soon after the interview, he disappeared again.
    I last spoke to Zhisheng on April 17, 2010, on the birthday 
of my daughter, Grace. Since then, our family has been burdened 
with constant uncertainty. Zhisheng's absence has caused my 
daughter severe emotional anguish. She often dreams that her 
father is dead. My son has tears in his eyes on Father's Day. 
He tells his teacher that he does not have a father. Recently, 
we were forced to endure rumors that the guards had tortured 
Zhisheng to death.
    Then in December 2011, less than one week before Zhisheng's 
probation was scheduled to end, Chinese authorities added to 
our uncertainty by claiming that he would spend the next three 
years in prison in Xinjiang. This news came just before the 
holidays.
    Some people have asked us if we are relieved because the 
government says that he is alive, but the news has not brought 
us any peace of mind. In fact, we are more worried than ever 
before. How can we trust them? How many times have they lied to 
us? We do not know what to believe. We do not know if he is 
still in prison in Xinjiang.
    This morning, Vice President Xi Jinping was meeting with 
President Obama and Vice President Biden. Before their meeting 
I requested to meet with them, but I did not get any reply. I 
was very disappointed. I am so grateful that the United States 
has provided protection to my family from the Chinese 
Government.
    I also need to ask all of you, including President Obama, 
Vice President Biden, and Secretary of State Hilary Clinton to 
continue to call on the Government of China to respect human 
rights for all its citizens. Actually, I would like to request 
a meeting with them to tell them the story face to face.
    I ask you to continue to report on this case so the truth 
about Zhisheng's treatment at the hands of the Chinese 
Government will be known to the world, and I hope and pray that 
with your help my husband will regain his freedom and my family 
can be together once again. Thank you for giving me this 
opportunity to speak here today. I welcome any questions you 
may have.
    At the end, I would request that the Commission include the 
following articles for the record. The first one is Cai 
Zhuohua's case, regarding the persecution of Christians in 
China. The second is three open letters by lawyer Gao Zhisheng. 
This is about Falun Gong's persecution. The third is a letter 
that lawyer Gao Zhisheng wrote. The title is ``Dark Night, Dark 
Hood: Kidnapped by the Black Mafia.'' The last one is an 
interview with the Associated Press by lawyer Gao Zhisheng.
    Thank you.
    Chairman Smith. Ms. Geng, thank you very much for your very 
moving testimony, an appeal of a wife on behalf of her husband 
who has been persecuted and disappeared, and the terrible, 
devastating impact it is having on you, your family, and, of 
course, on Gao Zhisheng as well.
    Without objection, the request you have made for those 
documents to be made a part of the record, they will be made a 
part of the record.
    I would include another one, one that I remember we 
received on September 27, 2007, that was actually used against 
Gao Zhisheng. It was an open letter to the U.S. Congress, a 
very incisive letter with quotations from Madison, the 
quotation from Dr. Martin Luther King, Jr., where Dr. King said 
``injustice anywhere is a threat to justice everywhere.'' 
Without objection, that, too, will be made a part of the 
record.
    I would like to now invite our second wife whose husband is 
being unjustly persecuted, Li Jing, for your testimony.
    [The articles submitted by Geng He appear in the appendix.]
    [The letter from Gao Zhisheng to the U.S. Congress appears 
in the appendix.]

   STATEMENT OF LI JING, WIFE OF DEMOCRACY ADVOCATE GUO QUAN

    Ms. Li. Distinguished Mr. Chairman, Cochairman, ladies and 
gentlemen, and friends, my name is Li Jing. I would like to 
thank you for giving me this opportunity to speak out on the 
persecution of my husband and our family. My husband, Guo Quan, 
is currently in prison serving a 10-year sentence for 
peacefully expressing his opinions about democracy and human 
rights.
    After several years of harassment, my son and I arrived in 
the United States three weeks ago. We are exiled in this 
country, currently enjoying freedoms here that hopefully will 
someday be enjoyed by everyone in China.
    Because I now have the freedom to speak, I want to tell you 
a little about my husband's case. He is an academic and a 
professor at Nanjing Normal University, with a degree in law 
and a doctorate in philosophy. He started to publicly advocate 
for great democracy and human rights in 2007.
    Because of his public advocacy, my husband suffered. He 
cannot teach again. He was stripped of his associate 
professor's salary and allowed to work for only minimum wage. 
It makes him feel that human rights have not improved and have 
gotten even worse. Of course, this demotion did not stop his 
advocacy.
    In less than a year's time, he published online the 
``Herald of Democracy,'' a collection of 347 articles 
criticizing a one-party dictatorship, spreading the ideas of 
democracy and constitutional government.
    To push democracy in China, on December 17, 2007, my 
husband posted the ``China New People's Party Charter'' just 
online, announcing the founding of this party. Even without 
action and members he suffered. On November 13, 2008, Nanjing 
police detained my husband on the charge of ``subversion of 
state power.'' He was formally arrested on December 19, 2008, 
and sentenced on August 7, 2009, to 10 years in prison, with 
three years' probation of political rights.
    I was also forbidden by Nanjing police to go to the trial 
or speak to the international media about this case. He is 
currently serving his prison term at Nanjing Pukou Prison. From 
the first published letter, my family experienced the continued 
harassment by police. Our lives have been turned upside down 
for the simple expression of political opinion.
    Our home was raided several times in the middle of the 
night, and they forcibly confiscated our computers and some of 
my husband's manuscripts which were never returned. They even 
do not give us our house rights certification that belongs to 
my family. My employers told me that the public security 
officer submitted to him three times and he was asked to 
monitor my activities. I had no opportunity to be promoted and 
my career also came to an end.
    My husband's advocacy also affected the life of our nine-
year-old son. He was continually blamed by some teachers. 
Before his father was arrested he held some leadership 
positions in his class and in his school, but he has been 
stripped of this. Previously active and outgoing, he has become 
more and more withdrawn and lacking in confidence.
    My husband is innocent. He loves our country. He is a 
college professor who thinks he has a commitment to our 
country, but a devoted Christian whose conscience leads him to 
advocate peacefully for rights and freedoms that are universal.
    For this, he was given a 10-year prison term. This is 
egregious political persecution. His mother is elderly and sick 
and his son and I miss him greatly. I cannot imagine my son not 
being able to see his father for another seven years.
    I am very grateful to ChinaAid for helping me in the United 
States to live in exile. I appeal to the U.S. Congress and the 
U.S. Government to help reunite my family and to urge China's 
leaders to release my husband immediately and without 
condition, as well as the many other political prisoners who 
are penalized for speaking out. Thanks be to God. Thank you 
all.
    Chairman Smith. Thank you so very much for joining us and 
for your very courageous appeal on behalf of your husband. I 
hope that the White House, the House and the Senate, and I hope 
that Xi Jinping is listening to this appeal from two wives for 
your individual husbands, but also all the other left-behind 
family members on behalf of the tens of thousands of political 
prisoners and religious prisoners in China. So, thank you for 
your outstanding statement.
    I would like to now ask----
    Ms. Li. Sorry.
    Chairman Smith. Yes?
    Ms. Li. I also want Congress to keep my husband's articles, 
the 347 articles and 2 letters to Hu Jintao and Premier Wen 
Jiabao.
    Chairman Smith. All right. Thank you. We will receive those 
articles.
    Ms. Li. As congressional record. Okay. Thank you.
    Chairman Smith. Thank you.
    Mr. Genser?

 STATEMENT OF JARED GENSER, FOUNDER, FREEDOM NOW AND MANAGING 
               DIRECTOR, PERSEUS STRATEGIES, LLC

    Mr. Genser. Good afternoon, Mr. Chairman and Mr. 
Cochairman, and thank you for the opportunity to speak with all 
of you today. I want to begin by thanking the Congressional-
Executive Commission on China, and in fact all the members and 
staff here today, for the really fabulous work that you are 
doing on behalf of the United States. It is a real service to 
our country to have such scrutiny of the Chinese Government's 
human rights record.
    As international pro bono legal counsel to imprisoned 
Chinese lawyer Gao Zhisheng, I want to provide you with a brief 
overview of his case and my explanation as to why his continued 
detention violates both Chinese and international law.
    I will also reflect on why, although Mr. Gao is only one of 
many Chinese prisoners of conscience, his case is a bellwether 
that deserves especially close attention. Gao Zhisheng was a 
prominent Chinese lawyer who ran afoul of the government after 
he took on politically sensitive cases, particularly those of 
religious minority groups.
    In 2005, the government shut down his law firm. In August 
2006, the authorities arrested Mr. Gao and accused him of 
inciting subversion, a charge frequently used to silence 
government critics like 2010 Nobel Peace Prize Laureate Liu 
Xiaobo, who is also a pro bono client of mine.
    The government prevented the family's chosen lawyers from 
meeting with Mr. Gao and used threats against his wife and 
children to extract a confession. The trial lasted less than a 
day and the government failed to even notify the family or 
their chosen counsel of the proceedings.
    On December 26, 2006, the Beijing First Intermediate 
People's Court handed down a suspended three-year sentence, 
subject to a five-year probationary period. Despite the formal 
suspension of his sentence, Mr. Gao was not free. Over the next 
five years, the government repeatedly disappeared and tortured 
him. In September 2007, authorities disappeared him for 50 days 
after he publicly criticized China's human rights record.
    Then in February 2009, the government again abducted Mr. 
Gao, shortly after his family sought asylum in the United 
States. Denied access to a lawyer, Mr. Gao was held in secret 
for more than a year. Although he mysteriously reappeared in 
March 2010, Mr. Gao disappeared again a few weeks later. He has 
not been seen or heard from since.
    On November 19, 2010, the UN Working Group on Arbitrary 
Detention, an independent and impartial body, including experts 
from Chile, Norway, Pakistan, Senegal, and Ukraine, issued 
opinion number 262010, finding his ongoing detention to be in 
violation of international law.
    After 20 months without credible information regarding Mr. 
Gao's whereabouts or well-being and just days before the 
probationary period was to end, Chinese state media announced 
last 
December that Mr. Gao would now serve his three-year prison 
sentence. The government claimed that Mr. Gao violated his 
probation, and he was therefore taken to Xia County Prison in 
remote Xinjiang Autonomous Region.
    Prison authorities turned Mr. Gao's family away after they 
traveled some 22 hours by train to see him, incredulously 
claiming that Mr. Gao did not want to see his family and that 
he could not receive visitors during a three-month 
``educational'' period. No independent party has been able to 
confirm Mr. Gao is alive or actually at that prison.
    The government's imprisonment of Mr. Gao, if in fact he is 
at the Xia County Prison, is illegal for three reasons. First, 
Mr. Gao has already spent more than three years in government 
custody since his arrest in 2006 on subversion charges. Quite 
simply, he has already served his full sentence.
    Second, the charges against Mr. Gao for inciting subversion 
arise out of his written and spoken criticism of the Chinese 
Government. Imprisoning Mr. Gao for exercising his fundamental 
right to freedom of expression is a flagrant violation of 
China's international obligations and its own Constitution.
    Finally, the prosecution of Mr. Gao failed to meet 
international standards for due process. During the trial the 
government relied on a forced confession and denied Mr. Gao the 
right to counsel of his own choosing. Thus, in revoking Mr. 
Gao's probation we have subsequently seen that the government 
has acted without any legal process whatsoever yet again. We 
filed a new petition to the UN Working Group on Arbitrary 
Detention, urging it to find this new period of detention is 
also in violation of international law.
    Although he is only one of many Chinese prisoners of 
conscience, Mr. Gao's case is an important bellwether for three 
reasons. First, Mr. Gao is not a traditional dissident, he is a 
lawyer. A vanguard of the Weiquan, or rights defending, 
movement, Mr. Gao attempted to promote the rights of his 
clients from working within the system. His case shows the 
government's willingness to persecute those that promote the 
rule of law from within, but he is not alone.
    The government continues to hold prominent lawyer Chen 
Guangcheng under strict house arrest with his wife and 
daughter. Chen, also a self-trained lawyer, rose to prominence 
after he organized a class-action lawsuit exposing abuses under 
China's one-child policy. The government is also moving forward 
with the prosecution of Ni Yulan, a well-known tenants' rights 
lawyer.
    Second, the continued detention of Mr. Gao is instructive 
because it is part of a larger crackdown in which the Chinese 
Government continues to stifle freedom of expression. As 
Ambassador Locke noted last month, repression in China has only 
worsened since the uprisings in the Middle East and North 
Africa.
    In December and January, activists Chen Wei, Chen Xi, and 
Li Tie all received long prison sentences of 9 or 10 years and 
authorities put a fourth activist, Zhu Yufu, on trial. Each was 
charged with subversion or its incitement. This larger 
crackdown will only be exacerbated by the government's 
incredulous moves to potentially legalize disappearances like 
Mr. Gao's under Chinese law. Such a cynical move would render 
the whole idea of the rule of law meaningless.
    Finally, Mr. Gao's case is striking for how brazen the 
government has become in its willingness to publicly and 
transparently lie about the circumstances of his detention. 
After the government disappeared Mr. Gao in 2009, a security 
agent told the family that Mr. Gao had ``lost his way and went 
missing.''
    Later, the Foreign Ministry spokesman indicated that Gao 
was ``where he should be,'' an ominous reference, but when 
pressed later smiled and said he didn't know where Mr. Gao was 
and couldn't be expected to know the whereabouts of all of 
China's 1.3 billion people.
    Then the government released a photograph of Mr. Gao 
purporting to show him alive and well, but in it Mr. Gao was 
wearing a distinctive bracelet he had given his daughter Grace 
before she, Geng He, and their son Peter fled to the United 
States.
    After his wife Geng He pointed this out in an interview, an 
unknown woman tried to steal this bracelet from Grace on a New 
York City subway. Now authorities are claiming that Mr. Gao, a 
loving husband and father, would rather not see his family.
    The Chinese Government's treatment of Mr. Gao and his 
family is nothing short of shocking, and its contradictory 
claims show a total disregard for the international community. 
If the government's lies are not publicly and directly 
confronted, it sends a message to Beijing that respect for the 
rule of law and basic human rights are no longer a priority.
    I thank you for the opportunity to share my thoughts with 
you today and would of course welcome any questions. Thank you.
    Chairman Smith. Thank you so very much for your incisive 
testimony.
    I would like to now ask Pastor Fu if you would proceed.

     STATEMENT OF BOB FU, FOUNDER AND PRESIDENT, CHINAAID 
                          ASSOCIATION

    Mr. Fu. Thank you, Mr. Chairman, Mr. Cochairman, and the 
honorable members of the CECC. Thank you for the Commission's 
professional staff and for your excellent work in documenting 
and pursuing the human rights issue in China.
    ChinaAid's mission is to promote the establishment of a 
loving and just civil society in China that abides by the rule 
of law. In pursuit of this mission and out of a profound 
respect for Gao Zhisheng and to support his work, ChinaAid has 
spared no effort in launching a worldwide campaign aimed at 
winning Gao's release.
    Over the past five years we have expended huge manpower and 
financial resources in ceaselessly mobilizing efforts in this 
regard. As a very small NGO, we are limited in what we can do 
but we know that our efforts have some value in the same way 
that those voices against slavery before the American Civil War 
eventually led to the full awakening of the forces of justice.
    Three years ago, we set up the Free Gao Zhisheng Web site 
called ``FreeGao.com'' to draw attention to Gao's plight and to 
launch a worldwide petition on his behalf. So far, we have 
collected more than 150,000 real name signatures from 196 
countries. We printed out the signatures today and we want to 
give them to the CECC for the record.
    These names, these voices, these people spoke up. From 
Sudan to Afghanistan, from South Africa to Norway, from China 
to America, 150,000 people of conscience coming from various 
faith backgrounds, political systems, and family backgrounds of 
different occupations and of all ages have signed this 
petition.
    For more than three years we have been looking night and 
day for Gao Zhisheng. We have never stopped asking, where is 
Gao Zhisheng? How is he doing? I, myself, have traveled all 
over the United States and to Europe many times, calling for 
Gao's release.
    Unfortunately, the situation is getting worse. We do not 
even have a way of confirming that Gao Zhisheng is still alive 
today. Our fears grow with each passing day, so we earnestly 
hope that the free Western world will abandon its so-called 
quiet diplomacy and speak up and urge China, a country that is 
a signatory to both the Universal Declaration of Human Rights 
and the International Covenant on Civil and Political Rights, 
to abide by both its own domestic law as well as international 
laws to abolish the use of torture and to immediately release 
Gao Zhisheng and stop persecuting his family because of him. 
China should be held accountable for Gao's case.
    On the occasion of the visit to the United States by Vice 
President Xi Jinping, the next leader of China and the Chinese 
Communist Party, we are filled once more with some hope, hoping 
that these meetings between America's top leader and Xi Jinping 
can facilitate Gao Zhisheng's release.
    We do not forget that without the countless Americans who, 
under the leadership of President Abraham Lincoln, died to free 
the black slaves, and without the price paid by Dr. Martin 
Luther King, Jr. and his supporters, the first African-American 
President in U.S. history would not be sitting in the White 
House today. This glorious history reminds us that those who 
have been freed must not forget the virtue of those who fought 
for freedom.
    Furthermore, they have the obligation to carry on this 
tradition and to show compassion and support for those around 
the world who are still being oppressed. This is the spirit of 
Martin Luther King and Gao Zhisheng, and it is a noble reason 
that should compel us to continue to fight for their cause.
    Mr. Chairman, I was very much moved this morning by the 
actions of my friend, Michael Horowitz, on behalf of the 
``China Six'' prisoners of faith and all other Chinese 
prisoners of conscience, and I think Mr. Horowitz is here 
today.
    I was especially moved by his effort to cause the Obama 
administration to deal with the human rights issues with the 
priority attention that such leaders as President Reagan and 
the late Tom Lantos gave it. Michael was arrested in front of 
the White House this morning for engaging in a quiet and 
respectful demonstration.
    As I saw the police place handcuffs on him and drive him 
away in a squad car, I realized how great America's heart can 
be. I also realized the great things that America's friends of 
freedom can do for oppressed people in China and elsewhere. 
Before his arrest, Michael prepared a statement which I hope 
can be entered into the hearing record.
    As you know, Michael played an important role in working 
with you, Mr. Chairman, and with Congressman Wolf and others on 
such legislation as the International Religious Freedom Act and 
the North Korea Human Rights Act. His statement reflects a 
great understanding of what a determined America can do through 
peaceful means to make China and the world a better and a safer 
place.
    Let me conclude with the words of Dr. Martin Luther King, 
Jr. himself: ``And if America is to be a great nation, this 
must become true.''
    Thank you very much.
    Chairman Smith. Pastor Fu, thank you very much. Without 
objection, your request to include the statement by Michael 
Horowitz from the Hudson Institute will be made a part of the 
record.
    [The prepared statement of Mr. Fu appears in the appendix.]
    [The prepared statement of Mr. Horowitz appears in the 
appendix.]
    [The Free Gao petition is retained in Commission files.]
    Chairman Smith. Like you, I do greatly admire his work as 
well on behalf of human rights. Today's action is just another 
discernible manifestation of that deep concern for fundamental 
human rights in China and everywhere else, so thank you for 
your testimony.
    Just to begin the questioning, let me just ask Ms. Geng He, 
if I could: You point out in the testimony that Gao Zhisheng 
once said that ``you cannot be a human rights lawyer in China 
without becoming a rights case yourself.'' I would say this as 
to Ms. Li as well.
    When we express dissatisfaction with a policy or with our 
government, we may get an editorial that is damning. As 
politicians, we may come under some kind of press scrutiny that 
we might not welcome, but nothing, nothing that even comes 
close to the consequences, the deleterious consequences that 
men and women who promote human rights face in China.
    I think Americans need to become much more aware of the 
systematic use of torture, the systematic use of all means--I 
mean, there are no trials. They are all show trials. There is 
no due process of law in the People's Republic of China. It is 
a dictatorship. Yet, both of your husbands spoke out boldly, 
knowing that there might be severe and long-lasting 
consequences to themselves and to their families. What 
motivates that kind of courage? Because you have it as well. 
You bear the brunt and the scars of the dictatorship as well.
    Ms. Geng. Thank you very much.
    Chairman Smith. If you could answer, why do they do it? 
Where does that courage come from to speak out when the iron 
fist of the secret police is waiting with a baton and with the 
implements of torture?
    I would note parenthetically, in the 1990s I chaired a 
hearing in my Subcommittee on Africa, Global Health and Human 
Rights. We invited six survivors of the laogai, including Harry 
Wu, Paul Dingiatsu, who is a Tibetan monk, and they brought in 
the implements of torture that are routinely used against 
political and religious prisoners. Your husband spoke out. How 
and why did he do it?
    Ms. Geng. My husband, Gao Zhisheng, grew up in the poor 
countryside. When he was eight years old, his father died. He 
hoped he could bring change to China, and he later started 
working very hard to obtain his law degree. He hoped to use the 
law to help more people, to help China. He was very happy that 
he could use his knowledge of the legal system to help many 
Chinese people. Actually, the first case he took was for poor 
people and he did it pro bono.
    He successfully handled a case and he actually helped the 
victims get about 800,000 yuan Renminbi in rewards. So after 
this successful case, many people in China came to him to seek 
legal support. So because of this one case, people traveled 
more than 1,000 miles to Xinjiang in order to seek lawyer Gao 
Zhisheng's help.
    Lawyer Gao Zhisheng's assistant met them immediately, and 
helped them settle down. Then they talked about the case and 
discussed what to do. Each time lawyer Gao Zhisheng met these 
kinds of people he always recalled his mother who always helped 
people while she herself was in very difficult conditions. So, 
lawyer Gao Zhisheng has done so many good deeds in China. He 
still faces such severe persecution.
    Even my family suffered a lot from it, and my daughter 
actually had to take the police bus to go to school. In class, 
the police sat behind her and there was almost 24-hour 
surveillance of her. So when we arrived in the United States, 
the first day my daughter did not choose to go to school. She 
actually chose to go to the hospital because she suffered 
tremendously mentally.
    My children and I support lawyer Gao Zhisheng 
wholeheartedly because what he did is right and we believe in 
the righteous power in the world.
    I also want to add here that his courage is also from his 
faith. He believes human rights are bestowed by Gods and cannot 
be deprived by any government. His book that was published in 
the United States is titled, ``A China More Just,'' and its 
original Chinese title is ``Fighting for Justice, With Gods 
Aside Us Shoulder to Shoulder.'' He believed that we will 
prevail because Gods will win over the evil.
    Thank you.
    Chairman Smith. Thank you.
    Ms. Li?
    Ms. Li. I think for my husband, first, we are a Christian 
family. The key word in the Bible is love. I think love is not 
just a feeling, but it is a commitment. For my husband, he 
wants to help the poor people to have a voice, so he did that. 
After the first persecution for him, he started to think, why 
can they treat him like this? It is because there is only one 
party.
    He started thinking over this matter. Without the division 
of power, without checks and balances, they can do everything 
they want, so he started to support democracy in China. Every 
time when I saw him in prison he always told me, I am not 
wrong. Actually, if he promises he will not continue to write 
when he gets out, maybe the government will release him faster. 
But he always says no, I am not wrong.
    Chairman Smith. Thank you. Out of love. It is based on a 
faith-based conviction, which is an enormous motivator, and I 
thank you for sharing that, because it is the why of it. Even 
people like Lech Walesa, it was his faith that powered him to 
fight for solidarity in Poland. We know throughout China there 
are people of faith who are paying a very significant price, so 
I thank you for giving us an insight as to the why.
    Let me ask you just a couple of questions before yielding 
to my friend and colleague Mr. Walz, and then to Mr. Wolf. In 
your testimony, Ms. Geng, you make the statement that it is no 
small irony that while you are speaking here on Capitol Hill, 
Chinese Vice President Xi Jinping is just up Pennsylvania 
Avenue meeting with President Obama at the White House.
    You did point out your disappointment that you believed 
that your husband's plight has been down-played by the White 
House. I would say for the record, and I want this very clear, 
I have been in Congress 32 years, both Mr. Wolf and I have 
been, and we have never seen human rights issues as partisan 
issues.
    If George Bush was dropping the ball as we thought he was 
doing, especially in the run up to the Olympics with regard to 
human rights in China, we spoke out very loudly. We even went 
there right before the Olympics to raise individual cases and 
set up a meeting with the White House with six dissidents 
before Bush went there, including Harry Wu and Wei Jinsheng and 
others to ensure that the human rights focus never left.
    I have been concerned, and I say this and I know it is 
shared by many others, that this administration has been 
indifferent to a large extent, relying on lower level dialogues 
and conversations. I would respectfully submit that quiet 
diplomacy is just another name for indifference. This needs to 
be raised.
    As I said in my opening, Hu Jintao came here. There was not 
one public expression by President Obama about human rights, 
and there he was, meeting with the captor and the jailer of Liu 
Xiaobo, who got the Nobel Peace Prize, and President Obama had 
gotten it just one year before.
    So I would wonder, and perhaps the wives might want to 
speak to this, but maybe our other distinguished leaders here, 
because I think Ms. Li, you made a very profound insight when 
you said without U.S. leadership on human rights, few in 
Beijing will be listening. The United Nations certainly has not 
raised its voice in any reasonable way or any powerful way, so 
the United States really needs to be the ones to do it.
    You said only the United States can make this case to 
China. If either of the two gentlemen or the two wives might 
want to speak to that, how would you rate how we are doing, how 
the White House is doing? Because it seems to me this is on a 
back burner, if it is even on that.
    Mr. Genser. I will begin by expressing my disappointment 
that we did not receive a response from the White House to the 
request to have Geng He meet with the Vice President. It is 
unfortunate, from my perspective, that the Vice President did 
not meet any actual victims of Chinese human rights abuses 
directly, or their families.
    While we are grateful that Assistant Secretary Posner at 
the State Department has been repeatedly and persuasively 
relentless himself, the only way that we are going to see 
movement on these cases is by having the highest level of 
government officials engaged directly with the Chinese 
Government. I would submit that we have here today in the 
audience Dr. Yang Jianli, someone who I represented for five 
years and who Congressman Smith and Congressman Wolf----
    Chairman Smith. If he could stand just to be recognized. We 
all know him.
    Mr. Genser. Congressmen Smith and Wolf were both deeply 
engaged over years on his case. The way he got out, was 
President Bush raised the case twice to Hu Jintao, Secretary 
Rice raised it twice, Secretary Powell raised it once, and the 
U.S. Government had to be relentless. Without that kind of 
direct engagement, we are not going to see the release of 
people.
    What I would say about quiet diplomacy is, I would be all 
for quiet diplomacy if it worked. If it was working, then I do 
not feel the need to speak out in quite the same way. But if it 
is not working, clearly we need to change our strategies.
    Chairman Smith. Mr. Fu or Ms. Li?
    Mr. Fu. Yes. I agree, Mr. Chairman, with your overall 
assessment. But in the past three years the so-called quiet 
diplomacy of the administration is in essence indifference 
diplomacy. Obviously this administration has put human rights, 
and especially religious freedom, on the backseat from day one. 
After two years of Obama in power, the Ambassador-at-Large for 
International Religious Freedom was not even appointed.
    The first official visit of hers was not really met with 
even the courtesy of assistance, I think, from the Chinese 
Government. I suspect the State Department or the White House, 
I think, have not done anything to protest this insult by 
refusing a presidential appointee, an ambassador, to visit her 
counterpart in China.
    I think this almost self-humiliating attitude certainly 
emboldens the dictator's persecution and indirectly, I think, 
increases their human rights abuses in China.
    Ms. Geng. For the past few years, the persecution of my 
husband, Gao Zhisheng, has gotten worse and worse. I strongly 
request to meet with high-level leaders in the U.S. Government. 
I feel it is very important because Gao Zhisheng's case is 
critical, and it is critical for breaking through the current 
situation.
    Because, like last year, China arrested many human rights 
lawyers, like Jiang Tianyong and others, and the authorities 
actually asked them, ``Have you heard of Gao Zhisheng? You 
probably know him, but so what? His wife, Geng He, who knows 
her? She went to the United States. So what? We can still make 
Gao Zhisheng just disappear. We have enough money.'' That is 
what the local authorities tell the human rights lawyers that 
are being arrested.
    Right now it is very difficult for us to get any lawyers to 
help Gao Zhisheng, even if we wanted. We are willing to pay, 
but no lawyers can take the case. Nowadays, human rights 
lawyers in China all pay close attention to Gao Zhisheng's case 
because they know if this case improves, then the situation may 
be different. I really wish that I could have an appointment 
with the leaders in the United States so that we can move this 
case forward.
    Chairman Smith. And you have tried, but they have not 
gotten back to you, including Vice President Biden?
    Ms. Geng. Yes. We tried to contact them with our lawyers, 
but no response yet.
    Chairman Smith. That, frankly, is totally----
    Mr. Genser. Yes. Let me just clarify. We did hear back from 
the State Department on the request to meet with Secretary 
Clinton. We were offered a meeting with Assistant Secretary 
Posner.
    We have now been offered a meeting with Under Secretary 
Otero, which, of course, we will be happy to take, but we did 
not get a response from the White House. We sent in a request 
not just to the scheduler, but to numerous staff at the NSC 
[National Security Council] and the Vice President's office 
several times and got no response at all, not even a ``sorry, 
we can't meet you.''
    Chairman Smith. That is very disappointing, to say the 
least. I would say that when you juxtapose that with the Vice 
President's statement in China, when talking about the horrific 
one-child-per-couple policy and its reliance on forced 
abortion. He said, ``I am not going to second-guess the 
policy,'' and then sent out an email to some group suggesting 
that he's not really for the policy. But the damage was done. 
Those words--words do matter.
    Meeting with individuals and getting fully informed about 
the plight of the wives and their husbands, that should have 
been a meeting that was sought after by the Vice President and 
the President's office, not declined.
    I would like to now yield to Chairman Frank Wolf.
    Representative Wolf. Thank you, Mr. Smith.
    I think this administration has been a total failure, and 
quite frankly, I think all the groups around this country 
should know this and not pretend it is not true. The Coptic 
Christians in Egypt should know this administration has failed 
them. The Iraqi, Assyrian, and Chaldean Christians should know 
this administration has failed them. The Vietnamese in Vietnam, 
both Buddhists and Catholic, ought to know this administration 
has failed them. Of course, the Catholic bishops in China and 
the Protestant house church leaders in China should know that 
this administration has failed them. And the Dalai Lama ought 
to know that this administration has failed them. Eleven.
    Now, Buddhists monks and nuns have set themselves aflame. 
But I want to bring it back to this, and I did not know that 
you had made a request. I would like to ask both of the wives 
if they would say publicly--I see the media here looking. What 
would you say? Because there is still an opportunity to meet 
after the Vice President from China leaves.
    What would you say if you had an opportunity to meet with 
President Obama? And shame on them both if they do not meet. 
You know that President Reagan would have met with you. You 
know President Clinton would have met with you. You know 
President Bush would have met with you. You know President 
Jimmy Carter would have met with you. So, shame on them if they 
do, but maybe they won't. So this may be the only opportunity. 
What would both of the wives want to say if they were talking 
to President Obama and Vice President Biden?
    Ms. Geng. If I had the opportunity to meet President Obama 
and Vice President Biden I would tell them my husband, Gao 
Zhisheng, is a good person and he always does good deeds. What 
he has done in China is to actually comply with the world's 
standards, international human rights standards. So why, in 
China, does he have to be persecuted? Why does he have to 
suffer from all kinds of torture? Please help me secure his 
release immediately.
    Ms. Li. If I have the opportunity to see President Obama, I 
want to say my husband is innocent. Because of love he did some 
things, but it is the way to show how he loves his country. So, 
please help.
    Representative Wolf. Thank you.
    Chairman Smith. Thank you.
    Let me ask our witnesses if there is anything further. Mr. 
Genser, if you want to perhaps touch on what the United Nations 
is doing or not doing. I mean, the United States does play the 
lead, but certainly the European Parliament and other 
parliaments and lawmakers and leaders ought to be raising their 
voices on behalf of the disappeared and the persecuted leaders 
of the human rights movement in China.
    Mr. Genser. Sure. Let me just say, briefly, the United 
Nations is engaging on a number of key cases. The High 
Commissioner for Human Rights is trying to go to China. It 
seems unlikely it's going to happen before the leadership 
transition, but clearly she should go and needs to raise her 
voice. She has, to her credit, raised her voice loudly on Gao's 
case and a number of other cases.
    But the United Nations, frankly, needs to do a lot more. 
Gao's case has gotten a lot of attention internationally. Bob 
and many others, and myself, have raised the case in the 
European Parliament, all around the world, in lots of different 
contexts. There is a lot of support, of course, for Gao 
Zhisheng.
    But I want to underscore that Geng He and her children live 
in the United States now. They have protection from the United 
States. This gives this case in particular a special connection 
to our country. We have given them asylum status in the United 
States.
    Gao himself has residual asylum status based on his 
family's status, which means that if we can reappear him and if 
he is willing to go, he could immediately come to be free in 
this country and to live his life with his family. So we need 
the United States to recognize the special responsibility that 
we have taken on, to our great credit, as a country to Gao 
Zhisheng and his family and to raise this case at the highest 
levels.
    The last thing I will just note is, my biggest fear about 
the President and Vice President or Secretary of State not 
meeting Gao's wife, Geng He, is not exclusively about the 
optics of that meeting taking place and the message it would 
send to the Chinese Government, though that is very important.
    My biggest fear is that the Chinese Government has 
repeatedly and publicly lied about what is going on with Gao 
Zhisheng and the United States and other countries around the 
world have not publicly responded by saying ``You are lying. 
You are not telling the truth.'' We have to speak truth to 
power and we have to tell the world what is really happening 
with this person's situation.
    So it is not sufficient, in my view, to have a meeting with 
the Assistant Secretary at the State Department to see the kind 
of progress that we want to see on this kind of case.
    Chairman Smith. Pastor Fu?
    Mr. Fu. Before Vice President Xi's visit, I was invited, 
along with a few other leaders, to have a meeting with 
Ambassador Locke at the State Department. I was, on the one 
hand, glad to hear that he had made some very straightforward 
efforts to pursue Gao's whereabouts when he was missing, but on 
the other hand I hope that the U.S. Embassy or consulate can 
send a diplomat, if not the Ambassador himself, to go to the 
Shaya Prison and to verify or ask the Chinese Government to 
accept a representative from the International Red Cross.
    The problem is, we do not know whether he is alive or not. 
I think the policy of just diplomatic courtesy or informality 
cannot work anymore. I remember, in 2005 when one of the 
pastors in Beijing, Pastor Cai Zhuohua, was about to be 
sentenced to 15 years imprisonment for printing Bibles, 
according to the lawyers who had knowledge with the court 
judge.
    It was when that news came out and I communicated with the 
National Security Council of the Bush administration and 
President Bush was on the way to visit Beijing. On his stop in 
Tokyo, he made a pointed speech and specifically mentioned 
about that case. Later, of course, attorney Gao Zhisheng was 
one of Pastor Cai's attorneys at that time. He was later 
sentenced to three years imprisonment instead.
    I think it is time, yes, to break the silence. I give you 
one illustration of the wrong signal that the administration, 
especially the President, has sent. When he visited China, that 
one morning I received a phone call from a few human rights 
lawyers. They said they heard the President is waiting to meet 
with them. So they were waiting outside the embassy compound.
    So I was on the phone with the consulate general or deputy 
general consular of the U.S. Embassy, coordinating, telling him 
where they are. The consular actually asked me to wait and call 
back, and I was waiting.
    A half an hour later, instead of the U.S. consulate or 
anyone coming out to visit them, this group of human rights 
lawyers, including attorney Jiang Tianyong, including Dr. Fan 
Yafeng, who was later kidnapped and tortured, and they were met 
with more than 200 Chinese military police and they were 
rounded up.
    The President chose to visit the Great Wall. I was told by 
the consular later that because there is no guarantee for 
security, for the President's security, so he could not meet 
with these human rights lawyers outside the compound of the 
U.S. Embassy. I thought, What kind of a signal do you want to 
send to the Chinese dictators, to these oppressors? '' I think 
that certainly emboldened them and made the human rights record 
worse.
    Chairman Smith. Well, I would just point out, Pastor Fu, 
that the signals of indifference and really being uninformed 
about how powerful, if used, the leverage and the voice of the 
President, Vice President, and Secretary of State could 
actually be in getting people out of prison who are suffering 
unjustly.
    I remember when the Secretary of State was en route to 
Beijing, or to China for her first visit. She said I'm not 
going to allow human rights to interfere with peddling U.S. 
debt and global climate change. That threw the dissidents under 
the bus. Any amount of reparative statements that might be made 
later--and there weren't many--certainly doesn't undo the 
damage in terms of what is really in the heart.
    My hope springs eternal that this administration will see 
what they are doing to the cause of democracy and the 
individuals who suffer for it, a grave injustice by its 
indifference and wrong signal sending. I would ask the 
question, how will China ever matriculate from dictatorship to 
democracy if all of the lawyers like Gao Zhisheng and others 
who might go that route--but it does have a chilling effect on 
what they might do if they know that you are going to be met 
with torture and disappearance, and the same would go with Ms. 
Li and her husband. The intellectuals, the professors, knowing 
that they, too--Liu Xiaobo, the others. We need to stand in 
solidarity with the oppressed, not with the oppressor. 
Regrettably, we are doing just the opposite.
    I would like to ask Chairman Wolf if he has any final 
comments.
    Representative Wolf. No.
    Chairman Smith. I would like to ask our distinguished 
witnesses, starting with you, Pastor Fu, if you have any final 
comments and leave the final words to our two distinguished 
wives who are here, very strong and brave women, and we thank 
them especially for their testimony.
    Pastor Fu, anything?
    Mr. Fu. I think real change will depend on two factors. The 
most important factor is of course from inside China. I think 
in spite of the increasing persecution--last year was perhaps 
the worst in two decades--we still are hopeful. We are still 
seeing some signs. It is not because of any relaxation of the 
totalitarian regime, but I think because of the growing rights 
awareness and consciousness by the Chinese people.
    Look at what happened to the Wukan village in Guangdong 
province, and 50,000 people. When they were united, they were 
able to win the fight, at least temporarily. They were allowed 
to have their first free and democratic election and elect 
their own leaders in that 50,000-person village. It's a small 
step, a baby step, but it shows the people's power.
    I think of the thousands--hundreds of thousands--of Chinese 
petitioners, who in spite of the black jails and imprisonment, 
arbitrary arrests and torture, they still organized and went to 
the Chinese leadership compounds in Shanghai and Beijing.
    And hundreds of house church members, like Beijing Shouwang 
House Church, in the past 10 months, since April of last year, 
every Sunday--every Sunday--in the capital city of Beijing, 
there are arrests, from 20 to more than 100 members of this 
church have been arrested every Sunday for simply going 
outdoors for worship.
    All the leaders, including Senior Pastor Jin Tianming and 
all their five elders, had been under house arrest without any 
freedom of movement. But the members are still going there 
every Sunday, knowing that they are going to be arrested. I 
think these are the hopeful signs which we can count on.
    Of course, I think of the secondary contribution for 
China's democracy and freedom is outside, external. I think we 
do need the external aid. I think the Chinese persecuted people 
will be greatly encouraged and their morale would be greatly 
bolstered if they hear from the President of the United States 
of America tell the Chinese dictators clearly and unwaveringly 
that we are with you, we are with the persecuted instead of the 
persecutors.
    Thank you.
    Chairman Smith. Thank you, Pastor Fu.
    Jared?
    Mr. Genser. Thanks so much. I just want to make three brief 
closing comments. The first, is to emphasize a point that, Mr. 
Chairman, you made earlier, which I agree with fully but needs 
to be emphasized.
    This is not a partisan issue. This is something that there 
is strong bipartisan support to keep pressure on the Chinese 
Government to improve the fundamental situation of human rights 
in the country. This is a core value of this country, which 
this country was built upon. For us as a country, we need to 
stay true to our fundamental values.
    Second, I wanted to say to the administration that there's 
never a wrong time to do the right thing. Frankly, it's not too 
late. We may be disappointed. I personally am disappointed that 
we did not get these meetings that we wanted for Geng He.
    But it is an opportunity at this moment to turn the ship 
around, or to at least change its course, and to recognize that 
at the end of the day any administration, I believe, should be 
measured by results and not by effort. I do not care how hard 
any administration tries, I care about what they achieve.
    I think it is quite clear that, regardless of efforts being 
made--and we might disagree on how strong those efforts are--
the results are not there yet. At the end of the day you need 
to change your tactics if you want to get the results, because 
clearly this approach is not working.
    Last, I just want to thank both of you, Mr. Chairman and 
Mr. Wolf, for your tremendous leadership on these issues in the 
Congress, not just on China but on human rights around the 
world. It is a pleasure to work with both of you and with your 
offices. You take tremendous leadership on behalf of the U.S. 
Congress on all these issues and it is greatly appreciated by 
me.
    Most importantly, of course, it is appreciated by the 
victims of human rights abuses around the world who see the 
United States as a shining example of what they want their own 
countries to become. We may be imperfect as a Nation, we may 
have a lot of flaws and problems that we need to work on, and 
that is all true. But we cannot forget where we come from and 
both of you deserve huge credit for your ongoing efforts over 
so many years.
    Chairman Smith. Thank you, Mr. Genser.
    Ms. Li?
    Ms. Li. I will speak Chinese.
    I feel the Chinese Government right now is a vast interest 
group. Even though they may realize how gigantic the problems 
they are confronted with, it is extremely difficult for them to 
overcome these problems and to make amends. Therefore, in order 
to change China it indeed calls for more and more people to be 
able to stand up and speak out.
    As was pointed out by my husband before he was put in jail, 
the mines have to be explored and have to be trod on for them 
to explode. If you do not test the field, you will never know 
the borderline and you will never know how Chinese democracy 
will emerge and whether or not China can be democratized. 
Therefore, it falls on common effort made by all of us.
    As was pointed out in my testimony today, the United States 
of America plays an extremely important role in all of this. I 
very much hope that the United States of America will help 
China to make amends and to make a change. Thanks.
    Ms. Geng. The suffering of my husband, Gao Zhisheng, and my 
family actually showcases the widespread problem of human 
rights abuse in China. I repeatedly requested to meet with the 
highest leaders in the United States, President Obama, Vice 
President Biden, and also Secretary Hilary Clinton. I wish I 
could meet with them.
    I also hope that the embassy in China can send a delegation 
to meet Gao Zhisheng and to at least verify whether he is alive 
or not. I really hope that the highest-level leaders in the 
United States can pressure China to release Gao Zhisheng 
unconditionally so that our family can be reunited sooner. 
Thanks.
    I firmly believe that 1.3 billion Chinese people still do 
not have basic human rights right now. If this situation still 
continues in China, the whole human civilization will not have 
a perfect civilization.
    So, I hope that the whole Western world and civilized world 
can give more support to China's human rights situation and can 
support those human rights advocates and warriors in China so 
that they can be consoled when they are fighting in the dark.
    This kind of support not only can bring China's human 
rights efforts into a brighter era, this will also encourage 
support for more people to bring out their human nature, the 
light of human nature, and it will also provide tremendous 
courage for all the human rights warriors in China when they 
struggle in the dark. Hopefully this kind of support can bring 
much more encouragement to these warriors. I thank all of you 
from the bottom of my heart. Thank you.
    Chairman Smith. Thank you so much for your testimonies. The 
people of China deserve better than what they are getting from 
the dictatorship. Your husbands, and you and the others like 
you, who are languishing in prison are the future of China and 
we need to stand in solidarity with you and with them. So, 
thank you so much.
    Bob Fu?
    Mr. Fu. Yes. Just to make one more point to bring true 
change to China. I think it is very important for Congress to 
work together to pass the Global Online Freedom Act. I thank 
the leadership of Congressman Wolf to champion this. That will 
provide a tremendously efficient tool to break down this 
firewall in China and certainly will enhance and improve the 
chance for rapid democratization in China. Thank you.
    Chairman Smith. Thank you.
    As you know, Mr. Fu, that bill, the Global Online Freedom 
Act, we hope to be marking that up very shortly in my 
subcommittee. It is an idea whose time has come. The enabling 
of high-tech to enable a dictatorship to find, apprehend, and 
incarcerate people of faith, the Falun Gong, the Christians, 
the Uyghurs, and to destroy dissident movements throughout the 
world calls out for this legislation, so I hope to have this 
bill out of committee very shortly. So, I thank you for 
bringing that up.
    I would like to thank our distinguished witnesses again, 
and without further ado the hearing is adjourned.
    [Whereupon, at 4:10 p.m. the hearing was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                     Prepared Statement of Geng He

                           february 14, 2012
    Greetings Mr. Chairman and Mr. Co-Chairman. Thank you for inviting 
me to speak about my husband, imprisoned Chinese human rights lawyer 
Gao Zhisheng. I would like to thank the Congressional-Executive 
Commission on China for holding this hearing today and everyone in 
attendance for your interest in Zhisheng's case.
    Zhisheng, a well-known lawyer in China, represented some of the 
country's most vulnerable citizens. He represented plaintiffs who lost 
their land to development projects like the 2008 Summer Olympics. He 
defended factory workers that were arrested after they demonstrated 
against low wages and long hours. He represented members of Christian 
house churches and practitioners of the banned Falun Gong spiritual 
movement. But as Zhisheng once said, ``you cannot be a rights lawyer in 
[China] without becoming a rights case yourself.''
    In 2005, the government suspended Zhisheng's law license and closed 
his law firm after he refused to drop his most sensitive cases. He was 
convicted of inciting subversion in 2006 after confessing in the face 
of threats against our children. Since then, our lives have been turned 
upside down. The government placed our family under constant 
surveillance. Police moved into our apartment building and followed us 
everywhere. Even worse, the government has repeatedly abducted and 
tortured Zhisheng.
    In September 2007, authorities disappeared Zhisheng and held him 
for over 50 days after he wrote an open letter to the U.S. Congress 
exposing human rights abuses in China. Policemen covered his head with 
a black mask and took him into a room where they stripped him naked and 
beat him. They used electric batons to shock him all over his body--
specifically his private parts--turning his skin black. After losing 
consciousness from the torture, he awoke covered in urine. Later, his 
captors used cigarette smoke to burn his eyes so severely that he could 
not open them. They even stabbed his private parts with toothpicks. 
Zhisheng asked them to lock him up in a prison, but they refused. They 
said, ``You are simply dreaming if you want to go to prison. We can 
make you disappear whenever we want to.'' And that is what they've 
done.
    In order to protect our children, I escaped with them to the United 
States in January 2009. The next month, the authorities abducted 
Zhisheng again. This time the government held him for over a year 
before he briefly reappeared the following spring. In an interview with 
the Associated Press, Zhisheng described even more torture during the 
disappearance. Police beat him with handguns for two days and nights. 
He said these were the worst beating he had ever endured--that his life 
``hung by a thread.'' Soon after the interview he disappeared again.
    I last spoke to Zhisheng on April 17, 2010, my daughter Grace's 
17th birthday. Since then, our family has been burdened with constant 
uncertainty. Zhisheng's absence has caused my daughter severe emotional 
anguish; she dreams that her father is dead. My son has tears in his 
eyes on Father's Day. He tells his teachers that he doesn't have a 
father. Recently, we were forced to endure rumors that guards had 
tortured Zhisheng to death.
    Then in December, less than one week before Zhisheng's probation 
was scheduled to end, Chinese authorities added to our uncertainty by 
claiming that he would spend the next three years in a prison in 
Xinjiang. All they said was that Zhisheng violated his parole; they 
didn't even say what he supposedly did wrong. This news came just 
before the holidays. In the past we tried to avoid the holidays, in no 
mood to celebrate without news about Zhisheng. But this year it was 
even worse.
    Some people have asked us if we are relieved because the government 
says that he is alive. But the news has not brought us any peace of 
mind. In fact, we are more worried than ever. Zhisheng's brother and my 
father traveled a long distance to the prison in Xinjiang, but 
authorities rejected their request to see him. They claimed that he 
could not have visitors because he is undergoing a three-month 
``education period'' and that he didn't want to see any family. The 
government has lied so many times that we don't know what to believe. 
We don't know if he is at the prison in Xinjiang. We don't know if 
guards are torturing him again. We don't even know if he is still 
alive.
    Today, I would like to ask for your help. Please help my children 
get their father back. Please help free a voice for China's most 
vulnerable.
    Zhisheng is a lawyer. His sense of justice and outstanding 
eloquence moved even the hearts of judges in the Chinese communist 
system. Zhisheng's case shows that the Chinese communist regime is 
simply lying when it claims to respect the rule of law--the rule of law 
that Zhisheng fought so hard to protect. By locking him away, the 
government has silenced his voice. Now, the international community 
must speak out on his behalf. I have brought with me some of Zhisheng's 
writings and an Associated Press article about the torture he faced and 
ask that they be included in the record so that Zhisheng's own words 
will be a part of these proceedings.
    It comes as no small irony to me that while I am down here speaking 
to you, Chinese Vice President Xi Jinping is just up Pennsylvania 
Avenue meeting with President Obama at the White House. While I am 
always pleased to be among such great friends and champions for human 
rights, I would have wanted just a moment with Vice President Xi to ask 
why he and the Chinese government has to continue to torture my 
husband, me, and my two young children.
    I am so grateful that the United States has provided protection to 
my family from the Chinese government, which we so desperately needed. 
I only ask that you continue to call on the Government of China to 
respect the human rights of all its citizens, including Zhisheng. I ask 
that you continue to report on his case so that the truth about his 
treatment at the hands of the government will be known to the world. 
And I hope and pray that with your help, my husband will regain his 
freedom and my family can be together once again. Thank you for giving 
me the opportunity to speak here today. I would welcome any questions 
you may have.
    Finally, I request that Congress keep the following articles as a 
permanent record of the case (for understanding human rights lawyer Mr. 
Gao Zhisheng and the rescuing effort of Mr. Gao Zhisheng):
    1. Case of Cai Zhuohua (the case regarding a Christian)
    2. Three open letters to Mr. Hu, the Chinese President (the case 
regarding Falun Gong)
    3. ``Dark Night, Dark Hood and Kidnapping by dark mafia'' by Gao 
Zhisheng (the case regarding torture)
    4. An interview with the Associated Press.
    Thank you!
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
  Prepared Statement of Hon. Christopher Smith, a U.S. Representative 
 From New Jersey; Chairman, Congressional-Executive Commission on China

                           february 14, 2012
    As President Obama welcomes Vice President Xi Jinping, China's 
leader-in-waiting to the White House today our Commission will hear 
testimony from two wives who are appealing for the immediate release of 
their jailed husbands--great human rights leaders--back in China.
    As Chairman, I hope that President Obama doesn't put human rights 
last on the agenda--or not at all--as he did when Chinese President Hu 
Jintao visited the White House on January 19th, 2011.
    One of the wives, Li Jing, says that, ``only the United States can 
make this case to China.'' President Obama, listen to these courageous 
women--Geng He and Li Jing--and act decisively.
    The China Commission hopes that the issue of human rights abuses in 
China will be raised in a serious and visible way during Mr. Xi's 
visit, and particularly that the detention of Gao Zhisheng, Liu Xiaobo, 
Chen Guancheng, Guo Quan, Liu Xianbin, Pastor Yang Rongli, Alimujiang 
Yimiti and others are raised often and discussed in detail.
    This important and timely hearing today recognizes one of China's 
most important human rights lawyers, Gao Zhisheng. In the early 2000s, 
Mr. Gao, a self-trained lawyer, emerged as a champion of human rights 
causes and a defender of marginalized groups in China. Today, we know 
little about Mr. Gao's current condition and whereabouts.
    Guo Quan is an academic and professor who published an open letter 
to President Hu calling for multiparty elections, posted a charter for 
a new democracy party online and called for the end to China's 
notorious reeducation through labor system. For that he was sentenced 
to 10 years in prison.
                              gao zhisheng
    Mr. Gao Zhisheng's brilliant legal advocacy on behalf of 
marginalized groups in China--including religious practitioners, rural 
workers, and human rights activists--resulted in being sentenced on 
trumped-up ``inciting subversion'' charges in 2006. He was sentenced to 
three years imprisonment, but granted a five-year suspended sentence, 
or period of parole. During this time, Mr. Gao has been subjected to 
years of brutal torture and has been repeatedly ``disappeared.'' An 
outspoken Christian, Mr. Gao has been ``disappeared'' into official 
custody since February 2009, with only a brief reappearance, under 
official supervision, in March and April 2010.
    Information on Mr. Gao's enforced disappearance and current 
condition remains a closely guarded secret. For months and years, we 
heard nothing on Mr. Gao's ongoing detention.
    Two months ago, however, Chinese officials announced that Mr. Gao 
would be forced to serve out his original three year criminal sentence, 
a week before he should have finished his five-year parole period. The 
announcement claimed that Mr. Gao violated the conditions of his 
parole. No details, however, were provided. One can only wonder what 
``violations'' Mr. Gao committed, since he has been held incommunicado 
during the majority of this parole period and has been brutally 
tortured throughout.
    In the past month, his brother and other family members have been 
turned away in their attempts to visit Mr. Gao. We have received no 
word on his health or condition.
    As expert witnesses will demonstrate, the official case against Gao 
Zhisheng is not only rife with villainy, but also bereft of humanity. 
In an account of Mr. Gao's torture, made public by the Associated Press 
in January 2011, Mr. Gao disclosed to a reporter the excruciating 
details of his detention: ``The police stripped Gao Zhisheng bare and 
pummeled him with handguns in holsters. For two days and nights, they 
took turns beating him and did things he refused to describe.'' He 
recalled, ``For 48 hours my life hung by a thread.'' Authorities 
reportedly threatened to kill Mr. Gao, to dump his body in a river. 
And, authorities taunted him by saying ``You must forget you're 
human.''
    To Vice President Xi, we will not forget. We do not know if Mr. Gao 
is alive or dead. In solidarity with Mr. Gao and his family, we know, 
however, that we are here to honor Mr. Gao's accomplishments, his 
rights advocacy and his image. We will not let those who hold him kill 
Gao Zhisheng's legacy. We will not allow these criminals to dispose of 
his significance. And, we will not forget Mr. Gao's profound humanity.
    We are also honored to hear from two specialists with unique 
insights into Gao Zhisheng's case and the ongoing international 
advocacy efforts on his behalf. We will hear from Jared Genser, founder 
of Freedom Now and member of Gao Zhisheng's international pro bono 
legal team. Genser will discuss the recently filed petition with the 
United Nations Working Group on Arbitrary Detention on behalf of Mr. 
Gao, which seeks an opinion on whether Mr. Gao's imprisonment violates 
international law. And, we will hear from Pastor Bob Fu, the founder 
and president of the China Aid Association. Pastor Fu will discuss the 
FreeGao campaign and the need to hold China accountable for the ongoing 
harassment and detention of Gao Zhisheng.
                                guo quan
    The case of Guo Quan, a former criminal-court officer and 
university associate professor, illustrates how Chinese officials 
target citizens who attempt to form independent political parties, use 
the Internet to organize, or post online opinions deemed too 
politically sensitive. In 2007, Mr. Guo began posting a series of open 
letters to top government leaders, advocating on behalf of laid-off 
workers, demobilized military cadres, and displaced farmers. He also 
wrote letters calling for multi-party rule and for democratic reforms. 
Because his writings were considered too critical of the government, 
however, Mr. Guo later lost his university professorship and was 
expelled from the China Democratic League, a state-approved 
``democratic'' party under the direction of the Communist Party. 
Chinese authorities frequently detained Mr. Guo, because of his online 
articles and open letters to top officials. In 2008, Mr. Guo announced 
the formation of the China New Democracy Party. Authorities later 
detained Mr. Guo and sentenced him to ten years' imprisonment for 
``subversion of state power'' for organizing an ``illegal'' political 
party, for recruiting members for the party, and for other acts to 
``overthrow'' the socialist system. Despite his appeal, court officials 
upheld the verdict. Today, Mr. Guo is serving out his sentence in a 
Nanjing prison. His wife and young son have fled the official 
harassment and abuse they suffered in China, and they are now in the 
United States.
    The hearing today continues the Congressional-Executive Commission 
on China's work to monitor China's human rights and rule of law 
developments and to give voice to the persecuted. In the past year, the 
Commission has consistently raised China's ongoing violations of 
international law and human rights standards in its reports and events. 
Recent hearings have been able to boldly shine a light on some of 
China's gravest injustices and its darkest polices.
    In December 2011, the Commission held a hearing on Liu Xiaobo--a 
year after he was awarded the Nobel Peace Prize in absentia. The 
hearing highlighted China's increasing crackdown on inspiring human 
rights advocates and peaceful reformers.
    In November 2011, we held a hearing on the illegal detention and 
abuse of legal advocate Mr. Chen Guangcheng and his family. A self-
trained legal advocate, Mr. Chen was wrongfully imprisoned for exposing 
China's brutal forced abortions and for his heroic activism on behalf 
of victims of China's one child policy. Since his release, Mr. Chen and 
his family have been maliciously deprived of basic freedoms--and 
repeatedly beaten. They remain confined to their home, under an illegal 
form of house arrest and under the watchful eye of armed thugs. We are 
unsure of whether Mr. Chen, like Mr. Gao, is even still alive. Our 
prayers are with him and his family. As Chairman of this Commission, I 
and staff have made repeated attempts to visit Mr. Chen in Shandong 
province, but the Chinese government has denied our access, as well as 
access to the many human rights advocates in China that have tried to 
see Mr. Chen. Even actor Christian Bale was intercepted en route. Mr. 
Chen and his wife have been maliciously because he fights for women and 
children who have been irreparably harmed by the one child policy.
    China's one child policy is state sponsored cruelty and constitutes 
a massive crime against humanity. The Nuremberg Nazi war crimes 
tribunal properly construed forced abortion as a crime against 
humanity--nothing in human history compares to the magnitude of China's 
33 year assault on women and children. The Chinese government's one 
child per couple policy, with its attendant horrors of mass forced 
abortion and rampant sex selection abortion, is utterly without 
parallel. In effect since 1979, the coercive one child per couple 
policy is, in scope and seriousness, the worst human rights abuse in 
the world today. Few outside of China understand what a massive and 
cruel system of social control the one child policy entails.
    The price for failing to confirm to this system is staggering. A 
Chinese woman who comes pregnant without a permit will be put under 
mind-bending pressure to abort. She knows that ``out of plan'' illegal 
children are denied education, healthcare and marriage, and that fines 
for bearing a child without a birth permit can be up to 10 times the 
average annual income of both parents, and those families that can't or 
won't pay are jailed or their homes smashed in or their young child 
killed. If the brave woman still refuses to submit, she may be held in 
a punishment cell, or if she flees, her relatives may be held, and very 
often, beaten. Group punishments will be used to socially ostracize 
her. Her colleagues and neighbors will be denied birth permits. If the 
woman is, by some miracle, still able to resist this pressure, she may 
be physically dragged to an operating table and forced to undergo an 
abortion. Her trauma is incomprehensible. It is a trauma she shares, in 
some degree, with virtually every woman in China, whose experience of 
intimacy and motherhood is colored by the atmosphere of fear created by 
the government--by government threats and determination to intrude 
itself in a deadly fashion in the most private aspects of her life.
    Today in China, rather than being given maternal care, pregnant 
women without birth control permits are hunted down and their babies 
forcibly aborted. They are mocked, belittled and humiliated. There are 
no single moms in China--except those who somehow evade the family 
planning cadres and conceal their pregnancy. For three decades, 
brothers and sisters have been illegal; a mother has absolutely no 
right to protect her baby from state sponsored violence.
    Mr. Chen courageously pushed back against this horrific policy--and 
today suffers unspeakable abuse for his compassionate work.
    Finally, we gather here today to ask that China's future leader Xi 
Jinping take China in a new direction. We ask that Mr. Xi put an end to 
China's oppression of human rights heroes and allow these inspiring men 
and women to return to their families without delay. We ask for the 
immediate release of Gao Zhisheng, of Guo Quan, of Chen Guangcheng, Liu 
Xiaobo and all the others.
                                 ______
                                 

  Prepared Statement of Hon. Sherrod Brown, a U.S. Senator From Ohio; 
        Cochairman, Congressional-Executive Commission on China

                           february 14, 2012
    Thank you all for attending today's important hearing on the 
treatment--or mistreatment--of Chinese human rights lawyer, Gao 
Zhisheng.
    We are here to show support for a man who has devoted his life to 
defending the rights of his fellow citizens.
    A special thank you to his courageous wife, Ms. Geng He, for being 
here today.
    I look forward to hearing from you about your husband's life and 
career defending marginalized groups in China.
    And know that his--and your--life's devotion to human rights is a 
source of inspiration for so many people in China, here in the United 
States, and across the world.
    Thank you also to Ms. Li Jing, the wife of imprisoned Chinese 
dissident Guo Quan.
    She, too, will share her husband's story of standing up for basic 
human rights in the face of imprisonment and intimidation.
    Today's hearing comes at an important time in the relationship 
between the United States and the People's Republic of China.
    As Chinese Vice President Xi Jinping attends meetings just minutes 
away with our top officials, we are reminded that the real China is 
represented by the brave individual whose fate remains a mystery and 
who is the focus of today's hearing.
    In understanding Gao Zhisheng's story, we understand not only what 
Gao stands for, but the challenges we face with China today.
    Mr. Gao has devoted his life to trying to make the law work for 
those he represented--the underprivileged and underserved.
    He has stood up for those kicked off their land by greedy 
developers and corrupt officials.
    He has stood by factory workers protesting low wages and long 
hours, and the persecuted practitioners of Falun Gong.
    In stark contrast, Chinese authorities showed no concern for Mr. 
Gao's rights or the law.
    They disbarred him. They jailed him. They have reportedly tortured 
him, and somehow made him ``disappear.''
    Chinese authorities have used Mr. Gao to send a chilling message to 
other would-be human rights defenders: Stay quiet, do not challenge us, 
do not hold us accountable--or else.
    Mr. Gao himself would say that his case is about more than just his 
own experience.
    As he wrote in his book ``A China More Just,'' behind each case in 
China ``are systemic problems.''
    And from the problems that Mr. Gao has faced--the utter disregard 
for the rule of law by his government and the Communist Party--we see 
why our nation faces so many systemic problems with China today.
    Mr. Gao's case and the cases he worked on show us how easy it is 
for Chinese officials to cheat, bend the rules, and game the system.
    They show us how easy it is for China to ignore labor and 
environmental standards, hoard raw materials, and manipulate its 
currency.
    They brazenly sell us--with the help of some of our own companies--
toxic toys, tainted pet food, and consumer products made by overworked 
and underpaid workers.
    And while I and others in our government are doing all we can to 
ensure the safety and health of our citizens and a fair trading 
relationship with China, we know that we can't do it alone. We need 
brave Chinese citizens like Mr. Gao to defend their rights, to make 
sure they have a fair and living wage, their food is safe, and their 
environment is clean.
    That's why his case is so important--because if Chinese citizens 
can defend their rights, we all benefit.
    We all benefit--from Ohio and across the country--when we know the 
products we buy from China are safer and won't cause illness or death.
    We all benefit--just as we do here--from a rule of law that ensures 
the citizens of China have the possibility to hold their government 
accountable and to rightly petition grievances to effectuate change.
    But until Mr.Gao and countless other political prisoners in China 
are released from their shackles, that day will remain in the distant, 
unknown future.
    That's why we on this Commission and our government must continue 
to do all we can to spotlight these cases and secure Mr. Gao's release.
    Treatment--or mistreatment--of basic human rights deserves nothing 
less.
    Thank you all again for attending today's hearing.

                       Submissions for the Record

                              ----------                              


   An Open Letter to China's National Peoples' Congress--Gao's First 
                        Letter to CCP's Leaders

                            By Gao Zhisheng

              [Special to The Epoch Times--March 25, 2006]

    To the Standing Committee of the National People's Congress and the 
Committee Chairman Wu Bangguo:
    As a lawyer, I have recently received from various places, many 
petitions and requests for help regarding the sentencing of Falun Gong 
practitioners and the plight [of the practitioners being punished by] 
re-education through labor. On December 26, my associate and I went to 
Shijiazhuang City of Hebei Province to offer legal assistance to Huang 
Wei, who has been subject to so-called re-education through labor. 
After taking up the case, in the course of dealing with the 
administrative and judicial authorities, we discovered a series of 
phenomena that were beyond the imagination of today's people. These 
phenomena exist in both the legislative and judicial realms. As an 
attorney and a citizen of the present era, I feel extraordinarily down-
cast and saddened in the face of such incredible phenomena. The first 
thought that came to me--after I had had negotiations with several 
courts in Shijiazhuang City--was that I would express such suffocating 
depression and sadness by submitting a letter as soon as I could to the 
Standing Committee of the National People's Congress and its Chairman 
Wu Bangguo. I did, with only some delay as I spent time and energy 
trying to decide what exact form the letter should take.
    In 2003, in my capacity as a citizen of the People's Republic of 
China (PRC), I submitted three separate requests--each with the title 
``Request for Investigation into Constitution Violations''--through 
registered mail to the Standing Committee of the National People's 
Congress. Made on the basis of the Constitution of the PRC (hereafter 
Constitution) and the Legislation Law of the People's Republic of China 
(hereafter Legislation Law), each of the three requests concerns one of 
the following issues: ``Regulations Concerning the Management of 
Demolition and Relocation of Houses in the City,'' the policy of 
private properties expropriated by the state for generating state 
income, and the obvious constitution violations by the People's Supreme 
Court in interpreting the laws regarding the policy. The three requests 
were met with the same outcome--no reply whatsoever. This time, after 
painful consideration, I have decided to write an open letter.
    Huang Wei, a Shijiazhuang resident with a college education, was 
sent to a labor camp in 1999 for a 3-year term on the charge of 
``participating in evil cult activities to undermine the implementation 
of state laws.'' Upon being released, he was only 34 years of age, but 
half of his hair had become grey. With hope for a good life and through 
incredible diligence and perseverance, he tried to run a small business 
and made a promising start. Although he and his family were still 
rather poor, they were happy and were determined to forget the bitter 
past and to work for a good life ahead. On April 13, 2004, at 7:30 a.m. 
Huang took his child to the kindergarten as usual. As he stepped out of 
the kindergarten to go to work, four unidentified people abducted him. 
He was taken to the National Security office, where he was thoroughly 
searched, and all his belongings, including his bike and cash, were 
taken away from him. Then he was sent to a detention center. All the 
way along, those who arrested him did not produce any official papers 
or identify themselves.
    Later, local authorities got into Huang's apartment by themselves 
and conducted a search. Thirty-eight days after Huang had been 
detained, the police, not wanting to be blamed for detaining someone 
longer than the law allowed, placed him in a detaining room of the 
Public Security office for another 15 days, during which time, again, 
no effort to communicate was made, except for the ``questioning and 
reporting'' by two police officers who refused to identify themselves. 
(When Huang asked them their names and the government department to 
which they belonged, their answer was, ``We are interrogating you, not 
being interrogated by you.'') Since the report did not reflect in the 
least the conversation in the questioning, Huang refused to sign it. To 
Huang's utter astonishment, however, one of the officers unhurriedly 
signed Huang's name on the report right in front of Huang and put his 
fingerprint on it. Huang later figured out that the purpose of the 
``questioning and reporting'' was to extract evidence for sending him 
to the labor camp. On June 3, Huang Wei was once again given a 3-year 
term of re-education through labor. On June 4, leaving his ``monitored 
life'' in the detaining room, he was sent to the labor camp a second 
time. Thereafter, each time Huang demanded the city government to 
review his case or his rights to due legal process, he had to go on 
hunger strike before his demand would be met. He was on hunger strike 
for a total of 42 days. One can imagine how sad and miserable his 
situation was!
    In the morning of December 27, 2004, my associate and I arrived at 
the labor camp in Shijiazhuang City and, following the proper 
procedure, requested to meet with Huang Wei. The administration of the 
labor camp told us that they could approve requests for seeing any type 
of inmates except Falun Gong practitioners and that we would need 
special approval from the ``610 Office'' in order to see our client. 
Braving the bitter cold weather, we went back and forth between the 
``610 Office'' under the labor camp administration and the ``610 
Office'' under the Judicial Bureau. It took us more than three hours to 
get through all the red tape; but in the end we were allowed to see our 
client for less than three minutes. (Those at the scene jokingly 
remarked that it was three hours outside the law and three minutes 
within the law.)
    On the afternoon of December 27, the lawyers [1] took all the 
documents of Huang's complaint about the fact that Shijiazhuang City 
government had been ignoring his case to the Intermediate Court of 
Shijiazhuang City. They tried to file the case ``The Silence of the 
Shijiazhuang City government to Huang Wei's request'' but to no avail. 
At 8:30 a.m. on December 28, the lawyers went to the same court with 
the same request and were again rejected. In a meeting with a judge at 
the court's administrative chamber, the lawyers were told that the case 
should be brought to the court at Xinhua District. At 9:20 a.m., the 
lawyers arrived at the Xinhua District Court. A judge at the 
administrative chamber there with the last name Miao looked through the 
documents and said, ``There is instruction from above that no case 
about Falun Gong should be accepted and that no document would be 
issued with respect to it.'' When the lawyers pointed out to him the 
stipulations by relevant laws, he said the instruction came from 
``above'' and that their job was only to implement them. He suggested 
the lawyers talk to the judge of the Case Filing Tribunal.
    At the Case Filing Tribunal, two female staff members looked 
through the documents and became rather irritated. They told the 
lawyers that the court would neither accept cases involving Falun Gong 
nor issue any document with respect to it, adding that there were 
documents [directing they do so] from above. The lawyers expressed that 
the court should base its decision about whether to accept a case or 
not on state laws, and that if there was a conflict between any 
relevant documents and the laws, then such documents would be invalid. 
At this point, a young staff member at the scene burst into a near 
scream, ``If you think the documents from above are invalid, you can 
ask the National People's Congress to amend the laws.'' As she 
finished, a judge whom she addressed as ``the chamber chief'' came 
forward saying, ``You are probably not party members (referring to the 
lawyers) and have not studied the essentials of the Party's National 
Congress, have you? Did you know lawyers are not allowed to take cases 
like this? The judicial court belongs to the Chinese Communist Party, 
so do the laws. Now there are instructions from above not to accept 
[such cases,] that's it. You may talk to whomever you want to and file 
your case wherever you want.''
    After that, there was no explanation from anyone anymore. Asked by 
the lawyers, another judge said the case should be brought to the court 
of the Chang'an District. At 10:30 a.m., the lawyers arrived at the 
third court [that day] and were, again, received by a judge from the 
administrative chamber. As soon as the lawyers said the case involved 
Falun Gong, the judge immediately returned the documents that he was 
reading to the lawyers and told the same story: the instructions from 
above stipulate that no Falun Gong cases would be considered, no 
documents would be issued regarding them, and no document justifying 
[the way it is handled] would be produced. The judge added, ``What you 
lawyers are doing is very risky. If you continue with this, it will be 
necessary to write a judicial report (demanding disciplinary actions 
against you.)'' That concluded the lawyers' efforts to file a case at 
three courts involving two levels in Shijiazhuang City.
    In handling the case of Huang Wei being sent to a labor camp, I 
found the following phenomena, which are at odds with the civilization 
of modern society as well as the rule of law that is advocated, 
implemented, and sought after by the public. These phenomena are much 
more prominent in the judicial realm, to such an extent that one feels 
horrified and in a hopeless situation. As a lawyer and a Chinese, I 
cannot choose to be silent!
    From the perspective of the existing laws, the sentence and 
punishment of Falun Gong practitioners completely violates the basic 
legal principles and modern practices of the rule of law:

          1. In any country that adopts statute law, the applicability 
        of criminal law naturally circumscribes the time frame and the 
        extent to which the regulation of the criminal laws can be 
        applied (including the issue of people, events, and location). 
        Theoretically, the ``Criminal Law of the People's Republic of 
        China'' (hereafter as ``Criminal Law'') is no exception. It is 
        a basic principle of our country's ``Criminal Law'' that its 
        rules do not apply to the past, that is, the ``Criminal Law'' 
        does not apply to behaviors that took place prior to the 
        legislation of the ``Criminal Law.'' On October 30, 1999, the 
        promulgation by the Standing Committee of the National People's 
        Congress of a ``Decision to Eradicate Evil Cult Organizations 
        and to Prevent and Punish Evil Cult Activities'' (hereafter as 
        ``Decision'') served only a matter of formality, making up 
        something that is needed in the legislation of criminal 
        punishment [regarding the said activities]. And thereafter, the 
        majority of the criminal punishment of citizens who practice 
        Falun Gong was directed toward their behavior prior to the 
        promulgation of the ``Decision.'' The sentencing of Huang Wei 
        to re-education through labor in November of 1999 belongs 
        squarely to this situation. This violation of basic principles 
        of our country's ``Criminal Law'' has been public, sustained, 
        and large scale. That is to say, the majority of the citizens 
        have been thrown into prison in a situation where our country's 
        basic legal principles are violated.
          2. Whether a country adopts statute law or common law, 
        criminal law can only regulate (or ``attack,'' a word commonly 
        used in our country) people's action, but not the thoughts or 
        identity of a certain group of people. This is a result of the 
        coming of age of criminal laws around the world. The punishing 
        of many citizens who practice Falun Gong has been due to their 
        identity as Falun Gong practitioners; Huang Wei being sent to a 
        labor camp is a clear example. This is a revolt against modern 
        civilization and the rule of law. Its direct result is 
        rendering universal legal standards arbitrary, causing 
        substantial long term damage to the rule of law that has been 
        affirmed and pursued by our country.
          3. The ``Decision'' has not offered any legal definitions for 
        proper judgments in trials regarding: Falun Gong practitioners; 
        the behavior of Falun Gong practitioners; the relationship 
        between Falun Gong practitioners and Falun Gong as an 
        organization; the relationship between the Falun Gong 
        organization and so called ``evil cult organizations; what an 
        evil cult organization is; and in what ways Falun Gong 
        practitioners, the behavior of Falun Gong practitioners, and 
        the Falun Gong organization belong to the category of evil cult 
        crimes. As a result, the majority of the sentencing and 
        punishment of Falun Gong practitioners are based on ``using 
        evil cult organizations to obstruct the exercising of state 
        laws.'' And in the criminal charges, there is a lack of the 
        necessary information about whether there is indeed any evil 
        cult organization that could be used by the person charged with 
        the crimes; whether the person did make use of any evil cult 
        organization; when and where the person charged made use of an 
        evil cult organization; whether the person charged did obstruct 
        the exercising of state laws; and how the person obstructed the 
        state laws. In the two times where Huang Wei was punished (even 
        though [the reason offered] was for administrative purposes--
        [since no trial was involved]), the reason was simply for 
        ``using evil cult organizations to obstruct the exercising of 
        state laws.'' In this situation, there is no guarantee 
        whatsoever that the criminal punishment is based on concrete 
        evidence and is accurate, leaving the citizens in a dangerous 
        situation without any protection.
          4. The arbitrary sentencing of Falun Gong practitioners to 
        labor camps in some places has reached a painful level, and the 
        reasons used include ``refusal to reform'' or ``refusal to 
        convert.'' (As I write this letter, a woman from Wuhan, Ms. Du 
        Wenli, who just gave birth to a child three months ago, sent a 
        fax to me, describing in desperation her husband Ni Guobin's 
        frightening experience. Ni was released after a three-year 
        imprisonment, but on July 13 of this year, he was kidnapped on 
        his way to work by some people whose identities were 
        undisclosed. Ten days later, he was sent back with only one 
        breath left. Queried by the 110 policemen, the kidnappers 
        revealed that they were from the State Security Bureau. On 
        December 3, Ni was kidnapped again, and to this day Du has no 
        information about the whereabouts of her husband.) What should 
        be pointed out here in particular is that the very existence of 
        labor camps and their sentencing practices have clearly 
        violated Articles 5, 22, 37, and 38 of the ``Constitution,'' 
        Article 10 of ``The Law of the People's Republic of China on 
        Administrative Punishment'' (which states that administrative 
        laws can issue administrative punishments other than the 
        confinement of personal freedom), and Article 8 of the 
        ``Legislative Law.'' A citizen's personal freedom is deprived 
        for years, and the deprived is not given any procedures for 
        appeal, defense, or trial. The person is sent to labor camps 
        after receiving a sentencing decision. This is unthinkable in a 
        lawful, civilized society. With freedom deprived, all channels 
        of assistance that the victim is entitled to have become 
        hypothetical. While in the labor camp, Huang Wei could not make 
        any appeal. Every step in making an appeal had to be paid with 
        the painful cost of many days on hunger strike. All citizens, 
        including policemen, know that the labor camp system violates 
        the constitution, basic laws, and modern legal civilization, 
        but the system has continued, and the country is paying a 
        higher and higher cost for this inhuman and uncivilized 
        behavior. I ask the Standing Committee of the National People's 
        Congress and its chairman Wu Bangguo to please pay attention to 
        this issue.
          5. The conspiratorial promulgation of these detrimental 
        phenomena on the part of the country and its local governments 
        have directly led to the vicious behavior of legal workers. In 
        Huang Wei's case, the legal workers' irresponsibility and their 
        corrupt, un-professional conduct have reached an alarming level 
        despised by any civilized society. More terrifying is that they 
        did not consider their behavior shameful. Judges and courts of 
        justice are guardians of legal values, and their professional 
        code of ethics, expert knowledge, and civilized systems should 
        function to raise their instinctual caution over possible 
        deviations from legal values. This is a universal value 
        standard of judges and courts of justice in all of humankind's 
        civilized societies. But in Huang Wei's case, what we see is 
        just the opposite. The judges and the courts of justice, while 
        paying the role of ``gate keepers,'' have not any sense of 
        responsibility and morality in their treatment of state laws 
        and legal principles. They attack, like dogs, anyone who 
        attempts to uphold legal values. They have no respect for the 
        sacredness of their profession, and are doing all they can to 
        generate negative moral and social effects in the state's 
        exercise of power. This really pains me (I assume Chairman Wu 
        Bangguo must feel the same.)

    As I began to write this letter, others warned me out of kindness 
that the Falun Gong issue is taboo and a ``political issue.'' As a 
lawyer, I am well aware of the special social situation in China. In a 
society where political powers are used appropriately, there would be 
no taboos. The fact that taboos exist demonstrates distortion, 
illegitimacy and dishonesty in the usage of political power. On the 
other hand, why aren't citizens allowed to comment on political issues? 
Whose politics is it if it can't be discussed? Politics that can't be 
discussed must be illegitimate. When a society is left with only one 
voice, what kind of a situation will it become? Emperor Zhu Yuanzhang's 
era of the Ming Dynasty was too long ago. More recent examples are the 
Cultural Revolution and the regime in North Korea, one of the ``axis' 
of evil,'' both had just one voice. Who wants this to proliferate?
    On many international occasions, we have called ourselves a 
responsible, large nation. No criterion for a responsible, large nation 
is more honest and valuable than acceptance from its own people. The 
fact that the government is afraid of citizens' reporting their 
survival problems shows how far we are from being a responsible, large 
nation.
    In summary, writing this letter to the Standing Committee of the 
People's Congress and chairman Wu Bangguo of the Standing Committee is 
not to advocate for a certain group of people, nor is it to ``sing a 
tune opposite of the CCP and the government.'' I love my nation. It is 
the only thing that inspires me in this era. At the same time, writing 
this letter is not just trying to change the unjust treatment that 
Huang Wei received. The most important goal for my letter is, with 
effort by the Standing Committee of the People's Congress and chairman 
Wu, to try to change the distortion in the current legislation and law 
enforcement processes through systematic changes. At the beginning of 
the human civilization, there were great differences between the 
cultures of each region. However, all the great civilizations, without 
communicating with each other, chose to invent written languages and 
establish common rules. In other words, following the rule of law is a 
methodical choice made by all human civilizations. In today's world, 
the nations that are against the rule of law are closed, 
underdeveloped, unstable, and savage. Every citizen's longing and 
passion for social stability are no less than that of the governing 
body. The lack of following the rule of law, disguised under the slogan 
``Stability trumps all,'' is the greatest source of instability in 
Chinese society today.
    On the issue of Falun Gong, the government, especially those who 
implement the law, should first admit the practitioners' status as 
Chinese citizens. On the other hand, on this issue, the government and 
law enforcement officials must recognize that they represent the 
nation, and must follow the law in all their actions. If they act 
outside the boundaries of the law, whose power are they representing? 
For example, the court did not establish a case, follow any legal 
procedure, or allow a lawyer to represent the plaintiff in the case of 
Huang Wei. Even today, his wife and child are denied visits to see him. 
These are blatant, unconcealed actions in violation of the rules. 
What's even worse is that those who act against the rules are precisely 
the law enforcement officials whose job it is to protect the 
implementation of the rules. As time goes on, the law enforcement 
officials regard violation of the rules as something quite common. They 
no longer view protecting the rules of the nation as their professional 
responsibility. Continuously, their actions are undermining and 
destroying morals, culture and the legitimacy of the government's 
power. Whose needs are they meeting?--only the needs of the evil people 
who are the enemies of today's society. We must be extremely alert on 
this issue!
    I hereby wish Chairman Wu Bangguo good health!

Beijing Shengzhi Legal Firm
Gao Zhisheng
December 31, 2004
                                 ______
                                 

   Stop Persecuting Believers of Freedom and Mend Your Ties with the 
Chinese People--Gao Zhisheng's Second Open Letter About the Persecution 
                             of Falun Gong

                            By Gao Zhisheng

             [Special to The Epoch Times--October 24, 2005]

[Gao Zhisheng published three open letters in which he called for an 
end to the persecution of Falun Gong. Previously, The Epoch Times had 
published this, the translation of the second letter, in an abbreviated 
form. We are now proud to bring our readers the complete letter.]

    October 18, 2005 Beijing, China

    Dear President Hu Jintao and Premier Wen Jiabao:
    Greetings from Chinese citizen Gao Zhisheng!
    Before I could sit down and send my greetings to you, my two fellow 
citizens, out of solicitude for another group of our common fellow 
citizens, Falun Gong believers, I went to several places outside 
Beijing to investigate the real situation about Falun Gong believers 
who are suffering a new wave of systematic, large-scale, organized, 
illegal persecution. During my days outside Beijing, I was hiding, 
laying low like a thief. That's why many in the outside world spread 
the hearsay that I was ``missing.''
    This new round of continued, systematic, large-scale, organized, 
and brutal persecution targeting our fellow Chinese citizens who 
believe in Falun Gong is an ongoing reality. Recent letters addressed 
to us from different regions reveal this reality, and we also 
personally witnessed it during our trip outside Beijing. As a Chinese 
citizen, and as a lawyer, I am willing to bear any legal responsibility 
for witnessing and publicizing these facts.
    Because I trust your basic human nature, I have decided to report 
to you what I have witnessed in the form of an open letter. I again put 
my trust and hope in you. I hope you will take prompt measures to halt 
as soon as possible the continuing persecution of our fellow Falun Gong 
citizens by authorities in all regions and at all levels.
    It is not only a necessity for those citizens who are suffering 
illegal persecution to be set free from the tragedy, it also involves 
the issue of universally recognized values such as the value of China's 
constitution and rule of law, moral values, and justice. These are 
fundamental values for mankind. How can these values be allowed to 
become worthless in today's China?! How can these values be allowed to 
become worthless in your eyes?!
    On October 15, I met Xu Chengben of Yantai City, Shandong Province. 
As soon as he saw me, he said to me:

          My wife He Xiuling's body has been kept in a frozen state for 
        almost two years, but to date no one is able to provide an 
        explanation for her death; that's why we cannot go ahead and 
        bury her. They were capable of subjecting her to prolonged 
        torture and eventually torturing her to death. However, they 
        are not capable of handling the case regarding the cause of her 
        death almost two years after she passed away.
          I was not allowed to see her until she was tortured to the 
        brink of death. When I got there, she had already lost 
        consciousness, but even so, she was cuffed to a bed and her 
        lower body was completely naked. When I saw my loved one in 
        such a tragic state, my heart broke! They are truly inhumane. I 
        was only allowed to stay with her for a few minutes before they 
        pushed me out of the room. She was only in her forties. That is 
        the situation I witnessed on the evening she passed away, after 
        I got notified by the police and hurried to see her.
          When my wife was alive, she was arrested five times. Once she 
        was detained in Jinzhou City, Liaoning Province for three 
        months for going to Beijing to appeal for Falun Gong. She was 
        held in the restroom of a hotel in Zhifu District. The hotel 
        was rented by the police specifically for detaining Falun Gong 
        practitioners. The restroom is less than three square meters 
        (32.3 square feet). Sixteen people were locked inside. Many of 
        them could not bear the suffocating environment.
          Because we demanded to have an autopsy performed to show the 
        cause of her death, they did so. However, the officials 
        responsible have refused time and again to give me the autopsy 
        report. After numerous requests for the results of the autopsy, 
        they told me verbally that she ``died because she practiced 
        Falun Gong.''

    Du Kesong, a Falun Gong practitioner from Shihuiyao Village, 
Songcun Town, Wendeng City, was arrested in May. He was sentenced to 
labor camp. After more than 50 days of detention, he was dying and so 
was released. On September 27, he was again arrested by police. So far 
his whereabouts are unknown.
    Yu Zhenghong, from Wendeng, in her forties, is from Siqian Village, 
of the Town of Songcun. On September 27, she was arrested and taken 
from her home. After the arrest, she went on a hunger strike for 15 
days. She was then sent to a hospital, and the hospital later notified 
police that she was ``about to die.'' Later she was sent home by 
police.
    Lin Jixiao, female, 40 plus years old, is from Dachuang Village, 
Songcun Town, of Wendeng City. On September 28, she was arrested and 
locked up in a detention center. She went on a hunger strike. When her 
family went to demand her release, the detention center said she had 
been sent to the Wangcun Labor Camp. But someone who had been released 
from the detention center said she was still in there and was dying. 
Her family went to the Wangcun brainwashing center to check but was 
told that she was not there. Her family then went to ask the 6-10 
officials, but they said she had been sent to the City of Qingdao. Is 
she still alive? Where on earth is she? So far it is not clear.
    Xiao Yong from Funshan District of the City of Yantai, has always 
been law-abiding and enjoyed a very good reputation. Just because he 
practiced Falun Gong for a few days, he was sentenced to 3.5 years 
imprisonment in July.
    A retired teacher Liu Li (by her request, I am not using her real 
name here) quietly sat down and talked for almost two hours straight. 
She said:

          I was first arrested in June, 2001. After one year of 
        torture, my health became very poor, so they released me. After 
        I was released in 2003, I found that since 2000, all my wages 
        were confiscated by the 6-10 Office. I talked to staff at the 
        6-10 Office and our school director many times. I cannot even 
        remember how many times, and the issue is still unresolved.
          My husband was also jailed due to his practice of Falun Gong. 
        He lost his memory as a result of brutal torture in jail. The 
        whereabouts of our only bank account that he used to take care 
        of is unknown after our home was ransacked. He could not 
        remember it. During the 2003 Spring Festival, I gave 100 yuan 
        [U.S.$12.50], which was all I had, to my husband who was in 
        jail. My daughter and I had not a single penny left during the 
        Chinese New Year.
          In June 2003, four to five police came to ransack our home. 
        They found two Falun Gong books, and so they forcefully took me 
        to the local police station and beat me. I asked why police 
        were allowed to beat people. They were yelling while beating 
        me: ``Beat you--so what! '' They interrogated me for a whole 
        day and night. One police whose last name is Zhang said, ``If 
        you do not confess, you will really have bad luck! '' He copied 
        a written statement from another policeman's writing and asked 
        me to sign my name. I refused. Then he signed my name himself. 
        The other policeman with last name Chen could not stand 
        watching this and asked, ``Why did you sign her name, since she 
        refused? ''
          He gnashed his teeth and said, ``I'll let her suffer badly.'' 
        Later they used this fake record made in front of me to detain 
        me for 15 days. Then I was sent to the Fushan brainwashing 
        center. At the brainwashing class, they did not allow me to 
        sleep, and forced me to ``reform.'' Until January 2002, I still 
        did not ``reform,'' then they used that fake record and 
        directly sentenced me to one year in prison.
          Wang Yuefeng, Director of the 6-10 Office, sent me to a labor 
        camp. The labor camp did a physical examination on me. Because 
        my health was so poor, they refused to accept me. But Wang 
        Yuefeng insisted on the forced labor camp taking me. They 
        whispered for a while, and then a doctor gave an injection. I 
        resisted, so four to five people pushed me to a bed and 
        forcibly give me the injection. In the end, they saw that my 
        physical condition was too poor, I was sent back by Wang.
          On Nov. 20, 2002, I once again went to the Communist Party 
        Committee in Fushan Town to ask the mayor of the town, Mr. Che, 
        about the illegal confiscation of my salary. I arrived at Che's 
        office, and after I introduced myself, he stood up and went 
        out. After I waited for a long time, he came back and told me: 
        ``I will let Secretary Zhao talk to you. You need to go to his 
        office.'' So I went to Zhao's office.
          Immediately after I entered the door, about four or five 
        policemen rushed in from outside and dragged me into their car 
        without giving any reason. They forcefully took me to Fushan 
        brainwashing center where I was taken into custody. I was not 
        released from the brainwashing center until Nov. 17, 2003.
          During the time I was in prison, the policemen employed 
        absolutely inhumane means to torture me. Once I was 
        continuously hand-cuffed for as long as 43 days. With both of 
        my hands cuffed behind my back, I was hung on an iron door and 
        was beaten. After I was in prison for about a year, since they 
        could not achieve the goal of having me give up the practice 
        [of Falun Gong], they released me.
          On Nov. 28, 2004, I was arrested again. The local police 
        station sent me to Qixia detention center. After I was detained 
        for seven days, I was transferred to Qixia brainwashing center 
        and was not released until March 18, 2005. Within this period 
        of time, they continued to torture me by depriving me of sleep. 
        Once I was deprived of sleep for 26 consecutive days. Once my 
        eyes closed, they would wake me up by beating me. I fainted 
        many times. They had me stand continuously so I could not rest. 
        In the meantime, they beat me. Each time they beat me so hard 
        that they themselves became very tired and out of breath.

    On the morning of Oct. 15, 2005, we met with Wang Dejiang, who is 
crippled. Even now, Wang's legs are still so swollen that no shoes can 
be worn. Wang said:

          In the evening of Aug. 15, 2005, I was in a friend's house. 
        Three men from the village security and Gaoling police station 
        suddenly broke in, so my friend and I ran out. But they yelled 
        loudly, ``Catch the thieves! ''
          The villagers were fooled and we were caught. They began to 
        beat us. The head of security abruptly picked up a chair and 
        beat me with it. The chair immediately broke into pieces. After 
        the blow, I was down on the ground and could not move. They 
        still kicked me. One kicked my liver, and I lost consciousness 
        right away. They lifted me into a car and took me to the 
        emergency room at Gaoling Hospital.
          After I woke up, I found myself being cuffed in the hospital 
        bed. When trying to catch me, one policeman had tripped and 
        fallen. Once I woke up in the hospital, he beat me with the 
        sole of a shoe. The other policemen on the scene said, ``Do not 
        make too much noise when beating him in the hospital.''
          On the same night, two families were searched and ransacked. 
        As a result, a total of six people were arrested, and among 
        them was Xuejin Sun, an old man in his 70s. Afterwards, they 
        sent me to the detention center, and forced me to register for 
        the brainwashing class. I refused. The policemen in the prison 
        twisted my handcuffs, asking me, ``Are you going to sign or 
        not? ''
          I refused. They twisted the handcuffs until they cut into my 
        flesh. I still refused to sign. They had to turn away and 
        leave. After that they ordered a prisoner to drag me into the 
        cell, and the prisoner began to beat me. The security guard 
        interrogated me once. Since I didn't cooperate with them, they 
        sent me to the brainwashing class in Yantai City.
          At the beginning, I was not allowed to sleep; instead, I was 
        forced to sit on a little stool. They attempted to force me to 
        write ``three statements,'' including a letter to pledge (not 
        to practice Falun Gong), a statement to denounce Falun Gong, 
        and a repentance statement. They tried to break my will by 
        incessant brainwashing, such as forcing me to watch videos that 
        defame Falun Gong.
          On the fourth day, they could not get any results. The 
        Mouping national security staff discussed with Yu Gang, head of 
        the 6-10 office at the Yantai Police Station, about sending me 
        to Zhaoyuan brainwashing center. I heard them saying that only 
        Zhaoyuan center could handle people like me. At that time, I 
        already had had no food or sleep for seven or eight consecutive 
        days.
          After arriving in Zhaoyuan, they dragged me, kicking me at 
        every single step. They repeated, ``Let's wait and see if you 
        reform or not.''
          After they put me down, I no longer had the strength to stand 
        up. As a result, I had to lie on the ground. They continued to 
        torture me. The director of the center began to step on my 
        private parts. There was no expression on his face. He even 
        lifted my head with his foot, then quickly removed his foot, 
        repeatedly letting my head hit the ground. He also kicked me. 
        Only when he was tired of torturing me did they lift me into 
        the cell. I felt that they had already completely lost their 
        human nature.
          At the Zhaoyan center, every practitioner was locked in one 
        small room that was specially designed for brainwashing 
        purposes. Although I could not even stand up, they still tied 
        me to an iron chair with an iron chain, cuffed my hands, and 
        shackled my feet. I still refused to give up practicing [Falun 
        Gong].
          On the 10th day they started to force-feed me [a form of 
        torture that can cause death]. I began to vomit blood 
        continuously. At that time, even they themselves could not bear 
        the scene and started to vomit with me. They pressed down my 
        head and force-fed me. The head asked me if I would give up 
        practicing. I responded no. He said, at Zhaoyuan, don't even 
        think about getting out of here if you do not give up. We have 
        a lot of ways to deal with you.
          They cuffed my hands behind my back and had one end of the 
        handcuffs tied to a heat pipe. Only the tip of my toes could 
        touch the ground. There was no light in the cell; it was dark 
        24 hours a day. I could somewhat sense that someone kept coming 
        into the cell and putting his hand under my nose to test if I 
        was still alive.
          I didn't know how much time had passed by; my wrists had big 
        cuts as the result of the tight strap. At that time, they also 
        used wires to tie my mouth shut, making me unable to speak. 
        Even now my mouth still drips as I speak. Being incessantly 
        tortured, I suffered excruciating pain that was beyond 
        description. Consequently, I had the thought of killing myself. 
        I wanted to bite my tongue. But they added a few more wires 
        into my mouth, making my mouth not able to move, until I 
        fainted and lost consciousness.
          After I woke up, I found my legs had already changed color 
        and had started to turn dark black. The left leg became wider 
        and wider, until it was twice as wide as the right leg. But the 
        right leg got thinner and thinner. They still would not ease up 
        on torturing me. When I wanted to go to the restroom, they 
        supported my arm and lifted me up. At that point, I found that 
        I could no longer walk; instead, I fell to the ground. Then 
        they lifted me onto the bed, and still had my right leg tied 
        and both hands cuffed.
          At the time, the doctor there found my health condition was 
        extremely bad, and asked them to send me to the hospital. The 
        doctor at the hospital said I could die at any moment and that 
        my legs had to be amputated. After that they sent me to 
        Yuhuangding hospital, where the medical facility was the best. 
        After spending a few days in the hospital, they asked my family 
        to pay for my treatment. My family had no money, but later they 
        took me home. Once I was back home, since I no longer could 
        take care of my daily life, I had to be taken care of by my 80-
        year-old mom.

    Wang Dejiang was handed over to his family by the local police when 
he was near death, and the nightmarish experience he and his family 
have gone through is still being experienced by many, many innocent 
fellow Chinese!

          Mr. Yang Kemeng is a sophomore in Automobile Engineering at 
        the Harbin Institute of Technology, Weihai campus. Because he 
        openly announced his resignation from the Chinese Communist 
        Youth League (CCYL), he was singled out by a central government 
        official who issued an order to locate him. Since he didn't put 
        down the name of his school in his resignation statement, the 
        ``6-10 Office'' conducted a thorough search among all higher 
        institutions in the country. In May 2005, Weihai City's ``6-10 
        office'' staff found him and asked if he practiced Falun Gong 
        and whether he had withdrawn from the CCYL on the Internet. Mr. 
        Yang replied: ``I may withdraw as I wish.'' When the new school 
        year started on Aug. 20, ``6-10 office'' staff came to Mr. 
        Yang's school again and took him away on the 29th. His parents 
        didn't know about it until they made a phone call to his dorm. 
        On Sept. 7, Mr. Yang's parents, Mr. Yang Pinggang and Ms. Chang 
        Lijun, Mr. and Mrs. Wang Shengli, and Ms. Wang from Jining City 
        were arrested at the same time. Their whereabouts remain 
        unknown till today. A teacher named Wang revealed his story to 
        us.

          Before the National Day of 2005, major officials in Shandong 
        Province notified Laiwu City Police Department that if they 
        could not catch Qi Yingjun, Chen Lianmei, Wang Jing and four 
        other people, all departmental leaders would be removed from 
        their offices. At 1 a.m. on Sept. 29, the aforementioned seven 
        people were arrested. In fact, many police here don't want to 
        search and arrest Falun Gong practitioners, but what other 
        choices do they have? Also people from all over the country 
        came to the Zhaoyuan Brainwashing Center to learn from their 
        experience so that they could apply more cruel methods. While 
        Hu Jintao was visiting the U.S., an order was issued from the 
        CCP Central Committee to focus on handling those persecuting 
        Falun Gong. They were criticized for not having done their best 
        recently and were told to intensify their effort to suppress 
        Falun Gong. The Zhaoyuan Brainwashing Center in Shandong 
        Province and another center in Shanxi Province were labeled as 
        model centers by the CCP Central Committee. The outside world 
        never knows the real situation inside these centers. ``This 
        kind of model center is a horrible place, even worse than hell. 
        Very few people could survive there'' said a believer who was 
        once detained in the Zhaoyuan Brainwashing Center.
          My name is Qi Xin. I am 19 years old and from Laiwu City, 
        Shandong Province. I am the daughter of Qi Yingjun and Chen 
        Cuilian. I have a younger brother who is 10 years old named Qi 
        Yao. My parents started to practice Falun Gong in 1998. In 
        2000, my father was kidnapped from a park by the Laiwu City 
        police while doing Falun Gong exercises. He was later sentenced 
        to three years in Wangcun Labor Camp of Zibo City. My mother 
        had to leave home to avoid pursuit by the police. But she was 
        later caught and detained at the Xiaocaocun Division in Laiwu 
        City. I was 13 years old and my brother was only four at that 
        time. So I had to look after my younger brother at home alone, 
        waiting for my mother's return. My father told me after his 
        release, to force him to renounce his belief in Falun Gong, 
        police at the forced labor camp in Zibo used eight electric 
        batons on him simultaneously. His body could not help trembling 
        incessantly on the floor and his skin gave off a burnt smell. 
        Several weeks after the electric shocks, his scorched skin 
        started to slough off layer after layer. Later after my parents 
        both went back home, our family started to live together again. 
        They re-opened their store selling military supplies. We 
        thought that our ordeal was over until 1 a.m. on Sept. 30 this 
        year. More than 20 armed police from Laiwu City police rushed 
        into Aunt Shang's home in Wenyang Village and kidnapped her, 
        her husband and my parents. Aunt Shang practices Falun Gong but 
        her husband doesn't. In August, one month before the incident, 
        learning that the police were after them, my parents left me 
        with an auntie and they themselves went wandering abroad with 
        my brother. Since their abduction, the whereabouts of my 
        younger brother is unknown. I worried about him a lot and 
        prayed for him everyday. At 3 p.m. on October 1, Liu Qing and 
        Zhang Baode from the Laicheng District Office, Shao Shiyong 
        from the Guansi Police Station and 20 other police broke into 
        our home while we were all away. A police car with license 
        plate Shangdong-S1030 parked outside of our apartment building. 
        They opened our storage room downstairs with a key and broke 
        our door lock. They searched our place until 7 p.m. Our family 
        of four has been separated and displaced to four different 
        locations, and nobody knows where to find my 10-year-old 
        brother.''

    Jia Juxi of Fugou County, Henan Province, 58 years old, was 
abducted by local police on Aug. 18, 2005. He died after enduring over 
ten days' torture. His family requested an autopsy; but local police 
forcibly took his body to a crematory to be cremated. The police told 
his family: ``Even if you appeal to Beijing, it is no use.''
    On June 8, 2005, Zhu Jiawen (I am not using his real name here) of 
Huizhou City, Guangdong Province was arrested when he was working on a 
construction job. Not until 54 days later was his family notified of 
his sentence to three years of labor.
    On September 2005, late in the evening, several policemen broke 
into Shi Lei's (not his real name) home in Dongshan District, Guangzhou 
City. Before Shi Lei could argue with them, they abducted him and ran 
away.
    ``My husband didn't even have time to put on his shoes. As soon as 
the police went downstairs and got into their police van, they started 
beating my husband. I felt as if a knife were piercing my heart upon 
hearing the sound of the beating. Attorney Gao, we are simply too 
helpless. So far they have not provided any legal document.'' Mrs. Shi 
told me her family's tragedy over the phone while sobbing.
    On Sept. 6, 2005, Duan Sheng and He Li of Shi Jiazhuang City were 
arrested. As of today, their whereabouts are unknown.
    On July 19, 2005, Yuan Yuju, her son Liang Jinghui and another 
eight practitioners were arrested and have been incarcerated to date.
    Shortly before the passing of Oct. 1, the National Day, large-scale 
arrests of Falun Gong practitioners occurred in different regions such 
as Beijing and Heilongjiang Province. During Mr. Hu Jintao's visit to 
other countries, the arrests in these regions obviously were carried 
out in a way that was meant to be shocking and terrible. All these 
plain facts happened in broad daylight; they simply cannot be covered 
up.
    Mr. Hu and Mr. Wen, some local government authorities have been 
persecuting our fellow countrymen, Falun Gong practitioners, to such an 
extent that they use any evil methods as they wish. We cannot accept 
that such blatant and brutal violence against humanity is still 
happening in the 21st century, or the reality that it is happening in 
today's China, where the situation cannot yet be called anarchy.
    You two, as well as all of us, have to face the following reality. 
On the one hand, when you first got your positions, people inside China 
as well as the outside civilized world had great expectations of you. 
The principals you promote such as ``govern the country according to 
the Constitution,'' ``the people are our fundamental concern'', ``build 
a harmonious society'' have for a long time raised people's 
expectations. However, the reality is cruel yet factual. Those citizens 
who are being persecuted have to face this reality, and so do you, and 
so do we.
    Since you are the leaders of such a great nation, we of course are 
not willing to believe or accept that your judgment in this aspect is 
worse than that of ordinary people. If you are not aware of the 
situation that innocent Falun Gong believers are being brutally 
persecuted in broad daylight--a fact that even housewives and children 
are aware of--you are liable for such ignorance to your citizens. If 
you are aware of the situation and not trying to stop it, then what's 
the difference between your sin and that of the evil persecutors? In 
the same spirit that I am writing this open letter to you because I 
still have faith in you, so are many of those who are crippled and 
those who lost their loved ones or have their love ones crippled due to 
the persecution. During our investigation, we were moved to tears many 
times by those people's compassion and their high expectations of you.
    But what you and I have to painfully face is that in this 
catastrophe that targets Falun Gong practitioners, some evil spirit 
lingers. The continuous evil which is utterly against humanity has not 
only caused devastation to an inconceivable number of kind men and 
women. Many were persecuted to death, but also the damage to the image 
of our government and our country in many areas such as legal, moral, 
and human civilization, continues as such brutal persecution continues. 
Even though this catastrophe didn't start with you, the fact that it 
continues under your administration, and because the tragedy targeting 
the spiritual believers hasn't been brought to an end by you, you are 
also liable for these crimes. If you don't make it stop right away, 
this will be the conclusion formed by history and not just one person's 
opinion. The continuous creation of tragedies aimed towards a targeted 
group has harmed not only the victims and their relatives but also the 
persecutors. We observe with utter grief that the persecutors who 
cruelly crippled and killed Falun Gong practitioners have completely 
lost their human nature. For example, the director from Zhaoyuan 
Brainwashing Center who routinely trampled on the private parts of Wang 
Dejiang, or the director of the ``6-10 Office'' and the two school 
principals who illegally withheld Liu's wages and denied numerous 
appeals for four years by Liu, threatening her survival. In a sense, 
they were also victims of the atrociousness of the persecution.
    The officers and staff who carried out the appalling brainwashing 
and transformation against Falun Gong practitioners were only measured 
by the results of the reformation. They completely lost their human 
nature and yielded to economic gains. They lost their inborn instinct 
for sympathy, fear, guilt, shame, and morality.
    The common sense shared by our civilization was ignored; the value 
system based on human conscience has been completely reversed. People 
for ages will condemn the horrible and inhumane suffering that He 
Xiuling underwent before her ultimate death. She was dying but was 
already pronounced dead and was sent to the mortuary. Her relatives, 
who were not allowed to visit her, finally knelt in front of her dying 
body. While enumerating the appalling sufferings she underwent, her 
relatives saw tears from the eyes of her ``dead'' body. Relatives 
wailed and ferociously tried to find a doctor. The doctor was 
indifferent. The coolness was only softened when one of the villagers 
who came to the funeral procession loudly blamed the doctor. When that 
doctor found out her heart was still beating, his first reaction was 
not to rescue her, but to tear the electrocardiogram into pieces. ``I 
didn't see anything. I knew nothing'', the doctor said while escaping. 
He Xiuling died with tears in her eyes while her relatives cried in 
despair.
    I really don't know what your feeling is in face of such a reality! 
Our nation, our people, the values of our nation which we inherited 
from our ancient ancestors, as well as the moral image of all those 
state governments in the international society who have shamefully 
remained silent in face of this great calamity, have all practically 
become victims of this catastrophe.
    It is worth emphasizing that the current reality has said it all: 
China's ruling leaders fall far short in terms of foreseeing and 
recognizing the changes in a society's spiritual realm as a natural 
result of the great economic growth. In a peaceful society in which the 
suffering from wartime has long become history, in a society that 
places the economy first, there is no way its people will forever 
indulge in all kinds of material interests. People's growing need for 
spirituality will naturally bring about the large-scale grass-roots 
resurrection of religion and spiritual beliefs.
    Spiritual pursuit, just like the science and culture that our 
government advocates as mainstream trends, comprises one aspect of a 
society; there is no contradiction among them. Modern civilization has 
long solved the issues of science and faith and arrived at the 
conclusion that they serve their respective purposes and each should be 
confined within its own realm. The liberty of an individual's belief 
will for sure result in the disintegration of a collective ideology. 
The expansion of individual's rights will for sure turn into a 
reduction of the infinite authority of the government. It is a reality 
that the ruling leaders must face and have to adapt to. This is the 
historical trend.
    Here I have to say that, as for the cause and motivation behind the 
persecution, I am very confused and bewildered; so are many of my 
colleagues, friends, and neighbors. Why should a citizen's belief based 
on his own free choice and which has no pursuit in this mundane world, 
incur such a lasting, inhumane, and illegal crackdown? What on earth is 
the point? We cannot rationalize the persecution, other than arriving 
at the conclusion that those who initiated and continue to partake in 
the persecution are in a morbid state and have a damaged personality. 
From the perspective of the suppressors, their choice only serves to 
alienate themselves into a savage and illegal position, and serves to 
continually worsen their already extremely vile personality, the kind 
of vileness and viciousness that can make a normal person feel chilled 
to the bone. Other than that, there is nothing worthwhile or meaningful 
in their choice.
    During the investigation, we not only learned the fact that the 
persecution, which was started six years ago, is still going on, but we 
also learned another fact, a concrete fact, which is, the failure of 
the persecution. Based on our observation at the places we visited, the 
more cruel the orders of suppression are and the more lasting the 
suppression is in a certain region, the more prominent the signs of the 
failure as well as the extent of the failure. For example, in three 
cities of Shandong Province, Jinan, Qingdao and Yantai, posters and 
flyers posted and distributed by Falun Gong believers and their 
supporters to protest the suppression and expose the crimes against 
them are everywhere. Falun Gong posters can be easily spotted at the 
front entrance of many police departments and police stations. 
Tenacious and enduring resistance is growing and intensifying, 
signaling how unpopular the suppression policy is. Conversely, the 
regions where the suppression isn't as harsh manifest a different 
scene. For example, in several districts in Shaanxi Province, the 
overall situation is relatively calm. In front of this plain fact, 
those who love and advocate violence should really feel ashamed.
    Immeasurable capital resources and police manpower are groundlessly 
exhausted on the suppression of Falun Gong practitioners who simply 
practice peacefully to cultivate their mind and improve their health. 
The suppression is turning the society into a chaotic place. It is an 
utter crime, impinging on basic human rights. Frankly, I would like to 
tell you that both of you don't have any reason, any excuse, or any 
authority not to take immediate action to change the current situation.
    China is one of the member countries of the ``Universal Declaration 
of Human Rights.'' The declaration states explicitly: ``Everyone has 
the right to life, liberty and security of person.'' ``No one shall be 
subjected to arbitrary arrest, detention or exile.'' ``Everyone has the 
right to an effective remedy by the competent national tribunals for 
acts violating the fundamental rights granted him by the constitution 
or by law.''
    Also, in the current Constitution of China, article 33 states: 
``The State respects and preserves human rights.''
    Be it international law and standards or China's Constitution, it 
is absolutely not allowed for anyone to violate human rights and 
persecute his own fellow citizen inhumanely with any excuse. This is 
precisely based on the belief in the universal values for mankind and 
the respect for rule of law. I solemnly suggest to both of you to 
decide as soon as possible to stop persecuting spiritual believers and 
amend your ties with the Chinese people, to truly achieve ``rule of law 
and the constitution'' and establish a new China on the basis of 
democracy, rule of law, and constitutional government.
    Your doing this will gain infinite support from Chinese people and 
people all over the world!
    Lastly, I need to stress specifically that you need to ensure that 
all individuals mentioned in this letter who have suffered tremendously 
will not have to suffer more brutal persecution because of this letter. 
We have to remind you of this matter because we had such an experience 
before; Falun Gong practitioner Hao Qiuyan of Shijiazhuang City was 
incarcerated for eight months because I mentioned her case in another 
open letter.
    As long as I still enjoy personal security, I will continue to pay 
close attention to their safety. It is my right to be concerned about 
them, as a member of a civilized era, as a Chinese, as a citizen, and 
as a lawyer, although it is still very dangerous to do so in China.
    Best Wishes for Both of You!

Respectfully,
Your fellow Chinese Gao Zhisheng
                                 ______
                                 

  We Must Immediately Stop the Brutality That Suffocates Our Nation's 
 Conscience and Morality--Gao Zhisheng's Third Open Letter to Chinese 
                                Leaders

                  [The Epoch Times--December 16, 2005]

[Editor's Note: Gao Zhisheng has been praised as ``the conscience of 
Chinese lawyers'' and ``a great hero.'' China's Ministry of Justice 
rated him one of China's top ten lawyers in 2001. He has earned a 
reputation for courage in standing up against human rights abuses and 
is one of only a handful of lawyers in China who will defend those 
persecuted for their religious or spiritual beliefs. Recently, Mr. Gao 
published a statement ( Celebrated Chinese Lawyer Quits Chinese 
Communist Party ) withdrawing from the Chinese Communist Party (CCP), 
an act of great bravery. In that statement, he spoke of the 
investigation he had taken into the CCP's persecution of Falun Gong, of 
learning of the ``indescribable violence done to our kind people'' by 
the CCP, and of how spending a dozen days interviewing Falun Gong 
practitioners was a ``shocking experience'' to his soul. In the 
following open letter to CCP head Hu Jintao and Premier Wen Jiabao, Mr. 
Gao gives the details about what he uncovered in that investigation and 
the conclusions he has drawn regarding China's current condition and 
possible future rebirth. This is Mr. Gao's third open letter to Hu and 
Wen (Please see: ``Gao Zhisheng Sends Another Open Letter Protesting 
Unjust Treatment'' and ``Laws Are Changeable in the Hands of the 
Communist Party'') Warning: This Article Contains Graphic Descriptions 
of Torture.]

    Hu Jintao, Wen Jiabao, and all other conscientious fellow Chinese 
citizens:
    I, Gao Zhisheng, send you my greetings from Changchun City. I would 
first like to convey my deepest mourning for the innocent fellow 
Chinese citizens killed by the Guangdong government, and my condolences 
and support for the family members of the victims.\1\ At the same time, 
I would like to express my strongest protest against the brutality of 
slaughtering our kind countrymen. I strongly urge that the highest 
authorities follow the basic principles recognized by civil societies, 
punish the murderers and those responsible for these acts, and comfort 
and compensate the families of the victims.
    Winter in Changchun is extremely cold. Although in ``hiding'' in a 
room that doesn't have water most of the time, my blood is boiling hot. 
The reason isn't because I am again writing an open letter to Hu and 
Wen. Instead, simply being able to work for the future of one of the 
greatest peoples in the world is enough to make any ordinary citizen's 
blood boil.
    On October 18, also with red-hot enthusiasm, I wrote an open letter 
to Hu Jintao and Wen Jiabao, two fellow countrymen of mine, urgently 
calling on their government to ``Stop Persecuting Believers in Freedom 
and Mend Your Ties with the Chinese People.'' The next day, I received 
blatant threats over the phone at home. Starting the third day, at 
least 10 cars and 20 plainclothes police officers began circling, 
monitoring, and following my entire family every day, 24 hours a day. 
The 15th day after I wrote the letter, the Beijing Judicial Bureau 
illegally closed the law firm I ran. It is very regrettable how our 
country treats a citizen who openly makes suggestions.
    Another strong reaction prompted by the open letter was that Falun 
Gong believers from various parts of China who have been persecuted 
have written me and invited me to their areas to learn more about their 
true situation. Quite a few of these letters were from the cities of 
Changchun and Dalian. Beginning on November 29, I spent almost 24 hours 
a day continuously traveling between Jinan City, Shandong province; 
Dalian and Fuxin cities, Liaoning province; and Changchun City, Jilin 
province to conduct another round of investigations. Unlike my usual 
practice of traveling solo, I was honored to be accompanied by 
Professor Jiao Guobiao.\2\
    Meanwhile, flocks of plainclothes police were still hovering around 
my home night and day, creating an atmosphere of terror and severely 
suppressing my entire family. On November 29, I escaped being followed 
and encircled by more than 20 plainclothes police and spent 15 days 
investigating the truth in my own way. I especially would like to say 
here that we try our best to tell the truth of how this nation is being 
continually and brutally persecuted, especially at this time. This is 
also to remind our entire nation of the severity and urgency of the 
problems we are facing. It is time for our nation and each and every 
one of us to seriously face our problems. Any excuse or delay by any 
means is committing a crime against our entire nation!
    In this letter, I will not avoid any of the real problems I saw, 
even if this means I may be immediately arrested when this letter is 
publicized. The 15 days of investigation again showed me the painful 
truth. The 6-10 Office is--or at least can be called--a gang that 
exists within the political power of the nation, yet is higher than the 
political power. It is a gang that can control and regulate all 
political resources. Although it is an organization that exists outside 
of the Constitution and the regulations of the country's power 
structure, the 6-10 Office is using many powers that are only supposed 
to be used by agencies of the national government, and even many powers 
that are beyond those of agencies of the national government. It uses 
powers that don't belong and have never belonged to the nation since 
the beginning of mankind's political civilization on this earth.
    We can see that the power symbolized by the number 6-10 continues 
to ``interface'' with the public through ways such as killing a 
person's physical body and spirit, shackles, chains, electric shock 
tortures, and ``tiger benches.'' \3\ The nature of this power has 
become that of a criminal gang. It continues to torture our mothers, 
sisters, children, and our entire nation. Mr. Hu and Mr. Wen, as 
members of our nation in special positions at this time, and especially 
as individuals who are perceived by the majority of the public as being 
conscientious, you should face everything together with all of us.
    At this moment, with a trembling heart and a trembling pen, I am 
writing down the tragic experiences of those who have been persecuted 
in the last six years. Among the true accounts of unbelievable 
brutality, among the records of the government's inhuman torture of its 
own people, the immoral acts that shocked my soul the most were the 
lewd yet routine practice of attacking women's genitals by 6-10 Office 
staff and the police. Almost every woman's genitals and breasts or 
every man's genitals have been sexually assaulted during the 
persecution in a most vulgar fashion. Almost all who have been 
persecuted, be they male or female, were first stripped naked before 
any torture. No language or words could describe or re-create our 
government's vulgarity and immorality in this respect. Who with a warm 
body could afford to stay silent when faced with such truths?
    At 4:20 p.m. on October 28, 2005, Ms. Wang Shouhui (mother) and Mr. 
Liu Boyang (son) from Changchun City were followed by 6-10 Office staff 
and were illegally arrested. The two were brutally tortured by the 
police. At about 8 p.m., 28-year-old Liu Boyang died from the torture. 
About 10 days later, his mother was also tortured to death. The bodies 
of the unfortunate duo are still in the hands of the 6-10 Office 
officials. It took the 6-10 officials three days to inform Liu's father 
of his death, while Ms. Wang's time of death remains unclear. Liu's 
father looked for a lawyer in his city, but no one dared to accept his 
case. The elderly man said, ``In a society like this, it is harder to 
live than to die. Living brings more pain. After I take care of their 
burials, I'll follow them and leave, too.''
    Ms. Wang Shouhui, her husband, and her son (Liu Boyang) began 
practicing Falun Gong in 1995. Since the persecution of Falun Gong 
started on July 20, 1999, they were continually harassed by police from 
the Zhengyang Police Station of Luuyuan District and officials from the 
Zhengyang Neighborhood Administration Office. Ms. Wang was illegally 
detained in October 1999 and sent to the Heizuizi Labor Camp in 
February 2000. At the labor camp, she was tortured with an electric 
baton eight times. She was also forced to work during the day. For five 
days and nights, she was prohibited from sleeping and was required to 
remain standing. She was tortured using a ``death bed'' \4\ several 
times. The most serious time, she was beaten with two electric batons 
for over one hour while tied to the ``death bed.'' She did not have 
even one part of her body and face intact. She was only released after 
the torture put her life in danger.
    On April 11, 2002, Ms. Wang was walking down the street when she 
was again abducted by the police from Zhengyang Police Station of 
Luuyuan District. She was blindfolded by the police from the First 
Division of the Changchun Public Security Bureau and was taken to a 
secret torture room in Jingyueshan, Changchun. She was tortured on the 
tiger bench for two days and one night, during which time she was also 
beaten with two electric batons on the breasts. Three men used their 
fists to punch her face, chest, and back. As a result, Ms. Wang's left 
cheekbone was fractured and she vomited a great amount of blood. Later, 
her lungs were infected. While at the police hospital, Ms. Wang's four 
limbs were confined when she received infusions. She was prohibited 
from using the restroom. Instead, the hospital forcefully inserted a 
tube into her bladder, but did not give her care. She could not move 
for five days and five nights. Subsequently, her bladder was 
permanently damaged and she could no longer control her bladder.
    On June 27, 2002, Ms. Wang and her family were again abducted to 
the Zhengyang Police Station by the Political and Security Division of 
the Luuyuan District Police Department. Ms. Wang was tied into the 
fetal position for an entire evening. Later, when she was illegally 
detained at the No. 3 Detention Center in Changchun City, the guards 
locked her handcuffs to her ankle shackles for 18 days and force-fed 
her for a month. She was then sent to the provincial police hospital, 
where her limbs were confined and she was force-fed for over 30 days. 
She wasn't released until her life was in danger. At the same time, 
several police from Zhengyang Police Station brutally tortured, beat, 
and kicked Liu Boyang. They also slapped his face with leather shoes, 
tied him with a rope, put a plastic bag over his head, tied his arms 
behind his back, and hung him from the ceiling using handcuffs. When 
Liu was hanging in the air, they shook his feet or dragged his feet 
down. Mr. Yuan Dachuan, a police officer conducting the torture, said 
shamelessly, ``I have killed quite a few Falun Gong practitioners with 
torture. I don't have to bear any responsibility if I beat you to 
death.'' Every time they were tortured, the mother and son could hear 
each other's screams, which shook heaven and earth, ghosts and spirits!
    On October 29, 2002, Liu Boyang was sent to two years of forced 
labor at Chaoyanggou Labor Camp in Changchun City. In December, the 
police forced him to sit on cold cement floors all day long and 
prohibited him from sleeping at night. During the day, he was forced to 
attend brainwashing classes. In June 2004, when his term was over, the 
labor camp refused to release him and found some excuse to add 47 days 
to his term. Liu was a graduate of a medical university. He was a good 
person, and was kind to children and respectful to the elderly. Every 
year he was a model worker at the hospital. A woman surnamed Wang told 
me the above experiences of Ms. Wang and Mr. Liu so rapidly she spoke 
almost in one breath.
    Sun Shuxiang, a 48-year-old Changchun resident, was illegally 
arrested nine times in six years. Below are some of the experiences she 
described during her illegal sentence in labor camps:

          One day in the latter part of 2001, the policeman Li Zhenping 
        from the eighth section of Xingye Street Police Station came to 
        my home with another man. They came to persuade my husband to 
        divorce me. I said, ``No.'' Li kept hitting my face until it 
        was swollen. My eyes started to bleed, and I suddenly could not 
        see anything. He asked again if I agreed to the divorce, and 
        said if not he would send me back (to the labor camp). Under 
        their constant terror, my husband divorced me. My good family 
        was thus broken apart by the government. Now, I am still in 
        exile.
          In July of 2002, I was in my father's home. A plainclothes 
        policeman suddenly broke into the house and asked if I was Sun 
        Shuxiang. Before I answered him, I was kidnapped. The next day, 
        police from the first section of Changchun Public Security 
        Bureau put me in a car and drove me on a bumpy road for about 
        two hours. Two policemen took me to a dark and terrifying 
        basement, and took off the blindfold. Eight or nine policemen 
        all rushed into the room. On a table there were three electric 
        batons of large, medium, and small sizes and a bundle of rope, 
        and on the other side were three tiger benches. Two policemen 
        forced me on a tiger bench, and placed my hands on the armrests 
        that each had a handcuff attached to it. My hands were locked 
        in place with the handcuffs. The armrests on the tiger bench 
        had a row of different size holes to fit different wrist sizes. 
        The police skillfully fixed an iron rod as thick as the thumb 
        on the two armrests, pressing against my chest and abdomen area 
        and making it impossible for me to move. One policeman pointed 
        at the torture tools and said to me, ``Do you see that? If you 
        cooperate, we can finish business in over an hour. Otherwise, 
        we will have you taste all kinds of instruments.'' What 
        happened to Liu Zhe and others [practitioners who were killed]? 
        Only a few can come out of here alive.
          A seemingly polite policeman slapped my face twice, and asked 
        me if I knew any fellow practitioners. I said no. He took an 
        electric baton, stuck its two claws between my ribs, and 
        started to shock me. He asked again for my fellow 
        practitioners' phone numbers, and I said nothing. He then used 
        the electric baton over my fingertips, while asking me which 
        practitioners I knew. He used the electric baton on my arms and 
        then my head, then to the other side of my body. After one 
        round over my body, he slowly traced my body another round with 
        the electric baton. They then changed into a higher voltage, 
        fully charged electric baton, and started from my toes and went 
        over my body. I still remained silent. They started with the 
        toes of the other foot to go over my body from the other side. 
        I was still silent. They then used the electric baton on my 
        eyes. I felt like my eyes were going to pop out of the sockets, 
        and I could not see anything. I still refused to tell anything, 
        and they returned to electrify my ribs. The pain was 
        unbearable. The electric baton moved to my chest, as they asked 
        me with which practitioners I had remained in contact. The pain 
        made it impossible for me to speak, and the familiar faces of 
        practitioners appeared in front of me one by one. I had one 
        thought: No matter what, I would not tell about any 
        practitioners, since as soon as I told about anyone, that 
        person would be arrested and tortured. The police stuck the 
        electric baton inside my mouth. My mouth was all burnt and 
        swollen, and blisters covered the outside. They said to me as 
        they were shocking me, ``If you do not speak, we will pry open 
        your mouth.'' They again stuck the electric baton inside my 
        mouth. After a day and a night's torture, I was just about to 
        die . . .
          In the beginning of 2004, I stayed temporarily at Ms. Xing 
        Guiling's home. One midnight I heard loud pounding on the door. 
        The double door was quickly broken. In terror, I saw a bunch of 
        police with iron hammers and guns, shouting, ``Do not move, 
        otherwise you will be killed.'' We were arrested and taken to 
        the Luuyuan branch of the Public Security Bureau, and locked up 
        in a small iron cage. I was tied onto a tiger bench. They 
        started to beat Xing Guiling in front of me, using a leather 
        belt to strangle her neck. She cried heart-wrenchingly. I saw 
        Xing Guiling beaten down; when she was down, they kicked her. 
        When she got up, they beat her down again. They beat and kicked 
        her, asking her to reveal her contacts with other 
        practitioners. They kept torturing her over and over. They took 
        their leather belt and strangled her again, till she could not 
        breathe. The police shouted, ``I will show you if you don't 
        tell.'' Xing Guiling was tortured with only one breath left, 
        but she did not reveal a single practitioner's name. They then 
        started to torture me. After three days and nights of torture, 
        they sent us to the No. 3 Detention Center.
          On August 4, 2003, I was again arrested by the police. They 
        took me to the Nanguan branch of the Public Security Bureau. A 
        pockmarked policeman grabbed my hair and kept hitting my head 
        on the wall. I was getting so dizzy. He then forced me to sit 
        on a tiger bench and cuffed my hands tightly. Another policeman 
        started to hit my arms, and my wrists began to bleed from being 
        tightly caught by the handcuffs. They used iron rings to chain 
        my ankles, and then stepped on the rings, making it tighter and 
        tighter. My ankles were painful beyond endurance. They then 
        used a plastic bag to cover my head, and tied it over my neck, 
        suffocating me. When they saw that I was about to die, they 
        took off the bag. After a while, they covered my head again, 
        and took it off before I died. They did this three times and at 
        the same time kept pressing the rings tighter into my ankles. 
        It was so painful that I started to have a seizure. My ankles 
        were broken and bleeding. I fainted. They used cold water to 
        bring me back, and sent me to the No. 3 Detention Center. 
        There, I refused to eat and drink, and went into a coma. After 
        27 days, I had just one breath left. They notified my family 
        members to take me home.

    Liu Shuqin, a 60-year-old lady from Changchun, was arrested and 
sent to labor camps five times in six years. This old lady calmly told 
us the barbarous torture she suffered:

          I was first arrested in February of 2000. The police 
        violently hit and kicked us to the police car, which took us to 
        the Balipu Detention Center. I was locked up for 15 days 
        without any legal procedures. Altogether more than 10 of us 
        were arrested, and all experienced unspeakable torture. After 
        that, the Neighborhood Administration Office and the police 
        continued to harass me.
          On December 31, 2000, I was arrested for the second time when 
        I went to Beijing to appeal to the government. I held out a 
        banner that said ``Falun Dafa is Good,'' and the Tiananmen 
        police hit my back violently with electric batons, forcing me 
        onto a police car. Later I was thrown into a dungeon with walls 
        covered with ice and frost. The police forced me to take off 
        all my clothing, and ordered someone to shoot water on me from 
        a big pipe. They left me to sleep on the bare floor naked, with 
        nothing to cover my body. The toilet in the room stank so much 
        and smelled so bad. Everyday, several policemen came to 
        interrogate me. They did not allow me to sleep at night. After 
        38 days of interrogation, they did not get anything.
          On December 31, 2001, several practitioners and I hung 
        banners outside to expose the lies of the government about 
        Falun Gong. Someone reported us and we were arrested. The 
        police from the 6-10 Office beat me violently without stopping. 
        At midnight that day, I was sent to the No. 3 Detention Center. 
        There, a policeman punched my eyes with his fists. My eyes 
        became blurry and I could not see anything. They hit my head a 
        few more times. Faced with their brutal behavior, I told them 
        good and evil will be repaid. The police asked inmates to bring 
        a heavy chain weighing 28 kg (approximately 61 lbs.) and put it 
        on my ankles. I was detained for 22 days, during which I 
        suffered tortures that were worse than death. Later on, the 
        police took a lot of money from my family before they released 
        me.
          On February 28, 2003, a few days after my release, a bunch of 
        police from the Luuyuan branch of the Public Security Bureau 
        stormed into my home again. A policeman named Yuan Dachuan went 
        through our drawers and took away over 4,000 yuan (about $500) 
        in cash without leaving any receipts. Another policeman 
        pocketed a bottle of foreign perfume my child had brought me 
        from overseas. When Yuan Dachuan was taking my money, I 
        criticized his robbery. He punched me and handcuffed me. They 
        did whatever they liked in my home and the house was all messed 
        up. They abducted me to the torture chamber at the Luuyuan 
        branch and tortured me on the tiger bench for two hours. They 
        then tied me up with a thin rope, with my hands behind my back. 
        The police tightened the rope on me. With my whole body tied 
        up, I was pushed out of the torture chamber. Another group of 
        people threw me into a car. They used my feather-filled coat to 
        cover my head so tightly that I almost suffocated.
          After about 20 minutes, the car stopped, and we arrived at 
        another torture chamber (later on I knew this was at the 
        Chaoyang branch). The room was filled with torture instruments. 
        As soon as we arrived there, they forced me onto the tiger 
        bench, and about six policemen handcuffed me and chained my 
        ankles, fixing a steel rod across my chest (on the tiger 
        bench). A young policeman used a foot-long iron rod to hit my 
        left hand, which was cuffed to the tiger bench. After a dozen 
        strikes, my hand was swollen severely and it turned purple-
        black. They asked me to tell about other practitioners, and I 
        said I would not say anything. At this time, more than 10 
        police cuffed my hands behind me. They kept pulling the 
        handcuffs and the ankle chains, and pushing the iron rod 
        against my chest. Stretched under such a strong force, I felt 
        as if my tendons and bones were about to break; I could not 
        breathe. The pain was so unbearable that I fainted a few times. 
        When I fainted, the police poured cold water on me. After I 
        came to, they continued to torture me. I was tortured like this 
        for a day and night, fainting and waking up. As the handcuffs 
        and ankle chains were pulled by the police, they kept piercing 
        into my flesh. Blood was mixed with flesh over my wrists and 
        ankles, making a large pool of blood on the floor. The police 
        treated an old lady like me with such savage tortures. Every 
        nerve and bone hurt beyond endurance in my arms, hands, feet 
        and legs. My whole body was unable to move.
          One March 1, they sent me to the No. 3 Detention Center. They 
        checked my heart and blood pressure--none functioned well; my 
        legs could not walk. Even so, I was still sentenced for two 
        years in the labor camp. In a coma, I was carried to the 
        Heizuizi labor camp. I had to be carried to go to the bathroom. 
        The policewoman Liu Lianying from the second team started to 
        persecute me, saying that I was pretending not to be able to 
        walk. Liu barbarously shocked me with an electric baton on my 
        legs, chest, heart--all over my body. At the time, a criminal 
        convict Yi Liwen (who had a good relationship with Liu) could 
        not bear to see it; she took away the electric baton and said, 
        ``Don't shock her anymore, look at what bad shape she is in.'' 
        Liu Lianying then stopped. Since I could not walk, the police 
        often cursed me; they used all their conversion experts to try 
        to ``transform'' me, and the police took turns brainwashing me.
          After a day's labor, they did not let me sleep, but conducted 
        brainwashing in order to force me to sign this or that paper. I 
        firmly refused. They tortured me like this for two months, and 
        my blood pressure often reached over 200 and I suffered from 
        serious heart disease. Seeing that I refused to be transformed, 
        Jia Hongyan used prostitution convicts to torture me, 
        monitoring me on a 24-hour basis at my side even during eating 
        and sleeping. They forced me to transform, beating and cursing 
        me almost every moment and every day. They did not allow me to 
        speak; if I did they would curse me. Everyday, my body and 
        heart were suffering in great pain. Over a year of persecution 
        brought great harm to my body and mind. My body was numb, and 
        my arms did not move well. I was diagnosed with brain 
        infarction and atrophy. I was originally very healthy, but the 
        one year's persecution had turned me into such a state. Just 
        because I want to be a good person, I have endured such 
        inhumane torture for such a long time.

    With a slow and gentle voice, Zhang Zhikui calmly narrated his 
experience of being persecuted in Changchun City:

          After July 20, 1999 I went to Beijing to appeal for Falun 
        Gong. Because I clarified the truth of Falun Gong to residents 
        in Beijing, I was arrested by the police in Beijing and 
        transferred to the police of Changchun City's liaison office in 
        Beijing. There, they tied my hands and feet together onto a 
        wooden club and hung me between two tables by putting the two 
        ends of the wooden club onto the two tables. I swung back and 
        forth. Whenever the wooden club broke, I fell to the floor. As 
        for other practitioners who were also arrested there, the 
        police beat them with leather belts or hung them up. They beat 
        my thighs with a white wood rod.
          Later on, all of us practitioners were sent back to Erdaohezi 
        District Police Substation in Changchun City. At that time, 
        there were 10 or more practitioners. After we arrived there, 
        the head of the Political Protection Department lifted me up 
        and forced me to take off my pants. At that time, there were 
        males and females present. Then, the head of the Political 
        Protection Department beat my head with a leather belt. My head 
        became numb, there was ringing in my ears, and I almost lost 
        consciousness. He asked for my name and the date I went to 
        Beijing. I was barely conscious following the beating, so I 
        couldn't remember anything. Nevertheless, he continued beating 
        me. And then, he stamped on my feet with his leather shoes, 
        grinding my toes with the heel of his leather shoes. He just 
        observed the expression in my eyes while he was doing this to 
        me. I endured the severe pain and began to sweat profusely. He 
        left me then and began to beat up other practitioners. After I 
        was sent to Tiebei Detention Center, the guards instigated the 
        criminals there to strip me and beat me. The criminals kicked 
        me hard, ramming me into the wall of the restroom. I could 
        barely get up from the ground. Immediately two pots of cold 
        water were poured onto my body. Again they kicked me hard. My 
        arms and legs bled, and there was a big wound on one leg. One 
        month later, I was released from there without any documents 
        and without any legal procedures having been followed.
          At the end of November 1999, I went to China's Supreme Court 
        in Beijing to appeal for Falun Gong. The officials of China's 
        Supreme Court informed police and they arrested me there, 
        sending me to the police of Zhaoyuan City's (in Shandong 
        province) liaison office in Beijing. On my way back, they 
        removed my belt and forced me to walk with my hands holding up 
        my pants. They beat me as we walked. Upon my arrival at the 
        liaison office, they again beat me severely with a strap, and 
        they continued beating me for several hours during the night. 
        The next day, they sent me back to Zhaoyuan City, Shandong 
        province.
          Upon my arrival at Zhaoyuan City Detention Center, the police 
        instigated the criminals there to beat me. The criminals there 
        saw that I did my duties actively and positively. They were all 
        moved by me and didn't beat me any longer. Eventually, they 
        sent a mute criminal to beat me up. One day, the guard there 
        ordered me to extend my head out through a small hole in the 
        iron gate of my cell, and then he trampled my head with his 
        feet, beating my head as well. The practitioners in other cells 
        all shouted at him together, ``Do not beat people! ''
          Afterwards, they sent my sister and me to Xinzhuang Township 
        Police Station. Following July 20, 1999, my whole family was 
        arrested. They detained my sister and me separately in small 
        dark solitary confinement cells under the staircases. The 
        solitary confinement cells were so short that we couldn't stand 
        up straight inside them. They only allowed us to go to the 
        restroom once every evening, and they locked us up like this 
        for 10 days for each detainment. After that, they sent us back 
        to the Zhaoyuan Detention Center and kept us there for a month. 
        They tortured my sister and me like this back and forth for a 
        total of six times. All these events made us feel that it is 
        difficult either to live or die.
          On National Day in 2000, I went to the Culture Square in 
        Changchun City to unfurl a banner and I was arrested. All the 
        news media in China lied. They did not speak a truthful word 
        for us. Therefore, we wanted to tell people the truth in this 
        way. Police chief Liang and other policemen stripped my coat 
        off and wrapped my head with it. They cuffed my hands from 
        behind, dragged me down from upstairs, and then escorted me to 
        a car. The car traveled for about two hours and I felt that it 
        was far away from the town. After we arrived at the 
        destination, I was escorted to a house where the cloth on my 
        head was removed. I felt terrible. There was a tiger bench in 
        the room. I knew we were on a mountain and I heard the wind 
        swooshing. Police Chief Liang and other policemen stripped all 
        my clothes off and they forced me onto the tiger bench. My 
        hands were tied behind my back to the crabstick. They inserted 
        an iron stick at my chest, my thighs and my legs respectively. 
        Both ends of these sticks were fixed to the tiger bench so that 
        my whole body was tightly locked onto the tiger bench and I 
        could not move. My feet were put in iron hoops and immobilized. 
        Then Liang took out a sharp knife one third of a meter long and 
        rubbed it on his pants a couple of times. He threw the knife to 
        the table and ferociously said to me: ``Zhang Zhikui, I want 
        you to die here; today I'll torture you to death and dig a hole 
        and bury you. Nobody will know or find you.'' After saying 
        that, Liang went outside. At least three policemen started to 
        recharge the electric batons and another two policemen grasped 
        my hands that were tied to the stick behind me, then they 
        stretched my hands around my head from behind to front. I heard 
        my bones cracking ceaselessly. This torture was repeated 
        several times and the oppressive pain distressed me terribly. 
        Later, an iron barrel was buckled onto my head; they hit the 
        barrel violently with steel pipes. The intense tremor and harsh 
        noise made my head feel like it was exploding. After I had 
        suffered for a long period of time, the policemen burned my 
        back with cigarettes and the unbearable pain made me lose 
        consciousness. Then they poured cold water on me to wake me up. 
        Finally they lit candles and used them to burn my back. After 
        they scorched the flesh on my back, they poured the hot wax on 
        it. The pain made my body endlessly shiver and jump. All I 
        could hear was the cracking of the tiger bench that was shaken 
        by me. Because there was not any good skin remaining on my 
        body, the policemen started to shock my private parts with 
        electric batons and pierced them. Afterwards they used an iron 
        stick to smash my private parts. I passed out and I did not 
        know how much time passed before I awakened. After one night's 
        torture, my face was swollen to several times the original size 
        and my whole body was drenched in blood. I looked badly 
        mangled. I had twisted my body so much due to the pain that the 
        skin and flesh at my ankles were cut through, with the bones 
        and muscles exposed. However, when they saw that I was awake, 
        they again dragged me outside. It was more than 10 degrees 
        centigrade below zero outdoors and they poured cold water on my 
        naked body. They abandoned me where I lay. They returned to the 
        house. Half an hour later they came out to see if I was still 
        alive. I did not know how much time passed before morning 
        arrived. I was already at the brink of death. I was carried to 
        the Changchun City police department. There were many small 
        cells, each with a tiger bench inside. There were female Dafa 
        practitioners on every tiger bench. Most of them had fainted, 
        with their lower bodies naked or with only a cloth covering the 
        body.
          I was sent to the Tiebei Detention Center for further 
        torture. I began a hunger strike for five days and they stopped 
        the torture. After I stayed in the detention center for 40 
        days, they sent me to the fifth division of the Chaoyang 
        District forced labor camp. There, I went on a continuous 
        hunger strike. Over 10 Dafa practitioners joined me in the 
        strike. There were 500 Dafa practitioners detained in the fifth 
        division. The division head saw that we were on a hunger strike 
        and he led some criminals to brutally beat us. The scene was 
        horrendous. Finally the Dafa practitioners that were on the 
        hunger strike were taken to the first division where the Dafa 
        practitioners were most brutally persecuted. A criminal named 
        Xu Hui often abused Dafa practitioners. One Dafa practitioner 
        over sixty years old used to be a mid-level officer, but 
        because he did not wear the prisoner's uniform he was beaten by 
        Xu Hui until he was on his last breath. But he still did not 
        stop beating him. I almost lost confidence in life, since I had 
        endured unspeakable agony for a very long time. All the 
        unbearable persecutions and tortures happened in the 
        afternoons, in the evenings, and even in the middle of the 
        night.
          If the Falun Gong practitioners made a little bit of a sound 
        when they were asleep, their fellow inmates would beat them up. 
        All of this made the Falun Gong practitioners even dare not to 
        go to sleep. I sometimes couldn't stop coughing at night; 
        therefore, the inmates beat me for the whole night. They didn't 
        allow me to cough at all. I didn't dare to drink water in the 
        evening, since they didn't allow us to go to the restrooms at 
        night. Once I couldn't help myself from going to the restroom, 
        and I went quietly. When I came back, Xu Hui beat me up until I 
        was almost on my last breath. He kicked me very hard in the 
        area of my kidney, causing my kidney to move from its natural 
        position. I couldn't move for several days.
          Once, there was a Falun Dafa practitioner in his twenties 
        named Sui Futao. The criminals found out that he had hidden our 
        Teacher's articles in his clothing, so they had hit him with a 
        wrench over 50 times. Not long after that, this practitioner 
        was beaten to death. My younger sister was sentenced to 10 
        years imprisonment, and at the same time, her husband was 
        sentenced to 3 years imprisonment. Furthermore, only because 
        they practiced Falun Gong, their nine-year-old child was 
        dismissed forcefully from school under the order given by the 
        6-10 Office. Among the Falun Gong practitioners who kept in 
        touch with me, eight or nine practitioners had been beaten to 
        death. Their names were Wang Shouhui, Liu Boyang, Liu Haibo, 
        Liu Chengjun, Xu Shuxiang, Wang Kefei, Yu Lixin and Deng 
        Shiying. As for the names of other practitioners who were 
        persecuted to death, I couldn't even remember their names right 
        now! All these are facts that are extremely cruel!
          Zhang Shuchun is my second younger sister. When the police 
        tried to arrest her, she jumped downstairs. Her broken ribs 
        pierced into some of her organs. Her legs and arms were broken, 
        too. She immediately fainted. Soon many passersby stopped to 
        look at her and asked what happened. The policeman from the 6-
        10 Office said, ``She had a fight with her husband about a 
        divorce.'' Since she was a so-called ``Wanted Criminal,'' the 
        police took her to a hospital. But the doctors at the hospital 
        thought it unnecessary to try to save a Falun Gong 
        practitioner. They said, ``Just throw her out,'' and 
        surprisingly, the police did throw her out in a suburban area. 
        Later, she was saved by some kind-hearted people. But the 
        police put her back on the ``Wanted'' list again.

    Wang Yuhuan is a female Falun Gong practitioner that the Changchun 
police arrested. She was detained at forced labor camps nine times in 
the past six years. She said:

          You won't believe this. But at the forced labor camp, in 
        order to collect money, police tried to sell sleeping space. 
        The price was 2,000 yuan (around $250) per month. Once you 
        bought it, you would have the right to lie down on your back 
        when sleeping. Otherwise, you would have to lie on your side 
        since the cell was small. Meanwhile, those who bought the space 
        were entitled to beat us up. As Falun Dafa practitioners, we 
        wouldn't spend so much money to buy sleeping spaces. As more 
        criminals bought sleeping space, the rest of the people had 
        less space for sleep and it became more painful to sleep.
          In August 2000, I was sent to the Heizuizi Forced Labor Camp. 
        Police there tried to force me to ``transform.'' I had to work 
        18 hours everyday. The workload was very high. It was to make 
        products for export. Besides working, they forced me to write 
        ``repentance'' reports. The criminals in my cell would beat me 
        up if I refused to do so. In order to ``transform'' me, Sun 
        Mingyan, the officer-in-charge of the No. 6 Squad, sat on my 
        head and shocked my head and face with an electric baton for 
        more than one hour. My hair was scorched and my face and neck 
        were severely burned. I was bruised all over my face and body. 
        When I was released in November 2001, I still wasn't able to 
        pick up a bowl. The 6-10 Office also illegally took 2000 yuan 
        (approximately $250) from me when I was released.
          On March 5, 2002, some Falun Dafa practitioners successfully 
        broadcast a video clip about the truth of Falun Dafa on TV. The 
        Central 6-10 Office ordered a large-scale arrest in Changchun. 
        I was arrested then. Police arrested over 5000 Dafa 
        practitioners at that time. Each cell at the detention center 
        had to hold at least 50 people. They even detained Falun Dafa 
        practitioners in bathrooms because of limited space. The First 
        Department of the Changchun Public Security arrested me on 
        March 11, 2002. They locked me in a 1.3 meter-high iron cage at 
        the police substation near the Nanguan District Caishen Temple. 
        I couldn't stand up at all. On the night of March 12, Gao Peng, 
        Zhang Heng and some other policemen from the First Division of 
        the Criminal Squad interrogated me. They handcuffed my hands 
        behind my back and put a cloth bag on my head. They used a rope 
        to tighten the bag on my neck so that I couldn't see anything 
        and I could hardly breathe. Then they tied me up using ropes 
        and put me in the trunk of the police car. They drove to a 
        mountain where they brutally tortured Falun Dafa practitioners 
        at will. Many fellow practitioners were tortured to death in 
        this place. Mr. Liu Haibo was stripped of all his clothes and 
        forced to kneel down. Police pushed the longest electric baton 
        they could find into his bottom and gave his organs electric 
        shocks. Liu died immediately on the site. Liu Haibo was a 
        college graduate.
          Liu Yi, a doctor from the Luuyuan District Hospital, was in 
        his thirties when he was tortured to death in this devil's 
        hole. Twenty-three practitioners were tortured to death there. 
        I knew many of them. The police simply buried their bodies in a 
        hole. Xiang Min, a pretty Dafa practitioner, was carried back 
        after a round of torture. She told me that the police sexually 
        harassed her by touching her bottom while giving her electric 
        shocks. Close to 30 practitioners were tortured to death in 
        that round of arrests.
          It took them over two hours to drive me to this notorious 
        place on a mountain. I heard them stop the car. Then they 
        dragged me out, beating me up at the same time. The police kept 
        cursing me and said they would torture me to death that day. 
        They bumped me into trees and I stumbled my way to a building 
        after 10 minutes or so. We went upstairs and downstairs, 
        eventually entering a room. They took the cloth bag off of my 
        head. The police said, ``Let's wait and see how you die today. 
        Nobody has walked out of here alive! '' I was in a small room 
        of about 50 square feet. There was a small desk with three long 
        electric batons with claws on them. There was also a rope and a 
        bed. Later, I found out that the bed was for the police to lie 
        down and rest while cursing us, when they got tired from 
        beating us up. I saw a tiger bench and many police busy 
        preparing to torture me. I heard wind blowing angrily. Next, a 
        few police forced me onto the tiger bench. They tied me to the 
        bench with my hands cuffed behind my back and behind the bench. 
        They fastened the iron rods at the side of the tiger bench till 
        I couldn't move and they tied down my ankles with two large 
        iron rings. Every five minutes, they would start a round of 
        torture on me. They moved my arms back and forth, and I could 
        hear my bones cracking. The huge pain made me almost faint. My 
        sweat and tears came immediately from the pain. They pushed my 
        head toward my legs. Because I was tied down on the tiger 
        bench, I felt my neck bones breaking and the iron rods piercing 
        into my breast and stomach. I was about to suffocate every 
        second. They tied ropes on the iron rings and pulled the ropes 
        harshly. My ankles hurt so much. Pains all over my body made me 
        tremble. They repeated the torture like this every five 
        minutes. My sweat and tears and blood soaked my hair and 
        clothing. Later, I fainted because of the unbearable pain. They 
        then poured cold water or boiling water on me to wake me up. 
        The boiling water burned my whole body badly. I couldn't stand 
        the slow killing and huge sufferings. I wished they would kill 
        me with a gun.
          After inhumanely torturing me over four hours on the tiger 
        bench, which had rendered me rather weak, they put an iron 
        barrel on my head. Each of the seven police smoked three 
        cigarettes at the same time and puffed smoke into the barrel. 
        This was suffocating and I fainted. They poured cold water on 
        me. When I was barely awake, they used the burning cigarettes 
        to scorch my eyeballs. I would struggle a little when I began 
        to gain consciousness. After that, they punched my head, face, 
        nose, and teeth. They knocked out my two incisor teeth. My face 
        swelled up and turned to dark purple. They also pierced my ears 
        using thin sticks. I couldn't hear anything for the next two 
        weeks. Eventually, they wore themselves out from torturing me 
        and went to sleep at 2 a.m. ``In March of 2002, they tortured 
        me three times within 17 days in that devil's hole. Each time, 
        the torture was more brutal. The last two times happened at 
        midnight. Each time, seven or eight police came and took me 
        from the cell and sent me back barely alive. One time, the 
        police didn't want the others to see how badly I was tortured. 
        They dressed me up in thick clothing. However, blood still came 
        out. Then the police dressed me with more clothing but the 
        blood soaked the clothing again. Practitioners there couldn't 
        go to sleep because of the horror and concern over fellow 
        practitioners.
          The police ``interrogated'' all the practitioners on the 6-10 
        Office's blacklist everyday. They tied up each practitioner, 
        put a cloth bag over the heads and cuffed the hands behind the 
        backs. Then they would throw them into the trunk of the police 
        car and drive to the mountain to the devil's hole where they 
        viciously tortured them.
          The relentless torture destroyed my body and health. They had 
        to lie about my poor condition to get the No. 3 Detention 
        Center to accept me. On the following day, I was sent to the 
        Provincial Hospital and then the No. 3 Military Hospital for 
        physical examination. The results indicated that my body had 
        sustained injury nearly everywhere and was in a critical 
        condition, and thus I did not meet the minimum health standard 
        to be detained. That afternoon, police had taken Ms. Guo 
        Shuaishuai and me back to the prison hospital and launched a 
        new bout of persecution there. We were tied onto a bed. Police 
        injected me with some drug, which has made me unable to feel my 
        legs ever since. My legs became ice-cold and completely numb.
          Practitioner Jiang Yong was persecuted here, too. He passed 
        away after seven months of torture. Police also injected him 
        with an unidentified drug and drew a large tube of blood from 
        him every day. These injections and blood drawing emaciated 
        Yong. He died during a force-feeding.
          It was terrible to witness the entire process of a person 
        being tortured to death. The guards continuously force-fed Ms. 
        Guo for over two months; the hard feeding tube was left in her 
        throat the entire time. Refusing to accept the force-feeding, 
        Ms. Guo swallowed down the 1.5-meter feeding tube. She tossed 
        and turned in bed due to the excruciating pain. The prison 
        hospital refused to release her in fear of her exposing the 
        evil persecution, so it intensified the torture. Guo and I were 
        stripped naked and tied with limbs spread apart on a bed. 
        Police and male inmates lewdly stared at us everyday. One male 
        prison doctor pinched and struck Ms. Guo's vagina. Unable to 
        bear the extreme torture, Mrs. Guo swallowed the spoon that was 
        inserted into her mouth. She again tossed and turned in bed due 
        to the pain. The prison doctor cut open her stomach to retrieve 
        the spoon. He deliberately made an unnecessarily long incision, 
        stretching from the chest all the way to the vagina. He roughly 
        sutured the extremely long cut and sent Ms. Guo to die at home. 
        Ms. Guo never recovered from the barbarous physical and 
        psychological torture.
          Ms. Zhao Xiaoqin and I were sent to the prison hospital the 
        same day. 6-10 officers knocked her unconscious and pushed her 
        down the stairs. The fall broke her left arm, caused a bump the 
        size of a bowl on her head, and made her insane. To this day 
        she cannot speak. The prison doctor did not change the cast on 
        her arm the entire summer. Consequently, her arm festered, and 
        bugs crawled around it. Seeing Ms. Zhao's suffering broke my 
        heart. I also witnessed other atrocities in this persecution. 
        We, the female practitioners, were all stripped naked and tied 
        with limbs spread apart on a bed board for over 26 days. We 
        suffered incessant humiliation and sexual assault from male 
        police, doctors, and inmates.
          I was transferred back to the No. 3 Detention Center for 
        refusing to renounce Falun Gong. The Detention Center refused 
        to accept me, because it heard that I would die soon, and it 
        feared to take responsibility for my death. Outraged police 
        then hung me on a door for six hours and beat me. I was taken 
        back to the prison hospital for more persecution. I went on a 
        hunger strike to protest. On the 50th day, a prison doctor cut 
        open my vein and placed an IV needle in it. My blood seeped out 
        and stained the bed and floor. Already accustomed to the bloody 
        persecution, the police and prison doctors were not at all 
        disturbed by my excessive bleeding. Each day, they administered 
        10 bottles of unidentified thick fluid to me. They left me to 
        urinate and defecate on the bed--I lay in a pool of urine and 
        feces for over 50 days. The full extent of the misery is beyond 
        description. My veins collapsed due to the hunger strike, so 
        the thick fluid could not pass through. The head surgeon just 
        shook the bottle and squeezed the fluid into my vein. I passed 
        out many times because of the excruciating pain.

    Mr. Yang Guang, another practitioner, suffered even more 
frightening persecution. I quote part of the letter a witness wrote to 
me:

          Yang Guang, who lived in Changchun City, Jilin Province, has 
        been illegally detained since January 2000 and has suffered 
        severe torture under the hands of Director Liang and officers 
        in the Changchun Public Security Bureau. He was tortured with 
        electric batons, tiger bench, straightjacket, hanging from the 
        ceiling, plastic-bag suffocation, and force-feeding of strong 
        alcohol. Persecutors occasionally torture him for 40 hours on 
        end. The torture gave Mr. Yang a deaf left ear, disabled arms, 
        paralysis from the waist down, necrosis in his right hip, a 
        broken right leg, deformed feet, festered toes, kidney failure, 
        and hydrothorax (fluids accumulated in his chest). Despite his 
        life-threatening condition, Mr. Yang was sentenced to 15 years 
        in the Jilin prison.
          Mr. Yang is held in the so-called naked district, which is 
        the prison section for disabled inmates. Here inmates are 
        forbidden to wear pants all year long, so that cleaning is kept 
        minimal. Inmates made the paralyzed Mr. Yang a special 
        wheelchair out of steel pipes, four casters, and boards for the 
        back and sides. The seat has a hole in the center, like a 
        toilet seat. Whenever Mr. Yang needs to go to the restroom, 
        inmates would push his chair to the bathroom. Because of the 
        side boards on the chair and his disabled arms, Mr. Yang cannot 
        clean himself afterwards. Urine, feces, and foul odor enshroud 
        Mr. Yang all year long. This naked district receives no 
        sunlight. The conditions are utterly inhumane. This district is 
        boiling hot in the summer and freezing cold in the winter. The 
        space for sleeping is less than 60 cm (23 in.) wide. The food 
        is disgusting and extremely lean.
          When Mr. Yang needs cleaning, inmates wheel him to the water 
        room and spray him with a pressure hose, and wipe him with a 
        mop that has nails sticking out. Inmates call this a ``cosmetic 
        shower.'' The prison authorities subjected Mr. Yang to these 
        intolerable conditions to force him to renounce Falun Gong. Mr. 
        Yang, however, remained firm in his belief. He was put into 
        solitary confinement. He was let out only when he was on the 
        brink of death. Mr. Yang was then transferred to a special 
        district in the Tiebei Prison in Changchun. He was given 
        absolutely no medical treatment. Nonetheless, the prison still 
        extorts 1,000 yuan (approximately $125) a month from Mr. Yang's 
        family.
          Mr. Yang only has an 86-year-old mother in his home who does 
        not know that her son has been tortured to such a horrid 
        extent. Whenever she sees people, she would sadly implore 
        ``Guang is a good person. Where is he now, I want my son! '' 
        Mr. Yang's wife divorced him, because there is no income to 
        support the family. Mr. Yang has also suffered extreme 
        psychological pain. Relatives demanded his release, but the 
        Prison, the Ministry of Justice, and the Prison Management 
        Bureau refused.

    Dalian practitioner, Chang Xuexia, is a graceful and quiet girl. 
She lowered her head in shame while recounting her painful and 
humiliating experience in a labor camp:

          I was arrested for the first time for appealing for Falun 
        Gong. I was illegally detained for 39 days in a rehabilitation 
        center in Dalian. In January 2003, the authorities again tried 
        to force me to renounce Falun Gong. They locked me in a small 
        metal cage and brought in a variety of instruments of torture. 
        Ms. Wang Yalin, the main persecutor of Falun Gong practitioners 
        in the center, goaded several inmates to hang me by the wrists 
        with my feet barely touching the floor. Wang ordered inmates to 
        ``Fix her well, all of you! ''
          The swarm of inmates struck and kicked me from every side. I 
        passed out. They dropped me on the floor and forcefully stepped 
        on my face and arm to see if I was faking. When I woke up, I 
        could not move my left arm, for my elbow was dislocated. 
        Inmates who refused to torture me were transferred and their 
        sentences extended. I was hung up again. This time inmates put 
        Teacher's picture inside my underwear, and wrote blasphemous 
        words against Falun Dafa and Teacher on my face. They also beat 
        me with a hard wooden plank. The bruises have not yet faded 
        after a whole year.
          I still refused to renounce Falun Dafa. They stripped me 
        naked, and several inmates began pinching my breasts, plucking 
        my pubic hair, and stabbing my vagina. They used a brush that 
        usually cleaned the water tank. They then put a basin under my 
        lower body to see if I was bleeding. Since no blood came out, 
        the inmates switched to a larger brush and repeatedly stabbed 
        my vagina with it. I could not bear the excruciating pain any 
        longer and succumbed to their demand of not doing the Falun 
        Gong exercises in the camp.
          What I had suffered in the camp was not the most brutal. 
        Another practitioner named Ms. Wang Lijun was tortured in the 
        small metal cage three times. Inmates tied many knots on a 
        thick rope and pulled it back and forth in a sawing motion 
        across her vagina. Her entire lower body swelled up. The head 
        police then ordered inmates to jab her swollen vagina with the 
        thorny end of a broken mop stick. This torture caused Ms. 
        Wang's vagina to bleed profusely. Her abdomen and vagina were 
        so swollen that she could not pull up her pants, or sit, or 
        urinate. Ms. Wang still could not sit upright two months after 
        the sexual torture. Her legs were also disabled. I also 
        witnessed these inmates applying this same torture on a virgin. 
        The head police officer also put venomous bugs on female 
        practitioners' bodies.

          My name is Wei Chun (alias). I am 35 years old and live in 
        Dalian. I started to practice Falun Gong in 1998. Because Falun 
        Gong teaches people to live the principles of ``Truthfulness, 
        Compassion, and Forbearance,'' I have improved greatly, both 
        mentally and physically. I can forgive others easily and 
        elevate my moral character at the same time. In July 1999, the 
        government started to oppress Falun Gong. I could not ignore 
        its abuse of our basic human rights, so I went to Beijing to 
        appeal for Falun Gong in March 2000. When I got on the train, I 
        was stopped and asked by a policeman to say abusive words about 
        Mr. Li Hongzhi. I refused, and so I was arrested. Afterwards, I 
        knew that whoever traveled to Beijing at that time, whether by 
        train or by bus, had to say some abusive words about Mr. Li or 
        Falun Dafa, otherwise they would not be allowed to travel.
          I was taken to the Dalian Drug Rehabilitation Center, and 
        detained for seven days. When I was sent back to my work place, 
        my supervisors demoted me to cleaning the factory in the 
        morning and reflecting on my mistakes in the afternoon. They 
        wanted me to renounce my belief and write statements slandering 
        Falun Gong. I refused, so I was forced to quit my job. In April 
        2000, I found other employment. On March 15, 2001, Chen Xin and 
        other policemen from the No. 1 Division of Dalian Public 
        Security Bureau abducted me from my work place. They did not 
        allow me to sleep for five days and nights. My hands were 
        handcuffed behind my back the entire time. They put lit 
        cigarettes into my nostrils and mouth. My mouth was filled with 
        cigarettes. At one time, a policeman hit my head with an iron 
        club. Afterwards, I was sent to the Dalian Detention Center and 
        sentenced to labor for two years. On May 18, I was sent to the 
        Fifth Team at the Dalian Labor Camp for reeducation.
          On June 4, Mr. Liu Yonglai, Mr. Qu Fei, Mr. Huang Wenzhong, 
        and myself were brought to the 4th floor. We were to be forced 
        to defame Mr. Li and Falun Dafa. If we did not do so, they 
        would punish us with electric shocks. If we did so, they would 
        take us downstairs to write the ``three letters'' defaming 
        Falun Gong and Mr. Li, criticizing ourselves, and pledging not 
        to practice Falun Gong again. They took off all of Liu 
        Yonglai's and my clothes, and handcuffed us together face to 
        face. They used six electric batons on both of us, and shocked 
        us on our heads, backs, thighs, genitals, both sides of our 
        chests, and necks. We clenched our teeth, and struggled to 
        avoid the electric shocks. As a result of struggling, the 
        handcuffs became progressively tighter. They eventually cut 
        into our flesh and down to our bones. It was extremely painful 
        and we bled a lot.
          The electric shocks continued for about one hour, and then 
        they separated us. They handcuffed Liu's hands behind his back, 
        and made him crawl on the grass. They put two chairs on his 
        back and asked two criminals to sit on the chairs. Then, 
        another six criminals used six fully charged electric batons 
        and repeatedly shocked his back, buttocks, neck, calves, soles 
        of his feet, and genitals at the same time. They even pulled 
        out his penis to shock it separately. As for me, I was tied to 
        a chair. The legs of the chair, and the back of the chair were 
        both tied with several electric batons. Then, they tightly tied 
        me on the back of the chair with a rope. Another criminal held 
        an electric baton to my head. Six batons were used to 
        simultaneously shock me. My entire body was in convulsions. I 
        felt that I would rather be dead than alive. I cried out in 
        despair. My hopeless cries could be heard throughout the entire 
        building. There were many Falun Gong practitioners on the 2nd 
        and 3rd floors. It is said that they all wept upon hearing my 
        shrill cries.
          The torture continued for about an hour. Then, I exchanged 
        places with Liu. He was forced to sit on the electric shocking 
        chair while I crawled on the grass. Again, I was shocked with 
        six electric batons at the same time for about one hour. I felt 
        that I could no longer bear it, but I'd rather die than betray 
        my belief, my conscience and not defame my Master and Falun 
        Dafa. So I started to hit the ground with my head in hopes of 
        inducing unconsciousness. Every time the six electric batons 
        touched me at the same time, I felt as if ten thousand arrows 
        had simultaneously been shot into my heart.
          I felt that I had died several times. After the electric 
        batons ran out, they would change to new ones with more 
        voltage. I finally started to fear, so at last I submitted. 
        Later, Liu could no longer endure it, either. He also 
        submitted. The policemen who led the criminals to shock us were 
        Qiao Wei, Zhu Fengshan, Jing Dianke and others. I don't 
        remember all the criminals' names. Afterwards, I was told that 
        when Huang Wenzhong was shocked, his face was burned and 
        bloody. Qu Fe's cheeks were beaten with shoes so severely that 
        they swelled up like a bread loaf. After we were taken 
        downstairs, we wrote the Guarantee Statements to renounce Falun 
        Dafa. When we went back to the team, we had to write a full 
        page with the same three sentences every day, defaming Master 
        Li and Falun Gong. Meanwhile, we had to shout the three 
        statements out every day. It was strangling my soul. The pain 
        it brought to me was far greater than the torture to my body. 
        But if we opposed it or refused to do so, we would be taken to 
        the 4th floor to be shocked until we submitted again.
          Afterwards, a Falun Gong practitioner called Li in class 3 
        could not endure the spiritual torture and chose to commit 
        suicide by hanging himself. He was rescued. At that time, I did 
        not want to live another moment. I was too humiliated. I did 
        not want to endure the electric shocks anymore. I was afraid 
        that I could not bear them. Nevertheless, I did not want to do 
        such immoral things as defame our Master and Falun Dafa. I told 
        Liu that if any practitioner dared to give his life, the guards 
        would not dare not to persecute us like this. He said that he 
        would sacrifice his life for the others. One day, when we were 
        cleaning outdoors, Liu walked to the 3rd floor from the back of 
        the building and jumped down head first. He died instantly. 
        Soon thereafter, many Falun Gong practitioners recanted 
        everything they wrote and said that what they had written 
        violated their conscience, the facts were twisted due to 
        torture and were invalid. They would firmly protect their 
        belief and the truth. Because of this, the police put these 
        practitioners who had recanted the three statements into the 
        same class and put them into forced labor. They got up at 5:00 
        a.m. and worked until 11:00 p.m. every day. Then, they sent 
        these nine practitioners to Guanshan Labor Camp to start a new 
        cycle of persecution.
          I realized that I could not cooperate with the guards any 
        longer, so I stopped wearing a prison uniform, stopped 
        marching, stopped singing, and started a hunger strike to 
        protest the persecution. The whole class also started a hunger 
        strike to protest with me. We were later separated, and I was 
        sent to the third brigade where I continued the hunger strike. 
        When a chief prosecutor asked me why I started a hunger strike, 
        I said that I had no other means, as no court dares to accept 
        my case. They are all Jiang Zemin's judges and courts, and no 
        one dares to represent us. I can only use my life to protest 
        the persecution against me, to protest Jiang Zemin and the 
        government's persecution of Falun Gong. I have a son. When my 
        son asks me in the future, ``What did you do during that most 
        severe persecution of just people.'' I don't want to tell him 
        that I submitted. I want to be a person that would ``rather die 
        with honor than survive in disgrace.'' On the 15th day of my 
        hunger strike, they released me on October 24, using the excuse 
        that I needed outside medical treatment in fear that I might 
        die in the reformatory.

    As we listened to those who had escaped death in this persecution, 
one by one, we were suffocating. Some of the true stories were told by 
those who had escaped death from the persecution several times. Their 
stories would move even a devil to tears. The unprecedented and 
unrivalled bloody scenes, the vicious, inhuman natures, the most 
disastrous torture techniques--all were so vividly terrifying. Facing 
these fellow countrymen, while they peacefully shared their stories of 
the barbaric persecution one after another, we must ask of those who 
wear the nation's emblem and the country's uniform to maintain the 
peace: ``In the past six of the 60 years of communist rule, how many 
such inhuman acts have you perpetrated and concealed? ''
    Where did our system fail? It has bred so many vicious public 
officials who live among us, have been supported by us, who were raised 
by parents like ours, and have families like ours! The tragic 
experience of our fellow countrymen fully illustrates that, in our 
society, there is a group of public officials who persistently 
disregard the basic moral values of human society, and have been 
continuously using methods that are completely distant from basic human 
morality and human nature. They covertly scheme their dirty deals that 
are causing the very destruction of our nation's human nature, basic 
morals, kindness and conscience. All fellow countrymen, including Hu 
Jintao and Wen Jiabo must admit that none of us can deny that our 
system is constantly and progressively creating such a shameful 
reality. And such a reality reveals the totally immoral character of 
our system.
    Hu, Wen and all fellow Chinese countrymen: it is a time of 
introspection for our nation! There isn't a people on this planet or in 
all of history that have suffered on such a large scale, enduring such 
a severe and disastrous persecution in peacetime because of their 
faith. This ongoing disaster has cost thousands of innocent people 
their valuable lives, and hundreds of thousands of people have been 
deprived of their freedom. The facts that we have seen showed us that 
all those who have been deprived of their freedom have also suffered 
bodily devastation and spiritual torment that is unbelievable to the 
civilized world. This completely inhuman persecution has caused over 
100 million Falun Gong followers and their families to suffer from 
subpoena and threats, deprivation of employment, work opportunities and 
income, confiscation of assets to various extents, and a persecution 
that extends to various other means. How absurd, dangerous, and immoral 
this is! This is a continuous fight against the entire Chinese people, 
human civilization, and the moral foundation of all the world's people!
    The situations with my law office and entire family are making 
clear the ongoing severe situation in China today: one who insists on 
telling the truth must pay the price. The country continually uses 
violent means to warn people publicly that the desire to understand and 
tell the truth is extremely dangerous.
    In countries with civilized systems, the truth is in the hands of 
those who have the political power and resources. The understanding of 
the value of truth is the scale used for judging a regime's 
civilization and morality. But in the current Chinese society, the 
ability of the government in obtaining the truth is completely 
different. I have painfully observed that living together and maturing 
with the political regime has been the regime's mechanism for 
concealing the truth. This situation makes the regime completely unable 
to know the truth. The regime has completely lost the necessary moral 
condition for knowing the truth. It has destroyed that moral condition 
completely.
    People like Ms. Wang Yuhuan and others who suffered in labor camps 
personally witnessed time after time the following. When higher 
authorities came to inspect, all the camps had an ironclad rule: gather 
those who might tell the truth, like Wang Yuhuan, to a place where the 
inspectors cannot find them. The common rule is: the visiting leaders 
leave with the ``truth'' that they have personally ``seen'' and 
``heard.'' When the iron gate closes behind the leaders, the crimes 
against our innocent fellow countrymen will quickly start again. The 
facts indicate that there is a coordinated collusion between the 
inspector and the inspected, both of whom know the truth without 
spelling it out.
    Now that the regime has lost the capability of obtaining the real 
facts, the investigation conducted by citizens themselves becomes 
completely legitimate and necessary, because the value of real facts is 
associated with the future of our nation and is closely associated with 
each individual who lives in this nation. We have the right to know how 
the power of this regime is linked to our people. We have the right to 
know how this persecution began six years ago. How could a country make 
such an immoral decision? Within these six years, how did the 
authorities carry out this decision? What did the country do? Within 
these six years, exactly how many of our innocent citizens have been 
illegally imprisoned behind the high walls? What exactly has happened 
behind that high walls? What is still going on today? Obtaining the 
answers to these questions is the fundamental moral obligation for the 
people of this country. Here we must emphasize that the government's 
cover-up of the truth is already worthless and is no longer an issue of 
only immorality. Those who have witnessed the facts will eventually 
enter society. In fact, many of them are already walking among people, 
tirelessly revealing the true facts.
    Chinese government, you must realize that you are a government. 
Only in this way can you deal with the disastrous reality from the 
standpoint of a government, in the manner of a government, and through 
the logical actions of a government. Only in this way can we avoid 
tragedies like the Tiananmen Square Massacre, the bloody persecution of 
Falun Gong, or the recent shooting of farmers in Guangzhou. 
Nevertheless, we have to face such a reality often. The reality is that 
over a long period, similar crimes towards innocent people have been 
repeatedly committed without any reason. In response to the desperate 
anguish that disasters have brought to the people, the Chinese 
government has always been silent and has even suppressed the suffering 
people through brutality.
    Our investigation has shown that, when facing the believers that 
are almost all ``headstrong and refuse to transform,'' those 
responsible for ``transforming'' these individuals have completely lost 
their humanity. As a result, they treat those being transformed 
unscrupulously to the point of committing all manners of crimes. The 
whole system has exhibited insanity driven by desperation as the 
suppression has lasted six years without any success. The recent 
horrifying incident in which the policeman He Xuejian raped two female 
Falun Gong practitioners in Tunzhong City, Hebei province in front of 
his colleagues, is a clear example.
    From several investigations, I have found that in their need to 
suppress the innocent, police can resort to any heinous crimes to 
achieve the goal of transformation. In the inhumane persecution against 
these believers, the Chinese police have completely become 
criminalized. They no longer have a conscience nor do they have any 
consciousness for law or justice; instead, they take for granted that 
their responsibility is to chop up people like fish or meat. In the 
prison within their jurisdiction, a cucumber can be sold to inmates for 
a price of 25 yuan (about $3), a roasted-chicken can sell for up to a 
few hundred yuan. Even the sleeping space that originally belongs to 
public property is turned into tradable merchandise in the hands of the 
people's police. Every space as wide as a person's shoulder can be sold 
at a price up to 2,000 yuan (about $250) per month. Many prisoners in 
the labor camp without money continue to be treated inhumanely in the 
night by having to sleep vertically on their sides.
    Not only do the Chinese police have no morality, but they have also 
completely lost the fundamental sense of shame that is characteristic 
of a human being. In this investigation, another disgusting source of 
crime in our society is the system of re-education through labor, which 
has brought numerous disasters to our nation in the last half-century. 
The system of re-education through labor, a dirty business conducted by 
the Chinese State Council, has openly insulted and offensively treaded 
upon our constitutional principles; it has survived regardless. In 
human history, no government of any other nation can behave like the 
Chinese State Council, which completely disregards its own 
constitution. Since the birth of the country's constitution, the system 
of re-education through labor has always placed it in an embarrassing 
position. This demonstrates the Chinese government's lawlessness and 
also proves their so-called ``ruling the country by law'' as nothing 
but a hoax.
    Besides the Constitution of China, a series of fundamental laws 
that were ratified later, including the Legislation Law of the People's 
Republic of China, Law of the People's Republic of China on 
Administrative Penalty, Administrative License Law Of the People's 
Republic of China, etc. all explicitly exclude the possibility of the 
Chinese State Council gaining the power to deprive people of their 
freedom. Fundamentally, the system of re-education through labor is the 
most illegal form of malpractice that prevents China from achieving the 
rule of law. It is the biggest enemy of the Constitution of China and 
of the fundamental laws and principles. It opposes the pursuit of the 
Chinese people for a China ruled by law.
    Our investigation has shown that the system of re-education by 
labor, in its illegal deprivation of freedom, has been abusive beyond 
imagination. The elderly women Wang Yuhuan and Sun Shuxiang have been 
illegally arrested and detained nine times in six years. The procedure 
for re-education through labor is so informal and poorly enforced that 
it might as well be a joke. The true facts have revealed the shocking 
abuse of power as well as the complete lack of morality! Today is the 
time when a confession to our nation must be made. I must especially 
emphasize that if this evil crime does not stop, then the interrogation 
of our nation by people like Gao Chengzhi will continue. The day when 
Chinese society becomes stable and harmonious will not arrive. People 
have lost their patience with power-abusers who cast aside their 
conscience day and night. The storm of protests created by these people 
is constantly shaking the country's foundation and rocking what people 
have been used to for decades. How could anyone ignore this phenomenon?
    Through my experience of continuously communicating with those 
citizens who are firm in their beliefs, I have truly seen the existence 
of something most precious to our nation today. Those who can calmly 
describe with a smile their experiences of dealing with the dreadful 
process of being persecuted have shaken my soul. I was often moved to 
tears. In our nation, I have finally seen the spirit that remains 
faithful and unyielding, holding onto the intangible quality of 
principles.
    The tribulation in the last six years has created a large group of 
people who have this unmatchable and noble human dignity. Their 
firmness towards faith, the way they treat the brutal custody with 
scorn, as well as their optimism that our nation will have a beautiful 
future earns one's deep respect. Another trend we found in our 
investigation is that every Falun Gong follower who has stepped out of 
custody, no matter how long he or she was in custody, becomes more 
faithful. The most typical example is Ms. Han from Fuxin City, Liaoning 
province, who was arrested and placed in custody several times. After 
being released from a brutal custody that lasted for a few years, the 
head of the local police station tried to make her promise not to 
practice Falun Gong any more. To this, she told the policeman, who 
represents the people's government, firmly yet peacefully: ``Even if 
you arrest me one hundred times, I will still continue to practice. The 
fact that we practice is nothing wrong, let alone a crime. After I 
returned home from custody, through constantly telling our family 
members and the people around me the truth about Falun Dafa, over 
thirty of them have joined the practice.''
    This time, during my stay with the Falun Gong group, I also found 
another delightful fact. In contrast to the current situation where the 
humanity, conscience, morality, compassion, and responsibility of our 
society is suffering an overall deterioration, these cultivators, as a 
group reborn from the old nation, have impacted all of these areas in a 
positive way. One can feel the powerful way in which faith can change 
one's soul. Indeed it has allowed me to see a spark of hope for 
rescuing our nation from its current depraved state.
    Through my acquaintance with these believers, I was deeply moved by 
their calmness when narrating their unprecedented calamity, their 
compassion toward those that tortured them, and their optimism towards 
our nation's future. These people take fame and profit very lightly. 
They continue to quietly assist fellow practitioners whose lives are in 
danger due to the ruthless oppression. Their patience in assisting the 
vulnerable children or the elderly relatives of Falun Gong 
practitioners, who were either illegally detained or killed, is beyond 
a typical human being's imagination or understanding. How one's belief 
has such a strong influence over one's soul and morality is 
unbelievable.
    For instance, Zhu Xiaoguang, who is 33 years old, told me that when 
he was first thrown in the prison, malicious interactions among inmates 
were the only type of communication. People there gained the upper hand 
by being more ruthless than the others. No one wanted to be tamed or 
required to exercise any self-restraint. Later on, Falun Gong 
practitioners miraculously cleansed the prisoners' souls and guided 100 
people to begin practicing Falun Gong. He said, ``I calmed myself 
through a complete transformation of my spirit.'' As a result, many new 
inmates were dumbfounded to find kind and helping hands in place of 
``tone-down lessons'' upon their arrival at the prison.
    The experience of Zhang Linyou, a former policeman in Kungchuling 
Detention Center, was even more astonishing. He told me that practicing 
Falun Gong led him to become the only policeman in that gigantic prison 
who stopped torturing prisoners and turned down any bribes. He said 
that he was under constant agony the first year he decided to quit his 
bad habits. It was extremely painful for him to see his colleagues 
accept bribery and to resist the temptation when he himself was short 
of money! He proudly told me that cultivation completely transformed 
his soul! Later on the 60 inmates under his charge were very grateful 
to him and believed that all the Chinese police should practice Falun 
Gong. If that happened, the prisoners said, the Chinese police would 
become the most civilized in the world. Nevertheless, Zhang Linyou was 
later illegally sentenced to forced labor and dismissed from his job 
for practicing Falun Gong.
    Yet we are distressed to see that the transformation of people in 
China is going in the opposite direction. Public political pressures 
and temptation have annihilated the last trace of kindness in the 
police. The evil side of human beings is rapidly dominating their 
behavior, while a basic conscience is no longer valued. The police are, 
in fact, victims of this fanatical movement to eliminate human nature.
    Belief and morality are the most important elements for securing 
the longevity and advancement of a nation. What our nation has missed 
the most over the last few decades is the underlying belief that 
upholds and enhances our nation's moral values. This is the cause of 
China's continued chaos for the past few decades. Hence, for the long-
term well being of our country, one must grant and protect people's 
freedom of belief. Only through transforming people's hearts can we 
create a world with hope. What our government has been doing in the 
past six years is utilizing violent and barbaric tactics to impede our 
nation from striving towards a bright future.
    In this open letter, I would also like to bring several requests to 
the government's attention. These are to end immediately the violent 
persecution of people who uphold their beliefs and to free and 
compensate Yang Guang and other prisoners of conscience! Yet we are not 
asking for the government to reinstate the good name of Falun Gong 
people. For in their own hearts, as well as in the hearts of ethical 
members in our society, no one has ever claimed that this group of 
people was problematic. A system that has ruthlessly tortured a nation 
for over half a century no longer has the moral values or 
qualifications to reinstate anyone's good name. Moreover, to allow such 
a statement to be made by this system is an insult to the victims! I 
hereby warn those who still endorse violence to cease their barbaric 
acts since this is your last chance!
    Lastly, allow me to tell Mr. Hu Jintao and Mr. Wen Jiabao with 
respect that we must have the courage and morality to admit that the 
political machine, which has ruthlessly tortured our nation for half a 
century, is tainted with the blood and tears of innocent people and 
that the piteous fate of the Chinese people, owing to coercion and 
oppression by the dictatorship of thousands of years, is still without 
end. We must acknowledge that our nation, our people, have the right to 
pursue democracy, freedom, the rule of law, and human rights, and that 
this yearning has never before been this fervent. Today, any attempt to 
obstruct people's pursuit for the abovementioned rights will end in 
vain. Please pardon my frankness but all the blood debts have been 
engraved in the people's eyes, experiences, and tainted memories. 
Gentlemen, only when the safety of the suffering people is in your 
hearts can you find true security. Likewise, only when you genuinely 
care for the future of our nation will you have equally as bright a 
future!
    Wishing Mr. Jintao and Mr. Wen Jiabao safety and health in the New 
Year.
    May the New Year bring a new world for my fellow citizens!
    May God bless the Chinese people!

Your fellow citizen,
Gao Zhisheng
December 12, 2005--Changchun City, Jilin Province

* * * * * * * *
    \1\ On Dec. 6 paramilitary police fired on villagers in Shanwei, in 
Guangdong province, killing dozens. The villagers were protesting the 
confiscation of their land without fair compensation.
    \2\ Dr. Jiao Guobiao, a journalism professor at Peking University, 
was recently fired for his outspoken views on censorship.
    \3\ The ``Tiger Bench'' is a torture device. Victims are forced to 
sit on a small iron bench that is approximately 20 cm (6 inches) tall. 
Victims' knees are tightly tied on the small bench--the Tiger Bench. 
Several inmates are assigned to watch over the practitioners and force 
them to remain motionless while sitting on the bench. Usually some hard 
objects are inserted underneath the victims' lower legs or ankles to 
make the pain more intense. For an illustration, please see: http://
www.clearwisdom.net/emh/articles/2001/11/24/16156.html
    \4\ In the ``Death Bed'' torture the four limbs are stretched out 
and tied to the four corners of an icy-cold metal bed. The victim 
cannot move at all. Neither is he allowed to get up to eat, drink, or 
go to the bathroom. This treatment would last from several hours up to 
more than a dozen days. This type of cruel torture causes severe damage 
both mentally and physically. See illustration on http://
www.clearwisdom.net/emh/articles/2004/12/15/55600.html
                                 ______
                                 

           Dark Night, Dark Hood and Kidnapping by Dark Mafia

          [My Account of More Than 50 Days of Torture in 2007]

                            by gao zhisheng
    These words from me today will be finally revealed one day. They 
will expose the true face of today's China and will disclose the 
unimaginable heart and characteristics of the ``ruling party'' in 
China.
    Of course, these words will inevitably bring unpleasant and even 
disturbed, embarrassed feelings to those global ``good friends'' and 
``nice partners'' of today's Chinese Communist Party--IF these global 
``good friends'' and ``nice partners'' still have some concern in their 
hearts for the value of human conscience and morality.
    Today, the suddenly well off CCP has not only gained more and more 
global ``good friends'' and ``nice partners'' but also has spoken more 
and more loudly such perverted slogans as ``China is a country with 
rule of law.'' Both will be disastrous to the progress and development 
of the human rights of the Chinese people.
    Around 8 p.m. on Sept. 21, 2007 the authorities notified me orally 
that I should go for a mind re-education talk. I found there were some 
unusual things happening this time. The secret police, who used to 
follow me very closely, kept a greater distance. I was walking down the 
street that day and, when I turned a corner, about six or seven 
strangers started walking towards me. I suddenly felt a strong blow to 
the back of my neck and fell face down on the ground. Someone yanked my 
hair and a black hood was immediately pulled over my head.
    I was brought to a vehicle and was put in it. Although I couldn't 
see, it seemed to me that it had two benches with a space in the 
middle. I was put in the space in the middle on the floor. My right 
cheek was on the ground. All of a sudden a boot was stepped on my face 
holding me down. Many hands started searching all over me. My belt was 
pulled off and then used to tie my hands behind my back. At least four 
people stepped their feet on me holding me down.
    About 40 minutes later I was dragged out of the car. My pants were 
falling down around my knees and I was dragged into a room. No one had 
said anything at all to me until that time. The hood was pulled off of 
my head at this time. Immediately men began cursing and hitting me. 
``***, your date of death has come today. Brothers, let's give him a 
brutal lesson today. Beat him to death.''
    Then, four men with electric shock prods began beating my head and 
all over my body. Nothing but the noise of the beating and my anxious 
breathing could be heard. I was beaten so severely that my whole body 
began uncontrollably shaking.
    ``Don't let him rest! '' shouted a guy I later learned is named 
Wang. Then a very strong and tall (approximately 6' 1") man grabbed my 
hair and pulled me up off the ground. Then Wang began beating me on the 
face terribly.
    ``***, you are not worthy to wear black clothes. Are you a Mafia 
leader? Pull off all of his clothes.''
    All my clothes were pulled off and I was totally naked. Wang yelled 
again, and someone kicked me in the back of my legs, and I collapsed to 
the floor. The big guy continued to pull my hair and forced me to lift 
my head to see Wang.
    At this time, I could see that there were five people in the room. 
Four of the men were holding electric prods, and one was holding my 
belt.
    ``You listen, Gao, today your uncles want nothing but to make your 
life worse than death. I tell you the truth, your matter is not only 
between you and the government.
    ``Look at the floor! There is not a single drop of water. After a 
while the water will be above your ankles. After a while you will learn 
where the water will come from.''
    While Wang was saying this, the electric shock prods were thrust on 
my face and upper body shocking me.
    Wang then said, ``Come on guys, deliver the second course! '' Then, 
the electric shock batons were put all over me. And my full body, my 
heart, lungs and muscles began jumping under my skin uncontrollably. I 
was writhing on the ground in pain, trying to crawl away. Wang then 
shocked me in my penis.
    My begging them to stop only resulted in laughing and more 
unbelievable torture. Wang then used the electric shock baton three 
more times on my penis while shouting loudly.
    After a few hours of this I had no energy to even beg, let alone 
try to escape. But my mind was still clear. I felt my body was jerking 
very strongly when the baton touched me. I clearly felt some water 
sprinkled on my arms and legs as I was jerking. It was then I realized 
that this was sweat from me, and I realized what Wang had meant about 
the water.
    It seems that the torturers themselves were also tired. Before the 
dawn came, three of them left the room. ``We will come back later to 
give him the next course,'' Wang said.
    The two left in the room, put a chair in the middle of the room and 
pulled me up and set me in the chair. One of them had five pieces of 
cigarettes in his mouth. One man stood behind me and the man with the 
cigarettes was in front.
    The man behind grabbed my hair and pulled my head forward and down. 
The other man used the cigarettes to fill my nose and eyes with smoke 
over and over. They did this with the utmost patience. After a while I 
didn't have any feeling except for some tears dropping on my legs.
    This continued for about two hours. Then some other guys came in 
replacing the previous two. My eyes could not see because they were now 
swollen shut.
    The new guys started talking, ``Gao, are you still able to hear 
with your ears? I tell you the truth, these guys are experts in 
cracking down on Mafia guys. They are heavies. This time they are 
chosen specifically and carefully by the higher authorities for this 
purpose.
    ``Can you hear who I am? My last name is Jiang. I followed you to 
Xiajiang after you were released last year.''
    ``Are you the one from Penglai City, Shandong?'' I asked.
    ``Yes, your memory is still good. I told you, you would come back 
sooner or later. When I saw you the way you behaved in Xiajiang, I knew 
you would be back. You even looked down upon our police.
    ``Shouldn't we help you have a better lesson? You wrote that letter 
to American Congress. Look at you, you traitor. What could you be given 
by your American lord? The American Congress counts for nothing. This 
is China. It is the Communist Party's territory.
    ``To capture your life is as easy as stepping on an ant. If you 
dare to continue to write your stupid articles, the government has to 
make its attitude clear. Now, did you see that attitude tonight? '' 
Jiang spoke slowly.
    I asked, ``How can you treat taxpayers using such Mafia tactics? 
How could you face billions of Chinese in the future? ''
    ``That is why you deserve to be beaten,'' said Jiang. ``You are 
more clear in your mind than most people. Taxpayers count for nothing 
in China. Don't talk about this term 'taxpayers.' ''
    While he was saying this, someone else entered the room. I 
recognized the voice to be Wang's. ``Don't talk to him with your mouth. 
Give him the real thing. Your uncles have prepared 12 courses. We only 
finished 3 last night.
    ``Your chief uncle doesn't like to talk and so after a while you 
will see that you will have to eat your own S*** and drink your own 
piss. A toothpick will touch your light [sexual organs]. ``
    ``Don't you talk about torture by the Communist Party yet, because 
we will give you a comprehensive lesson now!
    ``You are correct, we torture Falun Gong. Everything is right. The 
12 courses we're going to give to you were practiced on the Falun Gong. 
To tell you the truth, I am not afraid that you continue to write. We 
can torture you to death without your body being found.
    ``You stinky outsider [meaning, not from Beijing]! How dare of you 
being so arrogant in Beijing? Let's teach him the lesson again.''
    In the following hours of torture, I passed out from time to time 
because of lack of water and food, and heavy sweating. I was lying down 
on the cold floor naked. I felt several times someone come and open my 
eyes and shine a flashlight in them to see if I was still alive.
    When I would come to, I smelled the strong odor of stinky urine. My 
face, nose, and hair were filled with the smell. Obviously, but I don't 
know when, someone had urinated on my face and head.
    This torture continued until around noon on the third day. I don't 
know where I got the strength to endure, but somehow I struggled to get 
away from their grasp and suddenly ram my head again the edge of the 
table.
    I was shouting the names of my two children (Tiangyu and GeGe) with 
such a sad and remote voice and trying to kill myself. But my attempt 
did not succeed. I thank Almighty God for this. It is He who rescued 
me. I truly felt God dragged me back from that state and gave me my 
life.
    My eyes were full of blood, though, because of my head-banging. I 
fell on the ground. Immediately, three people sat on my body. One was 
on my face. They were laughing. They said I used my death to try to 
scare them. They said they have just seen this too many times.
    They then continued the torture again until that night. I could not 
see anything with my eyes anymore. I could still hear my torturers 
though, and again they gathered after they had dinner.
    One of them came and pulled my hair, dragging me up. ``Gao, are you 
hungry? Tell us the truth!"
    I said, ``I am very hungry.''
    ``Do you want to eat? Tell us the truth!"
    I said, ``I want to eat.'' Immediately, they slapped my face 
repeatedly, a dozen times or more, and I again collapsed to the ground. 
A boot stomped on my chest, and someone shocked me on the chin with the 
baton. I screamed. Then someone thrust the baton into my mouth.
    ``Let's see how different your mouth is from others. Don't you want 
to eat? You said you are hungry. Are you worthy?'' The baton was in my 
mouth but was not turned on. I was wondering why?
    ``Gao, do you know why we didn't destroy your mouth?'' then Wang 
said. ``Tonight your uncles want you to talk the whole night. We want 
you to talk about nothing except about how you are a womanizer. You are 
not allowed to say you are not one. You are not allowed to say there 
are just a few women, either. Don't forget any details. You can't leave 
any details out. Your uncles like this. We have slept and eaten enough, 
it's your time to talk.''
    ``Why didn't he talk? Beat him up brothers! '' Wang shouted. Three 
batons began shocking me. I was crawling all over trying to get away 
and was still naked. After more than 10 minutes, I was shaking 
uncontrollably again.
    I begged them. ``I didn't have an affair. It's not that I don't 
want to tell you.'' I heard my voice was quivering.
    ``Are you becoming a fool? '' said Wang. ``Let's use the baton to 
light you and see if you start talking.''
    Then two people stretched out my arms and pinned them to the 
ground. They used toothpicks to pierce my penis. I can't use any 
language to describe the helplessness, pain, and despair that I felt 
then. At a point like that, language and emotion do not have the power 
to explain. Finally I made up stories, telling them about affairs that 
I had with four women. After more repeated torture, I had to describe 
how I had sex with each of these women in details. This continued until 
dawn the next day.
    At that time, I was dragged to where I had to sign the transcript 
of my confession about my affairs. ``If we send this out, you will 
become stinky dog's *** in half a year,'' Wang said loudly.
    After I was released, I learned that the day after the torture the 
interrogator named Sun informed my wife of ``the truth'' they had 
learned about my affairs. My wife told them: ``I do not need 
government's help to get to know my husband. In my eyes, he is still 
the one who wrote 3 open letters to urge the government to stop 
persecution of Falun Gong.''
    After being tortured for days, I often lost consciousness and was 
unable to determine the passage of time. I don't know how long had 
passed. A group of them were preparing to torture me again.
    Another guy came in, though, and rebuked them. I could hear it was 
a deputy director from the Beijing PSB. I had seen him many times 
before. I thought him to be a good person.
    I could not see him though, because my eyes were still swollen. My 
whole body was beaten and skins were all bruised and unrecognizable. He 
sounded angry because of my condition. He found a doctor to attend to 
me. He said he was appalled and surprised. He said, ``This torture 
doesn't represent the Communist Party!"
    I asked him, ``Who directed this?''
    He didn't reply. I asked to be sent back home or even just back to 
prison. He didn't reply. He brought my torturers back into the room and 
rebuked them. He ordered them to buy clothes for me and give me a 
blanket and food. He told me he would try his best to either get me 
back to prison or back home.
    As soon as the deputy left, Wang began cursing me. ``Gao, you even 
dream to go to prison? No, that is too easy. You won't have any chance 
to do that as long as the CCP is still in power. Don't even think about 
that.''
    That same night, I was transported to another location, but I 
didn't know where, since I had a black hood over my head again. I was 
continuously tortured there again for more than 10 days.
    Then one day, they put the hood on me again, and I was put into a 
vehicle. My head was forced in between my legs, and I had to remain 
that way for more than an hour. The suffering was more than I could 
stand, and I wanted to die.
    After another hour, at a new location, the hood was removed. Four 
of the previous five torturers were not there. Instead, I saw the same 
group of secret police who used to follow me.
    From then on, the physical torture stopped, but emotional torture 
continued. I was told the 17th Communist Party Congress was starting 
and that I had to wait for the higher authorities' opinions about my 
case.
    During that time, some officials came to visit my cell. Their 
attitude was softer, and I was also allowed to wash my face and brush 
my teeth.
    Some officials proposed to me to use my writing skills to curse 
Falun Gong instead, and that I could charge whatever I wanted for doing 
that. I said it is not a technical problem but an ethical problem.
    ``So, if that is too hard, then write articles praising the 
government, and again charge whatever you want,'' they suggested.
    Finally, they proposed, ``If you write that you and your family 
were treated well after prison and that you were fooled by Falun Gong 
and Hu Jia, things will go well. Otherwise, how can you find an end to 
your suffering? Think of your wife and children.''
    In exchange, I did write an article that said the government 
treated my family well. In that article, I explained that I wrote the 
open letter to the U.S. Congress because I had been fooled by Falun 
Gong and Hu Jia.
    Before I was released to go home, though, I was brought to Xian 
city to make a phone call to Hu Jia.
    On the date of the mid-autumn festival, the authorities asked me to 
call my wife and comfort her since she was holding a protest and trying 
to commit suicide over the government's treatment of our family.
    The content of the call was all designed by the authorities (Later 
I learned that my wife's response was also choreographed.). I could 
still not open one of my eyes at that time due to the previous torture. 
Since the call was being taped, I was told to explain that it was from 
a self-inflicted wound.
    In the middle of November 2007, after I got home, I learned that my 
house had been thoroughly searched again, without a single document or 
search warrant having been produced. During those more than 50 days of 
horrifying torture on my body and spirit, I had many strange feelings. 
For example, sometimes I could really hear ``death'' and sometimes I 
could really hear ``life.''
    On the twelfth or thirteenth day of my kidnapping, when I could 
again partially open my eyes, I saw my body was in a horrifying 
condition. Not a single square centimeter of my skin was normal. It was 
bruised and damaged over every part.
    Every day while I was being held, the experience of ``eating'' was 
unusual. Whenever I was at the point of starving, they would bring up 
``mantle'' [steamed bread] and offer it to me. If I would sing one of 
the three famous revolutionary Communist Party songs, I could have some 
bread.
    My deepest desire was that I wanted to live until that was no 
longer possible. My death would be torturous for my wife and children, 
but at the same time I didn't want to dirty my soul. But in that 
environment, human dignity has no strength. If you don't sing these 
songs, you will continue to be starved, and they will continue to 
torture you, so I sang.
    When they used the same tactic, though, pressuring me to write 
articles attacking Falun Gong, I didn't do it. But I did compromise by 
writing my statement saying the government didn't kidnap and torture me 
and that they treated my family well. I did sign that document.
    During these more than 50 days, more horrible evils were committed 
than I have told here. Those evils are not even worthy of any 
historical records by any human governments. But those records will 
further enable us to see clearly how much further the leaders of the 
CCP are willing go in the CCP's evil crimes against humanity in order 
to protect its illegal monopoly on power! Those evils are so dirty and 
disgusting that I don't want to mention them at this time and perhaps 
will never mention them in the future.
    Every time when I was tortured, I was always repeatedly threatened 
that, if I spelled out later what had happened to me, I would be 
tortured again, but I was told, ``This time it will happen in front of 
your wife and children.''
    The tall, strong man who pulled my hair repeated this over and over 
during the days I was tortured. ``Your death is sure if you share this 
with the outside world,'' he said. This was repeated many times. These 
brutal, violent acts are not right. Those that did it, themselves, knew 
this clearly in their hearts.
    Finally, I want to say a few words that won't be liked by some 
folks. I want to remind those so-called global ``good friends,'' ``good 
partners,'' so-called by the CCP, that the increasing degree of 
brutality and coldness against the Chinese people by the CCP is the 
direct result of appeasement by both you and us (our own Chinese 
people).

Gao Zhisheng

Written on November 28, 2007 at my besieged home in Beijing

Authorized to be released to international community on February 9, 
2009
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
   Written Statement of Michael Horowitz, Senior Fellow, the Hudson 
                               Institute

                           february 14, 2012
    I have taken a personal step today as an act of kinship with heroes 
of faith and conscience now languishing in Chinese prisons.
    In particular, I hope to help bring to public attention and the 
attention of the President to the cases of towering world figures known 
as the ``China Six.'' With many others, I believe that their release 
from jail should be a priority concern in today's meeting--and, until 
they are released, in all other high level US-China meetings.
    When I worked at the White House I saw what a concerned President 
Reagan was able to do on behalf of Jewish Refuseniks, Pentecostals and 
other prisoners of conscience of the former Soviet Union. I hope and 
believe that President Obama will do the same for the China Six and 
others held in Chinese prisons and know that he can be powerfully 
effective on their behalves.
    I hope that the President will make clear to Vice President Xi what 
the President of the Ethics and Religious Liberty Commission of the 
Southern Baptist Convention, the President of the National Association 
of Evangelicals and the Director of the Religious Action Center of 
Reform Judaism on behalf of the China Six: ``Stable relations between 
China and the United States rest upon agreement to shared commitments 
to fundamental human rights, including the right to religious freedom. 
. . '' Most of all, I hope that Vice President Xi's visit to the United 
States will help him understand that escalating mistrust between the 
United States and China--a development in the interest of neither 
country or the world at large--will be the consequence of persecuting 
such prisoners of faith and conscience as the China Six.
    I and others have great hope for progress in US-China relations as 
Vice President Xi Jinping assumes leadership in China. The sixteen year 
persecution of his father for acts of conscience not dissimilar from 
those of the China Six--a persecution which Vice President Xi acutely 
shared--offer hope that he will understand the importance of rule of 
law reform as a means of protecting and enhancing his country's 
security, success and respect.
    The treatment of the China Six will send a clear signal about Vice 
President Xi's vision for China's future and his interest in improved 
relations with the United States.
                                 ______
                                 

            Gao Zhisheng's Open Letter to the U.S. Congress

                           september 27, 2007
    Dear Ladies and Gentlemen in the U.S. Senate and House of 
Representatives:
    Most respectful greetings from Gao Zhisheng! Allow me to express my 
sincere gratitude for your kind consideration and support in the past 
year to me and to the values I am pursuing.
    In the past two months, I have twice read the Debates in the 
Federal Convention of 1787 by James Madison. Freedom, democracy, and 
rule by law and constitution are the values China has longed for but 
has not been able to enjoy.
    There is a saying in China, ``A bite when hungry is better 
appreciated than a feast when full.'' Likewise, your persistence is 
especially precious given the almost total silence, or even 
subservience, of the mainstream international world in the past few 
years in the face of the tyranny of the Chinese communist regime, a 
parvenu government that stops at no evil.
    Your persistence is a symbol that tells the world that the shining 
side of humanity continues to exist. The persistence you and many 
others demonstrate in refusing to collaborate with this fascist 
government is a strong wall that the overbearing communist regime 
cannot surmount. This persistence is a buoy that keeps the oppressed 
from being completely drowned by darkness, and it is the source of 
strength for the downtrodden Chinese people who are struggling to 
resist the atrocities and defend human rights. It is the manna that 
gives us hope to persevere in our peaceful protest.
    You and other people of conscience are an important force that 
makes it possible for the Chinese people to peacefully abandon the 
tyranny and to establish a free, democratic, and civilized new China.
    I am not a politician. I promise that you won't see any rhetoric, 
distortion, or pretense in this letter. Experience teaches us that 
though the world can be very critical, people often favor counterfeit 
virtues. This rule is brought to extremes in my country by those who 
vilify the good and glorify evil. In the past two years, the Chinese 
communist regime has demonstrated every vile act one can and cannot 
imagine during its efforts to silence me.
    As if to prove its determination to destroy human feelings and 
conscience at all cost, the regime ordered at least four secret police 
to maintain continuous intimate man-to-man surveillance on my less-
than-3year-old son. My 12-year-old daughter was ``privileged'' to an 
even higher level of treatment with six to ten male and female secret 
police at her heels day and night, month after month, even when she was 
in the classroom. All my family members have been followed around by 
secret police and have been illegally detained at will many times.
    During this period, my wife and children suffered repeated brutal 
assaults. The regime is determined to stop at nothing to persecute me, 
and made special efforts to reveal its true color of ``what's there to 
be afraid of, being already so notorious,'' only because I stick to my 
conscience and responsibility as a human being. Behavior that is 
commonly considered to be too degrading for human beings is enforced in 
my country as [mere] political tasks.
    Today, as we approach the Beijing Olympic Games, I ask you to pay 
attention to the ongoing human rights disaster in China, and wish you 
to forward my appeal to the whole world. I ask you to seriously 
consider the outlook of morality, justice, and humanity for today's 
mankind, as well as to what extent such values are undermined in China.
    More and more Chinese people are speaking out against the coming 
Olympic Games in China, which they often refer to as lithe bloody 
Olympics'' and lithe handcuff Olympics.'' They raised the protest, ``We 
want human rights, not the Olympics.'' Recently Mr. Jacques Rogge, 
president of the Olympic Committee, expressed to the Chinese media his 
determination not to be moved by these ``desperate and indignant'' 
voices. Meanwhile, Mr. Rogge asked people not to politicize the Olympic 
Games.
    Though I have very positive feelings about the spirit embodied in 
the Olympic Games, I am not willing to rebuke Mr. Rogge for his 
dereliction of duty to defend the ethical values of the Olympics. But 
it is necessary to remind Mr. Rogge that the Chinese communist regime 
treated the application and hosting of the Olympic Games exactly as an 
important political task. Everything related to the Olympics is 
regarded as a political issue.
    Liu Qi, China's key person in charge of these Olympics, claimed 
that it is an ``overriding political task'' to ensure that every need 
of the Olympic Games is met. This is a simple and commonly recognized 
fact in China.
    What the Chinese authorities failed to predict is how wildly the 
corrupt officials are taking advantage of this ``overriding political 
task.'' Under the name of securing the success of the Olympic Games, 
all kinds of evils have been committed in broad daylight without any 
obstruction, including forced eviction, illegal arrests and persecution 
of people who petition to the authorities, and suppression of religious 
people.
    It is plain as day to all Chinese people that, with successes in 
hosting the Olympic Games, the communist regime is trying to achieve 
two goals. First, it tries to prove to the Chinese people that the 
world is still acknowledging the Party as a legal government despite 
all the suppressive and bloody tyranny and all the horrible crimes 
against humanity the Party has committed during the past decades at the 
cost of at least 80 million Chinese lives. Second, it wants to prove to 
the world that the Party is still fully competent in reigning over 
China and still enjoys the people's full support.
    As more Chinese people are waking up and rising up to demand the 
end of tyranny, the call for human rights is becoming louder and 
louder. Under such circumstances, the Chinese communist regime has 
developed a twisted but fragile mentality and a freakish obsession for 
maintaining stability and ensuring the Olympic Games at all costs.
    A recent incident in Beijing fully reflects the regime's fear of 
the people. An old man persevered, until his last breath, in 
petitioning against the forced eviction that robbed him of his home, 
and died for this cause. At his funeral, Beijing police sent hundreds 
of policemen and unidentified personnel in 59 police vehicles (mostly 
vans) to surround the old man's residence to prevent people from 
attending the unyielding old man's funeral (that was being held there).
    Such shameful crimes against people of conscience have been going 
on for decades. A Heilongjiang farmer, Yang Chunlin, was robbed of his 
land. He was arrested for ``instigating others to overthrow the state 
government'' after he cried out, ``We want human rights, not the 
Olympic Games.'' In recent years, the illegal arrests of innocent 
people have gone beyond all limits.
    Dear friends, as a Chinese person, I have a profound love for my 
homeland and our kind-natured and beleaguered people. I also long to 
see the day when the Olympic Games are held in China. But when I look 
at the social environment of China, and how the Olympic Games will be 
exploited here, my conscience and sense of justice make my heart ache. 
As you know, today in China those who link the Olympics with human 
rights are immediately hunted down by the communist regime and its gang 
as ``the enemies of the state,'' ``the sinners of the people,'' and 
``the destroyers of social harmony.''
    We don't support, nor pretend to support Olympic Games that are 
used as a political tool. Nor can we support or pretend to support 
Olympic Games that have no consideration for human conscience, justice, 
or morality. In a world where the mainstream political forces value 
profit above everything else, where morality is sneered at, we tried in 
vain to urge the Olympic Games [the International Olympic Committee] to 
perform its duties.
    But still, I choose to express myself in a way that has almost led 
to the annihilation of my whole family. I choose to present to the 
international community what's happening in China, the vivid scenes 
going in parallel with the preparation for the Olympic Games that are 
totally against the Olympic spirit, though at this moment people are 
busy congratulating themselves on what they have gained in the coming 
Olympic Games. I choose to do so despite the danger I may bring to 
myself because I consider it my obligation as a human being and as a 
Chinese person.
    The Chinese Communist Party is a criminal group that operates under 
the protection of state powers. It is essential to realize its criminal 
nature so that we can come to the objective conclusions and in turn 
make the right decisions. I know clearly that due to their greed for 
profit, not many people would publicly acknowledge this observation, 
while too many people will just pretend they don't believe it.
    It is widely agreed that for any legal government, its nature and 
basic moral standard must be to protect the values embodied in the 
constitutional law. What we've seen in China is just the opposite. This 
regime has become the obstacle for people to defend their basic rights, 
and has always gone all out to trample on China's constitution. 
People's constitutional rights have become an eternal snag. As a single 
exception, the only law that the communist regime treats with any 
seriousness is ``the constitutional law ensures the permanent reign of 
the Chinese Communist Party in China.''
              i. the ongoing bloody religious persecution
    The virtues taught by true beliefs, when manifested in society, 
mean only disaster to the evil. Though the freedom of belief is 
dictated by China's constitutional law, the communist regime has never 
stopped fighting people's right to choose their own beliefs, a right 
that is justified by human nature. On the other hand, without a court 
that can enforce the constitutional law, the law has no effective 
bonds. Even so, the communist regime takes great pains to make sure the 
constitutional law is completely suffocated with numerous orders and 
regulations (for example, the Annual Regulation on Religious Affairs 
issued by the State Council of China).
    The bloody persecution of Falun Gong, starting in 1999, has 
surpassed all evils ever known to mankind. In the past eight years, 
over 3,000 Falun Gong practitioners have been confirmed killed, and 
countless others injured. Hundreds of thousands of practitioners have 
been sent to labor camps. Millions were illegally detained in the 
countless brainwashing camps established in every corner in China by 
the notorious 610 Office, an agency founded to lead the persecution of 
Falun Gong. Such brainwashing camps require even simpler procedures for 
admittance than the labor camp system, while the methods used to 
``educate'' the practitioners are shockingly cruel.
    Tens of millions have been persecuted in various ways. A large 
number of children have been expelled from school only because their 
parents practice Falun Gong. Some of the children were left unattended 
or even homeless after their parents were arrested. (Since last August 
my daughter met many such children who lingered at the gate of her 
school. The children, though homeless, risked their lives to come up to 
my daughter to express their condolence and support. When my daughter 
came back to relay the message, we were stabbed to the heart.)
    The eight-year-Iong suppression of Falun Gong is so far the most 
long-lasting and the most serious human-rights disaster in China and in 
the world. This is why I am emphasizing it early in this letter. As a 
proof of this persecution, I'd like to recommend the investigative 
report I composed after doing an investigation myself. The report 
records the legally acceptable evidence that I collected as an 
attorney.
    One of the cases in the report involves 28-year-old Liu Boyang, who 
held a bachelor's degree in medicine, and his mother, who were both 
Falun Gong practitioners. The mother and son were tortured to death in 
the same building, within less than 10 days of their arrest. The last 
several nights before their deaths, the two could hear each other's 
tragic cries during the torture. The Chinese police serving the 
communist regime committed horrible crimes to the mother and son, 
setting a record of shame that blemishes human dignity in history. By 
the time I was writing my third open letter to the Chinese leaders, the 
corpses of the mother and son were still held by the 610 Office that 
had killed them. Some other victims are stil.1 alive to testify about 
the persecution.
    So today, I would take the liberty to ask you, and to ask all of 
mankind, the following questions:

    1. Are the eight-year-Iong persecution of Falun Gong and the crimes 
against humanity committed by the Chinese Communist Party only a 
problem for the victims? Or are they problems for all of mankind?
    2. Are the CCP's genocide and their crimes against humanity a 
threat only to the victims, or are they a threat to the moral values of 
all of human society?
    3. Is mankind capable of dealing with such genocide and crimes 
against humanity committed under the protection of state power? Here 
three sub-questions may be asked:

        A. Does today's society have the courage and conscience to 
        stand up against the long-standing and openly committed 
        genocide?
        B. If yes, do we have the capability to stop it?
        C. Judging by the definition of crimes against humanity and 
        genocide stipulated in international laws, a large number of 
        CCP officials' conduct meets all the criteria for both crimes, 
        including Jiang Zemin, Luo Gan, Zhou Yongkang and Liu Jing. As 
        for evidence, it is nothing but ample. So after all, it's a 
        question of whether mainstream international society has the 
        sense of responsibility and courage to honestly face this 
        evidence. The evidence includes:

                1). For each of the over 3,000 confirmed cases of Falun 
                Gong practitioners who were persecuted to death (the 
                number is still growing thanks to our indifference), we 
                have:

                        a. their full name, date of birth, 10, and 
                        addresses
                        b. detailed accounts of how they were tortured 
                        to death
                        c. documents to prove their deaths
                        d. their corpses, ashes, and tombs as material 
                        evidence
                        e. testimony from their living families or 
                        friends
                        f. evidence for their arrests in most cases
                        g. for those whose organs were removed, the 
                        stitching on the bodies and the telephone 
                        conversation record with involved hospitals, 
                        and evidence provided by the transplant doctors 
                        involved
                        h. a large number of photos of the dead bodies
                        i. The people responsible for the killing are 
                        still alive and can be summoned and 
                        investigated by a special tribunal.

                2). Many Falun Gong practitioners were never heard from 
                after their arrest. Their families can testify.
                3). Over 100,000 survivors who can testify about the 
                tortures they suffered, such as electric shock on 
                private parts, tortured with the ``tiger bench,'' and 
                pricked by sharp bamboo sticks.
                4). Tens of thousands of surviving Falun Gong 
                practitioners who had been detained in labor camps
                5). Those who are stilled jailed in labor camps
                6). Millions who used to be detained in the 
                brainwashing camps
                7). Those who are still detained in the brainwashing 
                camps
                8). A large but unidentified number of children who 
                were expelled from school and left homeless
                9). Tens of millions who lost their jobs and financial 
                sources, who were denied freedom and the right to go 
                abroad
                10). People of conscience within the CCP system who can 
                serve as witnesses

    4. The issue all of us have to face is whether to pursue punishment 
[of the criminals]. Is China an exception when it comes to Public 
International Law for its crimes against humanity and genocide? We 
should not ignore difficulties to start this process due to the fact 
that the CCP has seized state power to give shelter to the criminals. 
However, it is feasible, possible, and necessary from the perspective 
of International Law to launch criminal procedures, including issuing 
arrest warrants, to bring the criminals to justice.

    A significant part of this letter will be dedicated to the Falun 
Gong issue, as the persecution of Falun Gong is the worst disaster to 
humanity in this era. It does not mean, however, that the rights of 
other religious groups in China are not violated. The CCP's continuous 
suppression of Christian family churches is comparable to the shocking 
persecution of Falun Gong. Except for large cities such as Beijing and 
Shanghai, where people strongly oppose the persecution and force the 
dictators to become somewhat restrained, the persecution in townships 
and villages toward family church members is no different from the 
disaster suffered by Falun Gong practitioners.
    In my hometown, a small county, the number of arrested, detained, 
and robbed family church members each year is far beyond those 
persecuted Falun Gong practitioners [in the county], and this illegal 
persecution has been going on for a long time. Based on my 
investigation on the persecution toward family church members in the 
Xinjiang Uighur Autonomous Region, the CCP has trained a dedicated 
group of police to focus on harassing, persecuting, and suppressing 
family church members, year-in and year-out. Just recently Mr. Zhou 
Tong and others in Xinjiang were illegally detained. The CCP's 
persecution of Christians is an open secret.
    In recent years, the CCP has also escalated the level of brutality 
and cruelty of its persecution toward Tibetan Buddhists.
       ii. the brutal suppression of people's freedom and rights
    Freedom is one of the most important spiritual factors of a human 
being. In addition to physical needs, man is the only creature on this 
earth to also have his equally important spiritual needs. It is a clear 
manifestation as to how blessed human beings are in the eyes of God. 
However, the Chinese people are ruthlessly deprived of this blessing by 
those in power. In China, freedom is not only a luxury item, but it 
also is regarded as a dangerous item by several generations of 
dictators. The suppression of people's longing for freedom is against 
human nature and against heavenly principles.
    Freedom of speech and freedom of the press are basic indicators of 
a civilized society, and they are also the basic building blocks of 
freedom, especially social freedom in today's world. For a country 
without rule by law, freedom of speech and freedom of the press are the 
only ways to ensure people's rights and safety. Without this freedom, 
one can imagine how unabashed the dictators are and how helpless the 
suppressed groups are.
    The CCP has always considered the control of media as a key 
political task. When implementing this task, the plagues for the CCP 
have never been any conscientious regret, but only problems arising 
from technological challenges. Recently, especially in the past three 
or four years, along with people waking up to pursue their rights and 
freedom, the CCP has become paranoid and has tried to use every method 
to control the media. It has created shocking incidents suppressing 
people who practice their rights of freedom on the basis of law.
    In the past two years, Mr. Zheng Yichun, Mr. Yang Tianshui, Mr. Guo 
Qizhen, Mr. Guo Feixiong, Mr. Yang Zhengxue, Mr. (Wang) Lihong and a 
large number of other renowned Internet writers were illegally 
detained, and more recently, the CCP illegally arrested Mr. Lu Gengsong 
and harassed his family, turning a deaf ear to all appeals from home 
and abroad.
    Recently, the CCP's Ministry of Public Security issued an urgent 
notice to order Internet Data Center (IDC) providers to shut down all 
forums, blogs, and other online information exchange platforms before 
the 17th National Congress. If one center is found to have more than 
seven sites of online platforms, it will be shut down and heavily 
fined. This is another evil campaign in the CCP's atrocious history to 
illegally suppress the media.
    Freedom of association is regarded as a threat by dictators. In a 
country without freedom of association, people have no way to create a 
strong union to defend themselves from the brutal dictatorship. How can 
a group of people without any connection, as a result of lack of 
freedom of association, challenge a regime fortified with weapons as 
its state machinery? The feeling of fragility and frustration of the 
Chinese people is beyond imagination for those in a democratic country. 
In China, the whole nation is subdued by a small group of hooligans who 
segregate and persecute people, one group after another. Even the 
thought and speech about establishing another political party is 
regarded as a first-level terrorist event and is illegally suppressed.
        iii. furious suppression of the rights defense movement
    In recent years, the CCP has furiously suppressed the Chinese 
peoples' rights defense movement to the edge of lunacy. A typical 
example is the case of Chen Guangcheng. When Chen Guangcheng, a blind 
man and a human rights defender, learned of family planning abuses in 
Linyi City, Shandong Province, through his own investigation, he made 
public the CCP's practice of forced abortions and sterilizations. Chen 
said that a human being should be allowed to travel freely to the 
country and the world. However, his single voice caused the whole 
Chinese communist regime to panic. Their reaction was not to stop the 
continuation of these crimes committed throughout the entire country, 
but to exert brutal persecution against the upright and brave hero Chen 
Guangcheng, along with his innocent wife, young son, and elderly mother 
in her seventies.
    The CCP's birth control policy is the largest genocide in the 
history of mankind. Millions of unborn each year have lost their lives 
simply because a few dictators made such a policy. (The Chinese regime 
officially released figures that the birth control policy has helped 
prevent 400 million births in the last 20 years). Common people who 
have not obeyed the policy have received extremely harsh punishment. 
The startling evidence of these excessive crimes by the CCP that blind 
Chen Guangcheng happened to ``witness'' and exposed to the public--
these are just a small fraction of the long list of the CCP's countless 
crimes.
    In such cruel and inhuman ways, the CCP suppresses and persecutes 
the populace. Since Chen helped local villagers in their attempt to sue 
the local authorities in Linyi City for carrying out an illegal policy 
of forced abortions and sterilizations that reportedly affected 
thousands of local women, Chen has suffered severe beatings, illegal 
detentions, false accusations, and his family has also encountered 
endless harassment and persecution.
    The CCP has been criticized as being completely insane and 
inhumane, which is very true. The CCP has no regard for consequences 
and commits crimes at all costs. The CCP knows clearly to what an 
excessive and heinous extent it has committed crimes against humanity, 
the people, and the country, and that the atrocities are startling. On 
one hand, they continue to deceive people and commit crimes. On the 
other hand, the CCP covers its lies and crimes at any cost. The whole 
Party focuses its effort on covering up its lies and crimes, which is 
labeled as ``political awareness'' among all levels of government 
organizations and CCP committees.
    Here I want to remind the ladies and gentlemen of the open letter 
to Hu Jintao, written by the prominent human rights defender Guo 
Feixiong's wife, which contains a detailed account of Guo's horrifying 
experience during a year in prison. Guo is a human rights defender of 
complete integrity in both personality and conduct. His firm 
determination and persistence in his human rights work threw the 
communist regime into panic. In two years, Guo was detained three 
times, during which he had his first hunger strike for 40 days and 
second for 59 days. The letter revealed how the communist dictatorial 
system had blatantly tortured Guo against humanity and civilization:
    ``According to Guo's attorney, Mo Shaoping, during a prison visit 
on September 29, 2006, Guo told Mo that he was subjected to around-the-
clock interrogation for 13 days. Guo had gone on a hunger strike for 15 
days in protest against the torture he had received since his 
detainment on September 14, on suspicion of illegal business activity.'
    ``During his detention, he was subjected to physical abuse and was 
handcuffed and shackled to his bed for 42 days. Guo experienced the 
worst treatment after being transferred to a detention center in 
Shenyang City, Liaoning Province. There interrogators heavily beat him, 
shackled his hands behind his back, and sat him on a tiger bench. As a 
result, overpressure from the torture damaged his shoulder joints. Even 
more brutally, the police, headed by Tao Zhongge and Yang Naixin, 
applied a high-voltage electric baton to his genitals. On August 7, 
2007, Guo told his attorney that this brutality of viciously and 
continuously striking his genitalia damaged his health and lead to 
incurable injury to his body.
    ``All of these to us are just like nightmares that we cannot get 
away from. In the past two or three years, the precipitous, cruel 
reality around us has become the main theme of our lives. How can the 
world become so absurd, and what on earth will it drive people to? If 
we hadn't personally experienced the suffering and pain, we could not 
believe such incomprehensible things happening around us.
    ``President Hu Jintao, what I have seen is this: Your face looks 
calm and smiling, shown along the headlines of major newspapers; your 
manner of statesmanship plays well in domestic and international news; 
moreover, you are often found to be associated with bright events and 
warm scenes. But here, at this moment, I have to tell you a story that 
one cannot bear to listen to, as if it had happened on some other 
world.
    ``What is actually going on? Why have all of these things happened? 
Does the harmonious society that people dream about and long for truly 
exist? How far is this ideal from my own life? How far away are we from 
having true human rights? To the disgrace and indignity of all 
humanity, on February 12, 2007, police forced a confession from Guo 
after using electric batons to shock his genitals, but they were not 
quite satisfied. On the night of March 19, officers dragged him to a 
secret location for his final interrogation and reportedly beat him. 
They tortured him the same way they would treat a death-row prisoner--
with his face covered and hands tied. They beat him fiercely and 
concluded their abuse by shoving an electric baton into his pants and 
striking his genitals continuously for about five to six minutes.''
    I am not able to see your facial expressions as you read these 
stories that tell how Hu's regime treats people of conscience. Few 
people in China would be surprised about hearing such things. 
Unfortunately, this is because our government has subjected too many to 
this savage behavior for too long. Among both male and female Falun 
Gong practitioners that I have been in contact with, the majority of 
them were tortured and humiliated through the assaulting or shocking of 
their genitals with electric batons.
    Since the beginning of this year, there have been large-scale 
forced abductions of appellants in Beijing, Shanghai, and other cities. 
The bloody violence occurring in broad daylight is shocking.
             iv. evil conduct of stealing private property
    The Constitution of the Chinese Communist regime also regards the 
protection of private property as a constitutional principle. However, 
for over half a century, the regime has conducted enormous and 
indescribable crimes against property owners. As stated by Jean-Jacques 
Rousseau, when people feel the need to unite themselves into civil 
societies, ``you will find no other motive than that of assuring the 
property, life, and liberty of each member by the protection of all.''
    The United States is fortunate in that legislators came into being 
after the War of Independence. The disaster of China's situation stems 
from a militant and imperious regime that emerged during our civil war. 
This ruling force, whose evil deeds have become almost second nature, 
has continued to use its power to steal people's property.
    Let's look at some examples of how the Chinese government has 
continued to abuse people's rights through confiscating their property. 
On Jan. 18, 1956, the Secretary of the CCP Central Committee stipulated 
a policy known as ``Management Leasing of Properties'' which demanded 
that private -property owners turn over their land rights to the 
government. The government would then take control over the leasing and 
management of these properties, giving the former owner a symbolic rent 
fee at a shockingly low rate. This campaign affected 700,000 
households, with the government taking over approximately 130 million 
square meters (80,800 sq miles) of private property.
    In Beijing alone, six thousand households were ordered to turn in 
their property, which amounted to 199,147+ homes. It was later revealed 
that this particular plunder was yet another massive theft of private 
property after the government's Land Reform and Socialist Reform 
programs. However, this round of theft was different from the two 
before in two aspects. First, the constitution was already in place at 
that time. Second, the government had issued a property ownership 
certificate for all these properties before the confiscation. 
Therefore, this very government revealed another side of itself--that 
of a crooked and scoundrel regime. To this day, the government still 
occupies these stolen properties and refuses to return them to their 
rightful owners. Most of these property owners have suffered 
tremendously under the government's ``Management and Leasing of 
Properties'' policy.
    Ning Jinglun's family once owned 18+ houses in Beijing, which were 
turned over to the government in 1958. When an official made a mistake 
calculating the rent, Jinglun, who was 17 at the time, voiced his 
opinion, and was branded for having ``political problems.'' Jinglun was 
sentenced to four years and four months of forced labor for his 
comment, and his mother was held in a detention center for five days. 
During the Cultural Revolution, his father and elder brother were 
beaten to death, due to issues arising from the government's ``leasing 
and managing'' their confiscated property. Jinglun was later labeled a 
counter-revolutionary and was driven out of Beijing along with his 
mother. The property has never been returned to the family.
    Ma Lianfu and his sister were also residents of Beijing. Their 
parents passed away when they were still young. They depended on the 
rental income from their 16+ inherited houses to make a living. After 
the ``Management and Leasing by Government'' campaign in 1958 the 
government only gave them 15.61 yuan (about US$2) per year in rent. At 
that rate, the brother and sister soon became homeless.
    Staff from Tiantanghe Farm forcibly took the Ma's into their labor 
camp. It was not until 1992; that they returned to Beijing, jobless and 
homeless. These two elderly people have suffered many heartbreaking 
ordeals. Even today, the government periodically puts the Ma's under 
house arrest during major festivals and CCP celebration events.
    Year after year, hundreds of thousands of victims of the 
``Management and Leasing of Properties'' policy and their heirs 
continue to struggle with appeals for their unjust situation. On 
December 15, 2006, the CCP's Construction Administration Department 
issued a No. [2006]208 document regarding housing. emphasizing that 
``properties confiscated under the `Management and Leasing of 
Properties' policy are explicitly owned by the state. Ownership status 
must not be changed.'' The document also instructed local authorities 
to pay attention to these properties as they are ``political'' issues 
and ``sensitive'' in nature. It reads: ``For issues related to these 
properties, no one is allowed to conduct interviews or report these 
issues without approval from the Construction Administration 
Department.'' Millions of individual's property ownership rights were 
thus denied by part of an unconstitutional document.
    In today's China, those who are in power are indeed worthless in 
terms of virtue and conscience. Even worse than their suffering a 
deficiency of such attributes, these individuals gained power precisely 
because of their lack of virtue and conscience. The rich do not even 
spare a tiny portion of their wealth to benefit the society. They are 
infinitely more concerned with maintaining the status quo than in 
changing it. They've colluded into a political clique despised by all 
and respected by none. With the excuse that their parent's generation 
had made indescribable accomplishments to justify today's dictatorship, 
they grasp and protect their privilege at all costs.
    The barrels of guns, police, and prisons are all that account for 
their ``spiritual'' wealth. Without virtue or conscience, they stop at 
no evil; they seem to have no limit when it comes to committing evil. 
They never concern themselves with how much they're hated or the 
negative image they project because they can resort to the above-
mentioned ``spiritual'' wealth to further their pursuits. The massive 
shared hatred against this political clique constitutes yet another 
``possession'' in their life, on top of all their existing evilness.
    Over the last 15 years, this political clique has forcibly torn 
down civilians' private homes to a completely irrational extent. They 
have forcibly torn down countless homes of the poor--an act no 
different than stripping the clothes off a person suffering poverty in 
the cold of winter. Their crimes do not just stop here. For a long 
time, through terror and duress they have relentlessly fought the 
appeal and accusation that would otherwise arise from their victims.
    Take Shanghai as an example. For over a decade, courageous local 
citizens went to Beijing, one group after another, to expose the crimes 
of [various Communist Party officials] Huang Ju, Chen Liangyu, Han 
Zheng, Liu Yungeng, Wu Zhiming, and others. Several lost their lives in 
doing so; while many others endured illegal surveillance, home-
ransacking, detention, forced-labor, imprisonment, forced submission 
into mental hospitals, harassment, having their phones tapped, and all 
kinds of suppression. Recently, 215 courageous Shanghai citizens, 
including the renowned human rights lawyer Zheng Enchong, wrote an open 
letter to the CCP's chairman Hu Jintao, enumerating the crimes 
committed by the p6litical clique in Shanghai that had harmed people's 
personal rights and property rights to the extreme. In an open letter 
they wrote: II By any means necessary, they drove 2.8 million Shanghai 
citizens from the center of the city to the suburbs, and forcibly 
confiscated farm land and tore down residences originally belonging to 
one million farmers in the outlying suburbs.''
    For more than a decade, Shanghai has been the origin and center of 
forceful land appropriation and coercive residence tear-downs to force 
people to move. In the past two years alone, the Shanghai city 
government organized 4,000 cadres from the appeals office to serve as a 
large-scale force to prevent victims from appealing. The government 
also organized a gang of ruffians to beat up civilians in order to 
implement the city's plan to appropriate land. Civilians' bodies were 
brutalized; sometimes their lives were taken away. All channels to 
appeal were completely blocked.
    Since 2006, citizens beaten to death include Duan Huimin, Du 
Ronglin, Dai Rong, Chen Xiaoming, and others. Some were detained in 
mental hospitals where they suffered severe mental torture. In this 
two-year period, civilians who have had their homes ransacked include 
Zhou Dahua, Ma Yalian, and 14 other families, including two anonymous 
families. Mentally sound individuals who were held in mental hospitals 
include Liu Xinjuan (detained six times), Lu Chunxiang (detained 
twice), and Hong Lingling (who still remains detained). So far in 2007, 
three people have been beaten to death. They are Duan Huimin, Chen 
Xiaoming, and Zhou Dahua.
 v. the environmental disaster will ruin the future of one quarter of 
                         the world's population
    We do not deny some of the economic success the Chinese Communist 
Party has ``accomplished'' in certain forms, but these 
``accomplishments'' are at the cost of destroying human justice, 
morals, and conscience, as well as the environment. In 2005, the 
Environmental Bureau Director said, ``If our environmental protection 
measures could not closely follow economic developments, our economic 
miracle would end.''
    The economic miracle is turning into real life disasters. The algae 
growing in Taihu Lake (located in Wuxi City, Jiangsu Province) proves 
that the CCP does not care if there is water to drink tomorrow, as long 
as there is GDP to brag about today. The energy consumption for each 
10,000 yuan of production in China, is seven times higher than that in 
Japan, and three times higher than in India. A quarter of the land in 
China has been turned into desert, at a rate of 1,900 square miles each 
year. According to a Xinhua News Agency report, 90 percent of the 
underground water is polluted in most cities. Seventy-five percent of 
the rivers flowing through the cities are not suitable for drinking, 
and the fish in them are not suitable for eating. The environmental 
protection measures are showcase in form, just like the showcase style 
economy. It is even more hopeless that small rivers and lakes across 
the whole country are all severely polluted. These small bodies of 
water are the foundation of the nation's environment, but they are not 
included in the protection list.
                  vi. the problems farmers are facing
    The economic development does not benefit the people. Most rural 
areas are still poor, so poor that they are beyond the imagination of 
the outside world. Even though there is no more agriculture tax, this 
tax was merely one of the many reasons for the poverty. Its 
cancellation did not help reduce the degree of poverty.
    The current constitution states that all farm lands belong to the 
state or the commune, while the commune ownership is totally controlled 
by the state. Thus the logic is: ``The state owns the land, the CCP 
rules the state, and the CCP is run by the bureaucrats.'' Therefore, 
the CCP bureaucrats are the biggest landlords because they own all the 
land in China. Billions of farmers in China labor all of their lives on 
these farm fields, but do not own any of it. This is extremely unfair.
    Currently in China, there are 120 million city laborers who are 
rural residents. They are the biggest slave group in human history. 
They are not treated with dignity. They have to do hard labor in very 
severe conditions and are paid $1.50 or less per day. Even with such 
low salaries, payment is often delayed by employers. Although there are 
more than 100 million farmers laboring in the cities, they are deprived 
of the right to form unions. Obviously, as individuals they are 
extremely weak before the authorities, which is the fundamental reason 
why they are taken advantage of.
    After the June 4th Tianamen massacre in 1989, corruption 
accelerated. The economic reform, led by corrupt officials, is in every 
aspect characterized by ignoring the interests of the people. Farmers, 
city laborers composed of farmers, involuntary early retired workers, 
and other weak groups constitute the majority, that is, 70 percent of 
the Chinese population. During the ``Medicare Reform,'' it was 
precisely these 70 percent of Chinese who were excluded from the 
system. Expensive medical costs deprived them of the possibility of 
seeking medical treatment. Hence, tragedies happened in quite a lot of 
the countryside. Elderly people would commit suicide to put an end to 
their illnesses.
    The ``Enterprise Education'' [Translator's note: The ``Enterprise 
Education'' reform means turning. education into a for-profit business] 
proposed after 1989, also brought out the same problem of severely 
harming the rights of the people. Even though there was supposed to be 
nine years of ``free'' education, there was a lack of state financial 
support in many regions. High tuition or intermediate .and higher 
education has become a nightmare to the lower classes. The education 
system monopolized by the state has become more and more corrupt, and 
education has turned into a money-making machine of the academic 
bureaucrats.
    At the same time, in order to pay children's tuition, the lower 
class families are squeezed out of every last penny and down to their 
last drop of energy. Many parents committed suicide as soon as their 
children were admitted into a college. The government statistics showed 
that the bureaucrat group used 400 billion yuan of state funds each 
year on banquets, another 400 billion yuan on touring, and another 400 
billion yuan on vehicles that are allegedly public owned, but only the 
officials have the privilege to use them.
                   vii. extremely unjust legal system
    Today, the corrupt judiciary agencies have gone all out in their 
anti-justice, anti-rule of law conduct. The Supreme Court, which is by 
no means a legislative entity, continuously issues judicial documents 
to disallow citizens the right to safeguard their rights, and to serve 
the needs of the authorities to plunder the Chinese people.
    These documents stipulate that attorneys and judges are not allowed 
to accept cases regarding the forceful destruction of personal housing, 
not allowed to accept cases of farmers losing their fields, not allowed 
to accept cases related to the ``Management and Leasing of Properties'' 
policy, not allowed to accept cases for retired military personnel, not 
allowed to handle early retirees' argument cases, not allowed to 
process Falun Gong cases.
    There is no bottom line in their counteraction to the principles 
and spirits of the judicatory system. To give typical examples of 
wrongful executions in Hebei Province and Inner-Mongolia Autonomous 
Region, such as the wrongly executed Nie Shubin, in order to cover the 
crime, the judicial system refused to pursue punishment of the real 
criminal. The law, moral standard, and sense of justice have 
degenerated to a level lower than that of a common criminal.
  viii. disasters have become a common practice, a part of daily life
    People suffer disasters on a daily basis. For instance, as reported 
on August 30, 2007, in Nanfang Zhoumo (Southern Weekends): On July 29, 
flooding in the Sanmenxia Coal mine in Henan Province trapped 69 miners 
underground. On August 14, 2007, the Fenghunag Bridge in Hunan 
Province, which was still under construction, collapsed and killed 64. 
On August 17, flooding in the Huayuan Coal mine in Xintai City, 
Shandong Province, trapped 172 miners underground, and more than 30 
days later, they still were not rescued. Their chances of survival are 
very little. On August 19, 2007, Zouping County Aluminum Factory had an 
explosion where 16 workers died. On August 30, 2007, a small coalmine 
in Fangshan District, Beijing City, collapsed, and the local government 
decided to stop all rescue efforts in less than 48 hours.
    Shockingly, the local government officials even ordered the 
victims' coworkers to stop their self-initiated rescue efforts. Mr. Liu 
Guojun and others were locked up, to prevent them from continuing the 
rescue, until the two trapped workers miraculously walked out alive 
after 132 hours. These two survived by struggling with indomitable 
courage and drinking each other's urine during the entire self-rescue. 
Many people made sarcastic comments about the inhumane order issued by 
the local government: ``It was a good thing that these two workers did 
not know the government's `scientific decision' to disallow anyone to 
rescue them; otherwise, their escape would be illegal, as judged by the 
`scientific decision' of the government.''
    Dear Ladies and Gentlemen, the CCP regime has deprived me of my 
rights of freedom of speech and press for more than one year by means 
of the most primitive methods. As soon as I started to write this, my 
heart was filled with an upsurge of emotions. I am writing to you based 
on my firm belief, which is to say: I know that the above crimes truly 
exist, and have offended the sense of justice and freedom of the whole 
human race, including yours.
    I truly believe that you all share those beliefs, and know that 
whoever does nothing in front of such truth, has given up human 
sensibility and responsibility. I truly believe that you all know, as 
we do, that western governments are sacrificing ethics and values in 
exchange for political and economic benefits that are right in front of 
their eyes.
    I truly believe that you are all, as I am, longing to work to lift 
up human principles, change the tyranny, stop the evil, and end the 
common embarrassment facing the entire human race. I truly believe that 
you all, as I do, recognize that dictatorship and the inheritance of 
the dictatorial system generation after generation, is equal to 
treating all Chinese people as privately owned livestock as well as 
``inheriting'' people as livestock when the leadership changes hands. 
The reason the dictatorship receives such inheritance is not due to 
their ability or virtue, but their lack of virtue. If this reality does 
not change quickly, human rationality will continue to be blemished and 
offended.
    You all must believe, as I do, that to satisfy the evil 
totalitarian regime's request to host the Olympic Games, is a dark 
chapter in the history of the Olympics, and puts shame on the whole 
human race.
    My dear ladies and gentlemen, writing this letter is a heavy thing. 
If these crimes only happened once or several times, I believe each one 
of you would be as indignant as I am. Yet, in today's China, these 
inhuman tragedies have become a common situation that is happening all 
over the country. Many people have become used to it, and they are 
indifferent.
    The reason the CCP can sustain its power, is that by purposely 
attacking our conscience with violence, and numbing our conscience with 
lies, it is eroding our virtue on a daily basis, until out of their 
helpless state, some people start to rely upon the CCP, which in turn 
evolves into passive support.
    Furthermore, it has degenerated a great number of people's basic 
moral standards, to the extent that this group of people even defends 
and justifies CCP atrocities. Thus, the regime feels temporarily 
relieved because its power is apparently secure. Today, the CCP is 
expanding its strategy of moral corruption to the whole world. If the 
CCP succeeds in hosting the Olympics, it is equal to the success of its 
global moral corruption.
    My dear ladies and gentlemen, a society has its ``immune'' 
mechanisms to avoid huge sins through morals, laws, public opinion, 
checks and balances, supervision, and the like, because everyone wishes 
to live in peace, and not in terror. When we witness those crimes 
against humanity happening all over the country, and those evil deeds 
challenging people's basic senses happening in the legal system, media, 
and the environment, we have no choice but to admit to ourselves that 
our social ``immune'' mechanism is completely destroyed.
    The force destroying the mechanism and keeping it from rebuilding 
is the Chinese Communist Party. If you are concerned about me, as a 
lawyer, from the standpoint of the legal system, I must remind you 
directly that no one more eagerly longs for the justice of the legal 
system than I myself as a victim, but every day the CCP exists is a day 
we cannot realize judiciary justice.
    Dear ladies and gentlemen, Dr. Martin Luther King said,

        ``Injustice anywhere is a threat to justice everywhere.'' 
        (Letter From a Birmingham Jail, Martin Luther King, Jr., April 
        16, 1963)

    The CCP's logic on this subject is backwards. For them, ``Justice 
anywhere is a threat to injustice everywhere.'' Even if justice does 
not want to combat the evil as an enemy the evil will attack justice as 
its enemy because the existence of justice itself blocks the path of 
evildoers.
    Dear ladies and gentlemen, there is both sadness and hope existing 
in China now. It is sad that officials at different levels have reached 
a certain harmony in robbing common people's properties; bribery is 
transmitted from bottom to top; and the higher levels are protecting 
the lower level's crimes. Chinese society is in a twisted balance, like 
an ecological system, tolerating mistakes, self-adjusting, self-
accommodating, and self-assembling.
    This twisted ecological ``balance'' is the fundamental support for 
the CCP regime, which explains why a regime that has committed all 
kinds of evils has not been overthrown yet. No matter what beautiful 
wishes Hu Jintao and Wen Jiabao may have, they are completely incapable 
of changing this state as individuals.
    The hope lies in the religious groups, be it Falun Gong or 
Christians, that are rebuilding morals by pursuing their faith. They 
are changing the destiny of China through their peaceful protest of the 
CCP's tyranny, and by pursing their faith, they are becoming the 
foundation of China's development and stabilization in the future. Any 
politician wishing to have interaction with China must not ignore this 
force.
    Making changes in China seems so difficult because the CCP owes an 
unbearable debt--it has killed 80 million Chinese citizens, and is thus 
less forgivable than even the Nazis. In turn, precisely because the CCP 
is fully aware of this un-repayable debt, it killed those students who 
requested democracy on June 41 1989. On the other hand, changing China 
is so easy, that is, it can be done through a moral awakening in every 
person. A lot can be done in this regard.
    If you can use your actions, not just words, to support those free 
media outlets which expose the CCP's crimes, support the efforts to 
break the CCP's Internet blockade and send the truth to mainland China, 
and support the organizations who peacefully renounced the CCP to 
regain self-conscience, China will change very soon.
    My dear ladies and gentlemen, you fully have the ability to take 
action now to stop all of the CCP's crimes against humanity. Just as 
President Reagan said, ``If not us who? And if not now, when? I 
Finally, I'd like to quote the words of the 32nd president of the 
United States, Franklin Delano Roosevelt, in his State of the Union 
Address in 1941 as the ending of my letter,

        ``In the future days, which we seek to make secure, we look 
        forward to a world founded upon four essential human freedoms. 
        The first is freedom of speech and expression--everywhere in 
        the world. The second is freedom of every person to worship God 
        in his own way--everywhere in the world. The third is freedom 
        from want--which, translated into world terms, means economic 
        understandings which will secure to every nation a healthy 
        peacetime life for its inhabitants--everywhere in the world. 
        The fourth is freedom from fear.''

    Upon finishing this letter, I heard that President Bush had decided 
to join the Olympics next year. Pardon my manners here, but I'd like to 
shout out, ``Mr. President, What are you doing? Have you looked at how 
President Reagan handled the 1988 Seoul Olympics? '' I want to remind 
my friends here as well, I hope my friends in the Congress, both the 
Senate and the House, can establish merit for human civilization, as 
was done during the 1988 Seoul Olympics.
    Jesus said, ``Do unto others as you would have them do unto you!'' 
Those struggling in the CCP prisons, those crying under the CCP's 
tortures, those roaming around to avoid mistreatment, all of these 
people need your help. When the CCP welcomes you with salutes, red 
carpets and champagne, when the skyscrapers and splendid neon lights 
dazzle your eyes, I hope you will think of those suffering people. May 
God bless America. May God give each person a sense of justice, 
responsibility, and firm determination. May the light of freedom shine 
upon China proper, allowing evil no place to hide, and may the 
mistreated no longer be in pain.

            Respectfully,
            Wishing peace and health to all!
            Gao Zhisheng
            September 12, 2007

                                 <all>

</pre></body></html>
